i
APPENDIX
TABLE OF CONTENTS
Appendix A Opinion of the United States Court of
Appeals for the Sixth Circuit
(April 25, 2019) . . . . . . . . . . . . . . . App. 1
Appendix B Order of the United States District
Court for the Southern District of Ohio
(August 9, 2017) . . . . . . . . . . . . . App. 48
Appendix C Addendum to Order of the United
States District Court for the Southern
District of Ohio
(August 14, 2017) . . . . . . . . . . . App. 109
Appendix D Judgment of the United States
District Court for the Southern
District of Ohio
(August 9, 2017) . . . . . . . . . . . . App. 111
Appendix E Order of the United States District
Court for the Southern District of Ohio
(April 19, 2017) . . . . . . . . . . . . . App. 113
Appendix F Order of the United States District
Court for the Southern District of Ohio
(October 6, 2016) . . . . . . . . . . . . App. 115
Appendix G Order of the United States Court of
Appeals for the Sixth Circuit
(March 22, 2016) . . . . . . . . . . . . App. 183
Appendix H Order of the United States District
Court for the Southern District of Ohio
(October 20, 2014) . . . . . . . . . . . App. 224

ii
Appendix I Order of the United States District
Court for the Southern District of Ohio
(August 30, 2012) . . . . . . . . . . . App. 248
Appendix J Order of the United States Court of
Appeals for the Sixth Circuit Denying
Rehearing
(June 7, 2019) . . . . . . . . . . . . . . App. 268
Appendix K T. Mallon Discussions with T.
Arquilla and A. Middleton, MCEP1600000742 . . . . . . . . . . . . . . . . . . App. 270
Appendix L HealthLeaders InterStudy, Dayton
Market Overview, UHCS0001980 Excerpts
(November 2011). . . . . . . . . . . . App. 272
Appendix M Declaration of A. Rintoul
(August 27, 2014) . . . . . . . . . . . App. 283

App. 1

APPENDIX A
RECOMMENDED FOR FULL-TEXT PUBLICATION
Pursuant to Sixth Circuit I.O.P. 32.1(b)
File Name: 19a0078p.06
UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT
No. 17-3863
[Filed April 25, 2019]
________________________________
THE MEDICAL CENTER AT
)
ELIZABETH PLACE, LLC,
)
Plaintiff-Appellant,
)
)
v.
)
)
ATRIUM HEALTH SYSTEM, et al.,
)
Defendants-Appellees.
)
________________________________ )
Appeal from the United States District Court
for the Southern District of Ohio at Dayton.
No. 3:12-cv-00026—Walter H. Rice, District Judge.
Argued: April 25, 2018
Decided and Filed: April 25, 2019
Before: BATCHELDER, SUTTON, and WHITE,
Circuit Judges.
_________________

App. 2
COUNSEL
ARGUED: Richard A. Ripley, RUYAK CHERIAN LLP,
Washington, D.C., for Appellant. Shay Dvoretzky,
JONES DAY, Washington, D.C., for Appellees. ON
BRIEF: Richard A. Ripley, Brittany V. Ruyak, RUYAK
CHERIAN LLP, Washington, D.C., James A. Dyer,
Patrick O’Shaughnessy, SEBALY, SHILLITO + DYER,
Dayton, Ohio, for Appellant. Shay Dvoretzky, Robert
Stander, JONES DAY, Washington, D.C., Melinda K.
Burton, FARUKI IRELAND COX RHINEHART &
DUSING P.L.L., Dayton, Ohio, Thomas Demitrack,
JONES DAY, Cleveland, Ohio, for Appellees.
BATCHELDER, J., delivered the opinion of the
court in which SUTTON, J., joined, and WHITE J.,
joined in part. SUTTON, J. (pp. 24–26), delivered a
separate concurring opinion. WHITE, J. (pp. 27–30),
delivered a separate opinion dissenting in part.
_________________
OPINION
_________________
ALICE M. BATCHELDER, Circuit Judge. This is a
case about competition among hospitals in Dayton,
Ohio. When Medical Center at Elizabeth Place, LLC
(“MCEP”) opened in 2006, it was an acute care, forprofit hospital owned by 60 physicians and one
corporate shareholder. By 2009, MCEP’s existence as
a physician-owned enterprise came to an end when it
sold an ownership interest to Kettering Health
Network, a competitor in the Dayton healthcare
market. MCEP alleges that it failed because of the
anticompetitive actions of Premier Health Partners

App. 3
(“Premier”), a dominant healthcare network in the
Dayton area. MCEP alleges that Premier contracted
with area physicians and payers (insurers and
managed-care plan providers) on the condition that
they did not do business with MCEP. Because payers
provide patients and physicians provide services, it is
difficult to run a viable hospital when one, let alone
both, is in short supply.
So, whether by licit or illicit means, Premier won
that competition. In this litigation, the parties
competed again. This time, MCEP pushed all its chips
to the center of the table on one hand of cards: a claim
that Premier had engaged in conduct so devoid of
benefit to the market as to be per se illegal under the
Sherman Act. Such claims apply only to a limited range
of conduct. To be per se illegal, a defendant’s conduct
has to be so obviously anticompetitive that it has no
plausibly procompetitive features—a high hurdle for
plaintiffs claiming restraint of trade. Once they clear it,
however, plaintiffs receive a corresponding reward:
they need not undergo the often arduous process of
showing that the challenged conduct was
anticompetitive. As one of our sister circuits has
described it, “[t]he per se rule is the trump card of
antitrust law. When an antitrust plaintiff successfully
plays it, he need only tally his score.” United States v.
Realty Multi-List, Inc., 629 F.2d 1351, 1362-63 (5th Cir.
1980).1

1

The other approach to determining whether a restraint of trade
is “unreasonable” is the “rule of reason.” In re Southeastern Milk
Antitrust Litigation, 739 F.3d 262, 270 (6th Cir. 2014). “If the rule
of reason is used, plaintiffs must additionally show that the

App. 4
The question before us is whether MCEP
successfully played its hand. The district court from
which MCEP appeals found that MCEP’s per se claim
failed because the record showed that Premier’s
contracts with payers and physicians had plausibly
procompetitive features. That holding says nothing
about whether Premier’s conduct was on balance
procompetitive or anticompetitive. This opinion
likewise reaches no decision on the ultimate economic
merits of Premier’s actions because to do so would go
beyond our charge. We must address only the question
of per se illegality, and as to that, we agree with the
district court that MCEP failed to meet the high
standard required for per se claims. We AFFIRM.
I.
MCEP alleges a conspiracy between the Premier
hospitals that implicates, without naming as
defendants, payers and physicians in the Dayton area.
During the course of this multi-year litigation, various
legal issues raised in this case have been ruled on by
U.S. District Judge Black, a Sixth Circuit appellate
panel, and then, after the matter was remanded and
Judge Black recused himself, District Judge Rice, who
granted the motion for summary judgment presently
before us.

restraint produced anticompetitive effects within the relevant
product and geographic markets, while the per se rule is reserved
for restraints that are so clearly unreasonable that their
anticompetitive effects within geographic and product markets are
inferred.” Id.

App. 5
Factual Background
MCEP is an acute-care hospital located in Dayton,
Ohio, that opened in September 2006 with 60 physician
owners and one corporate shareholder, Regent Surgical
Health. Defendants in this case comprise four
hospitals—Miami Valley Hospital (owned by
MedAmerica Health), Good Samaritan Hospital (owned
by Catholic Health Initiatives), Atrium Medical Center
(owned by Atrium Health Systems), and Upper Valley
Medical Center—as well as a joint operating company,
Premier Health Partners (“Premier”), formed through
a joint operating agreement among those four
hospitals.2 This joint operating agreement merged some
of the hospitals’ healthcare functions but allowed them
to retain control of others. Med. Ctr. at Elizabeth Place
v. Atrium Health Sys. (“MCEP I”), 817 F.3d 934, 936-37
(6th Cir. 2016). Hospital Defendants comprise a
dominant healthcare network in the Dayton area, with
more than a 55% share of Dayton’s inpatient surgical
services.
In spite of its dominant market position, the record
leaves no doubt that Hospital Defendants felt
threatened by the possibility of MCEP’s presence in the
Dayton medical market. Five months before MCEP
opened for business, Hospital Defendants held a board
meeting at which, “[b]y consensus, the Board supported
management’s efforts” to oppose MCEP. Executives
from Premier told an MCEP shareholder that Hospital

2

In this opinion, we refer to the four hospitals and the joint
operating company collectively as “Hospital Defendants” except
where otherwise noted.

App. 6
Defendants “would do whatever they needed to do in
order to stop [MCEP] from opening.”
Hospital Defendants’ underlying concern appears to
have been that MCEP’s for-profit, physician-owned
model of healthcare would “bankrupt” their hospitals.
A letter written by primary care physicians (most of
whom were affiliated with Hospital Defendants),
addressed to physicians in the Dayton healthcare
market, expressed the dynamic they found worrisome:
There is currently widespread opposition among
not-for-profit community hospitals across the
country toward physician owned inpatients [sic]
hospitals such as this. The physician investors
are doing so for reasons of profitability. MVH
and GSH offer the range of services and the
quality of care necessary to enable surgeons to
care for their patients. A physician owned
specialty hospital will take the better-insured
and more profitable patients away from Premier
(along with ancillary services), leaving our local
hospitals with only the more complex and
underinsured patients.
MCEP, for its part, wrote a “Dear Colleague” letter the
next month, responding:
• While MCEP’s business model will “create a
competitive environment to deliver better
and more efficient healthcare in Dayton,” it
will not drive hospitals out of business;
• MCEP “will not turn away patients on the
basis of payor classification”;

App. 7
• “Premier generates about $1 billion in
revenues and currently has a cash reserve of
over $1 billion. As a non-profit, Premier pays
no taxes. . . . [MCEP] will have revenues that
are a fraction of Premier’s, and our
physician-owned hospital will pay corporate,
personal and property taxes”;
• “[C]omprehensive studies have confirmed
that physician-run hospitals have fewer
medical errors, shorter turnover times, fewer
infections and greater cost efficiencies.”
Citing Hospital Defendants’ board-meeting consensus
and their letter to physicians, MCEP alleges that
Hospital Defendants blocked MCEP from gaining
meaningful access to the Dayton market through a
series of anticompetitive acts that amounted to a group
boycott of MCEP. In its Amended Complaint, MCEP
made only a per se claim; MCEP made no claim under
the rule of reason. MCEP’s Amended Complaint alleges
that Hospital Defendants:
• financially coerced commercial health
insurers or managed care plan providers
(such as Anthem, UnitedHealthcare, Private
Healthcare Systems, etc.) “to refuse to permit
[MCEP] full access to their respective
networks”;
• financially coerced commercial health
insurers or managed care plans to reimburse
MCEP at suppressed rates far below what
Hospital Defendants demanded for the same
services;

App. 8
• threatened
retributive
f ina n c i a l
consequences to physicians who affiliated
with MCEP, and followed through on threats,
“including terminating leases that the
physicians had with the Defendants for office
space”;
• offered payments to physicians “who agreed
not to work with or at [MCEP]; and who
agreed to divest ownership in the Medical
Center”;
• financially coerced physicians affiliated with
Hospital Defendants from “admitting
patients to [MCEP] or referring patients to
physicians who treated patients at [MCEP]”;
and
• deliberately poached physicians from MCEP
who made up a “disproportionately high
number of admissions and then prohibited
them from admitting patients to [MCEP].”
Beyond these allegations, MCEP claims that, in the
course of litigation, it discovered two additional
agreements that comprised part of the actionable group
boycott.3 First, MCEP alleges an agreement among the
payers, induced by Hospital Defendants, not to offer
MCEP a managed care contract. Second, MCEP alleges
3

While there is some dispute about exactly when these claims
were first brought to Hospital Defendants’ attention, there does
not appear to be any dispute that the claims were raised (though
the Complaint was not amended to reflect the new claims) in
MCEP’s opposition to Hospital Defendants’ initial motion for
summary judgment before Judge Black.

App. 9
an agreement among primary care physicians not to do
business with physicians who invested in MCEP
(Hospital Defendants refer to this as the “physician
conspiracy”). Hospital Defendants describe the
relationship of these agreements to the original
allegation using the metaphor of a hub, spoke, and rim.
For these claims, the Hospital Defendants form the
hub; the vertical agreements the Hospital Defendants
made with payers and physicians to exclude MCEP are
the spokes; and the discrete agreements to boycott
MCEP, among the payers and among the physicians,
are at the rim.
MCEP alleged only the “hub” agreement in its
Amended Complaint. Hospital Defendants argue that
the “rim conspiracy” claim is a new, and untimely,
Sherman Act Section 1 claim. MCEP, for its part,
maintains that the additional agreements are simply
evidence of the overarching Section 1 conspiracy
alleged in their Amended Complaint. Regardless of the
exact scope of the alleged boycott, MCEP alleges that
one existed, that it was orchestrated by Hospital
Defendants, and that it prevented MCEP from
succeeding as a going concern. MCEP claims that, but
for Hospital Defendants’ conduct, it would have been
able to contract with payers and physicians, which
would have, in turn, increased competition in the
Dayton healthcare market for consumers of general
inpatient surgical services.
Procedural History
This case was before Judge Black in Cincinnati from
January 30, 2012, to April 19, 2017. During that time,
Judge Black granted Hospital Defendants’ motion for

App. 10
summary judgment on the ground that the MCEP’s
antitrust claim lacked the necessary plurality of actors.
On appeal to this court, a divided panel reversed
Judge Black and rejected Hospital Defendants’ motion
for summary judgment. The panel held that a
reasonable juror could find that Premier comprised
multiple competing entities and, therefore, could
engage in concerted action. MCEP I, 817 F.3d at 945.
The panel did not address other issues raised before it,
such as whether MCEP’s additional rim conspiracy
claims were untimely. Id. at 939.
On remand, Hospital Defendants moved again for
summary judgment arguing, among other things, that
MCEP’s allegation of a per se antitrust violation failed
as a matter of law. Hospital Defendants argued that
their alleged restraints on trade were plausibly
procompetitive which, they argued, is sufficient to
defeat a per se antitrust claim. Because MCEP pleaded
only a per se claim, if Hospital Defendants had
succeeded in this argument, the case would have been
dismissed. Judge Black denied Hospital Defendants’
renewed motion for summary judgment, rejecting
Hospital Defendants’ argument on two alternative
bases: first, the claimed procompetitive effects of the
challenged conduct are subject to genuine dispute and
are therefore an improper basis for summary judgment,
and second, Hospital Defendants “failed to evidence
that their joint contracting has any efficiencyenhancing purpose to which such an agreement is
necessary.” Med. Ctr. at Elizabeth Place v. Premier
Health Partners, 2016 WL 9460026, at *5 (S.D. Ohio
Oct. 6, 2016).

App. 11
The case was set for trial. But on April 19, 2017,
Judge Black recused himself and the case was reassigned to Judge Rice.4 Before Judge Rice, Hospital
Defendants moved to “Clarify Issues for Trial,” which
all parties now agree amounted to a motion for
reconsideration of Judge Black’s October 6, 2016, order
denying Hospital Defendants’ motion for summary
judgment. Less than a week before trial was set to
begin, Judge Rice granted Hospital Defendants’ motion
for summary judgment and dismissed the Amended
Complaint with prejudice. Judge Rice declined to apply
the “law of the case” doctrine, holding that Judge Black
had clearly erred. He found that while Judge Black
correctly articulated the standard for a per se
claim—that the challenged conduct must have no
plausible procompetitive effect—Judge Black failed to
acknowledge that the record showed that the Hospital
Defendants’ challenged restraints had such plausible
procompetitive effects. Judge Rice also rejected MCEP’s
argument that the Amended Complaint implicitly
included claims of rim conspiracies among the payers
and among the physicians—claims that all agree, if
proven, would constitute a per se violation—explaining
that those claims were not contained in the Amended
Complaint, that MCEP’s attempt to “wedge this new
claim into the existing allegations” was improper, and
that the Hospital “Defendants would be severely
prejudiced if MCEP were permitted to amend its
Complaint [again] at this late date.” MCEP asks us to
reverse Judge Rice’s decision granting Hospital

4

Judge Black explained that, as a “Cincinnati duty-stationed
Judge,” he could not preside over a trial in Dayton.

App. 12
Defendants’ motion for summary judgment and to
remand the case for trial.
II.
Summary judgment is warranted if, viewing the
facts in the light most favorable to the nonmoving
party, no material fact is subject to a genuine dispute.
Matsushita Elec. Indus. Co. v. Zenith Radio Corp., 475
U.S. 574, 585-87 (1986).5 We review de novo grants of
summary judgment. Expert Masonry, Inc. v. Boone
Cty., 440 F.3d 336, 341 (6th Cir. 2006).
The parties dispute what de novo review should
entail in this case. MCEP claims that Judge Rice’s
decision to not apply the “law of the case” doctrine was
critical to his decision to grant Hospital Defendants’
motion for summary judgment, and therefore we must
review Judge Rice’s “law of the case” decision de novo.
According to MCEP, Judge Rice could reconsider Judge
Black’s denial of summary judgment only by finding
that Judge Black clearly erred. So, MCEP says, if
5

If a presumption against summary judgment in antitrust cases
is ever appropriate, it is not here. This circuit has applied a
presumption against summary judgment in antitrust actions only
when the case demanded a fact-intensive inquiry under the rule of
reason into issues of intent and motive. In re Southeastern Milk
Antitrust Litig., 739 F.3d 262, 270 (6th Cir. 2014) (quoting Expert
Masonry, Inc. v. Boone Cty., 440 F.3d 336, 341 (6th Cir. 2006)); but
see In re ATM Antitrust Litigation, 554 F. Supp. 2d 1003, 1010 (N.
D. Cal. 2008) (opining that “any presumption against the granting
of summary judgment in complex antitrust cases has now
disappeared”) (citation omitted). Unlike in a rule of reason claim,
in a per se claim intent and motive are not critical determinations.
See Phillip E. Areeda & Herbert Hovenkamp, Antitrust Law,
¶ 1910a (3rd ed. 2011).

App. 13
Judge Rice was wrong that Judge Black committed
clear error, then we must reverse his “law of the case”
judgment. For their part, Hospital Defendants argue
that we should simply review de novo Judge Rice’s
substantive legal conclusions, separate and apart from
Judge Rice’s “law of the case” conclusion.
Ultimately, the Hospital Defendants have the better
of this argument. First, we review for abuse of
discretion Judge Rice’s decision to reconsider Judge
Black’s pre-transfer order. See United States v. Todd,
920 F.2d 399, 403 (6th Cir. 1990). MCEP argues that
abuse of discretion is not the proper standard of review
in a case transferred from one district court to another,
in which a pre-transfer ruling of one judge is altered by
a post-transfer decision of a different judge. We have
foreclosed this argument by holding—in precisely the
scenario identified by MCEP—that abuse of discretion
remains the proper standard of review. See Gillig v.
Advanced Cardiovascular Sys. Inc., 67 F.3d 586, 590
(6th Cir. 1995).6
6

MCEP cites Jimkoski v. State Farm Mut. Auto. Ins. Co., 247 F.
App’x 654 (6th Cir. 2007), for the proposition that Judge Rice’s
“law of the case” decision—specifically his finding that Judge Black
committed clear error—should be reviewed de novo. This
misapplies Jimkoski. Read in context, Jimkoski simply
acknowledged that where a motion for reconsideration concerns
summary judgment, we do not review the district court’s decision
to grant summary judgment for abuse of discretion. Id. at 659. To
do so would insulate the district court’s merits decision from the
proper standard of review—de novo—simply because the motion
that the district court ruled on was a motion for reconsideration.
That concern is not present in this case because we review for
abuse of discretion the decision to grant a motion for
reconsideration (here that means we review the “law of the case”

App. 14
Second, we can find that Judge Rice abused his
discretion in disturbing Judge Black’s denial of
summary judgment only if we have a “definite and firm
conviction that [Judge Rice] committed a clear error in
judgment” such as “rel[ying] upon clearly erroneous
factual findings, appl[ying] the law improperly, or
us[ing] an erroneous legal standard.” See Garner v.
Cuyahoga Cty. Juvenile Ct., 554 F.3d 624, 634 (6th Cir.
2009) (citation and quotation marks omitted). Of these
potential bases for abuse of discretion, MCEP argues
only that Judge Rice improperly applied the law, a
question that we review de novo.
III.
MCEP’s raises two substantive claims on appeal.
First, MCEP argues that the district court erred by
declining to apply the per se rule to Hospital
Defendants’ allegedly anticompetitive conduct. Second,
MCEP argues that the district court erred in rejecting
MCEP’s “horizontal rim claims” due to untimeliness.
Neither argument has merit.
A.
Per se claim
Section 1 of the Sherman Act states that “[e]very
contract, combination in the form of trust or otherwise,
or conspiracy, in restraint of trade or commerce among
the several States, or with foreign nations, is declared
to be illegal.” 15 U.S.C. § 1. Because virtually every

decision for abuse of discretion). But we still review de novo the
merits of the district court’s grant of summary judgment.

App. 15
agreement between parties has the potential to be
considered a restraint of trade, antitrust jurisprudence
limits the range of restraints within the reach of
antitrust law to agreements that unreasonably restrain
trade. In re Southeastern Milk Antitrust Litig., 739
F.3d 262, 270 (6th Cir. 2014). A restraint on trade may
be found to be unreasonable per se or under the “rule
of reason.” Id. As MCEP makes only a per se claim, the
question before us is whether Judge Rice erred in
granting Hospital Defendants’ motion for summary
judgment on the grounds that Hospital Defendants’
conduct falls outside per se illegality. Judges Black and
Rice did not agree in their answer to the underlying
question and the prior Sixth Circuit panel declined to
address it. MCEP I, 817 F.3d at 939 (explaining that
“[t]his appeal looks only at . . . whether defendants’
conduct is the result of two or more entities acting in
concert”).
Although a motion for summary judgment against
a per se claim involves underlying facts, the propriety
of per se treatment “is normally a question of legal
characterization that can often be resolved by the judge
on a motion . . . for summary judgment.” Stop & Shop
Supermarket Co. v. Blue Cross & Blue Shield, 373 F.3d
57, 61 (1st Cir. 2004). There is a presumption against
applying the per se rule “[u]nless the restraint falls
squarely into a per se category.” Southeastern Milk, 739
F.3d at 271. As explained in Expert Masonry, “a
plaintiff must satisfy each element of the per se . . .
test[] . . . in its allegations in order to survive pre-trial
termination.” 440 F.3d at 344 (emphasis added). In
Southeastern Milk, the court held that, even where a
factual dispute exists between the parties over whether

App. 16
a challenged restraint is obviously anticompetitive—
and therefore deserving of per se treatment—the
defendants producing “evidence that the agreement at
issue may have had procompetitive aspects . . .
indicate[s] that this situation would not fall into the
categories of per se unreasonable restraints on trade.”
739 F.3d at 274. The court concluded that “[t]herefore,
especially at the summary judgment stage, this is not
a ‘clear cut’ case of an obviously anticompetitive trade
restraint, and thus the district court was correct to
apply the default standard of the rule of reason.” Id.
Hence, at the summary judgment phase, the right
question to ask regarding per se claims is whether the
plaintiff has shown that the challenged restraint is so
obviously anticompetitive that it should be condemned
as per se illegal. If, in spite of the plaintiff’s efforts, the
record indicates that the challenged restraint is
plausibly procompetitive, then summary judgment for
the defendants is appropriate.
Per se claims against joint ventures
The question before us is further delineated by the
fact that the challenged restraints exist within a joint
venture, which the Supreme Court has noted “hold the
promise of increasing a firm’s efficiency and enabling it
to compete more effectively.” Copperweld Corp v. Indep.
Tube Corp., 467 U.S. 752, 768 (1984). At the same time,
joint ventures often superficially resemble horizontal
concerted action because they involve horizontal
competitors joining together to restrain trade in some
way, such as by coordinating prices. See Texaco Inc. v.
Dagher, 547 U.S. 1, 4 (2006) (denying a per se
horizontal price fixing claim brought by a plaintiff

App. 17
against a joint venture created by Texaco and Shell Oil
that unified their respective gasoline refining and
marketing operations in the western United States
under two brands).
Because joint ventures often have procompetitive
efficiencies, when a joint venture is itself challenged as
anticompetitive, that claim is reviewed under the rule
of reason. Copperweld Corp., 467 U.S. at 768. But when
the conduct of the joint venture is challenged, the
relationship of the challenged conduct to the joint
venture is analyzed to see if the conduct is reasonably
related to the joint venture’s procompetitive features
(and therefore should be judged under the rule of
reason), or is a naked restraint lurking beneath the
veneer of a legitimate joint venture (and therefore
deserves per se condemnation). See Nat. Collegiate
Athletic Assn. v. Bd. of Regents of Univ. of Okla., 468
U.S. 85, 113-15 (1984) (observing that a “naked”
restraint, subject to the per se rule, can exist even
though it is contained in a joint venture agreement that
is, overall, quite competitive). The Supreme Court has
distinguished three categories of restraints:
(1) restraints that are core to the joint venture’s
efficiency enhancing purpose; (2) restraints that are
ancillary to the joint venture’s efficiency enhancing
purpose; and (3) restraints that are nakedly unrelated
to the purpose of the joint venture. See Dagher, 547
U.S. at 7-8. Only the last of these three justifies per se
treatment. Id.
Core activity
Core activity is activity that is “integral to the
running” of the venture. Id. at 7-8. In Dagher, the

App. 18
Supreme Court rejected a per se claim against
horizontal price-setting by two competitors on the
ground that the price-setting “involve[d] the core
activity of the joint venture itself.” Id. at 7.
Hospital Defendants claim that the challenged
panel limitation—but not the other challenged
restraints—qualifies as core activity. They argue that
because Dagher described price setting as a core
activity for the joint venture in that case, and because
panel limitations are a “pricing term” in Hospital
Defendants’ contracts with payers, the panel
limitations are “core activity.”
This argument is not persuasive. Dagher does not
stand for the general proposition that restraints in
contracts that are price related are always core activity
for joint ventures. Dagher’s holding was tailored to the
specific joint venture before it. Id. at 5-6. This
argument may be dismissed simply by noting that the
definition of “core activity” provided by Dagher,
“integral to the running” of the joint venture, id. at 7-8,
cannot seriously be argued of Hospital Defendants’
panel limitations. Hospital Defendants continue to
operate as a joint venture today even though the panel
limitation clauses have been removed from their
contracts with payers.
Joint venture’s ancillary restraints
Restraints that are “ancillary to the legitimate and
competitive purposes of the business association” fall
between “core” activity and “naked” restraints. Id. at 7.
These are restraints by a joint venture that are not
“integral to the running” of the joint venture, id. at 8,

App. 19
“but may contribute to the success of a cooperative
venture.” Polk Bros., Inc. v. Forest City Enters., Inc.,
776 F.2d 185, 189 (7th Cir. 1985). A restraint is
ancillary if it bears a reasonable relationship to the
joint venture’s success. See Major League Baseball
Props., Inc. v. Salvino, 542 F.3d 290, 339-40 (2d Cir.
2008) (Sotomayor, J., concurring).
Predictably, the parties spill considerable ink
contesting what counts as “reasonable.” MCEP urges
the panel to accept Judge Black’s version of the
ancillary-restraints doctrine. We decline to do so
because Judge Black framed the ancillary-restraints
inquiry incorrectly in two ways: by applying too high a
standard to determine what qualifies as “reasonable”
and by placing an evidentiary burden on Hospital
Defendants to meet that standard. Judge Black
rejected Hospital Defendants’ argument that their
restraints bore a reasonable relationship to the joint
venture’s success, holding that they “failed to evidence
that their joint contracting has any efficiencyenhancing purpose to which such an agreement is
necessary.” Under this standard, only restraints that
are necessary to a joint venture’s efficiency-enhancing
purposes qualify as ancillary. Further, Judge Black
held that Hospital Defendants must provide
“undisputed proof” that the restraint is necessary to
prevent a per se claim from proceeding to trial.
Judge Black’s sole source of authority for this
version of the ancillary-restraints doctrine is a
guidance document put out by the Federal Trade
Commission and the United States Department of
Justice on collaboration among competitors. See Dep’t

App. 20
of Justice & FTC, Antitrust Guidelines for
Collaborations Among Competitors § 3.3, at 10-25 (Apr.
2000). But the citation is of dubious relevance to the
ancillary-restraints doctrine because the cited section
deals with joint ventures only under the rule of reason,
not the per se rule.
To bolster Judge Black’s approach, MCEP cites
NaBanco v. Visa U.S.A., Inc., 779 F.2d 592, 601 (11th
Cir. 1986), and In re Sulfuric Acid Antitrust Litig., 743
F. Supp. 2d 827, 872 (N.D. Ill. 2010), for the proposition
that an ancillary restraint must be necessary to achieve
the joint venture’s efficiency-enhancing purpose.
NaBanco supports MCEP’s preferred formulation, but
In re Sulfuric Acid does not. In re Sulfuric Acid echoes
the ancillary-restraints inquiry articulated by the
Seventh Circuit in Polk Brothers: “A court must ask
whether an agreement promoted enterprise and
productivity at the time it was adopted. If it arguably
did, then the court must apply the Rule of Reason to
make a more discriminating assessment.” 743 F. Supp.
2d at 872 (quoting Polk Bros., 776 F.2d at 189)
(emphasis added).
Hospital Defendants, on the other hand, describe
the standard as whether there exists a plausible
procompetitive rationale for the restraint.7 The Second,

7

Hospital Defendants, at one point, argue that the correct legal
standard for determining whether a restraint is ancillary or naked
is whether the challenged restraint is “completely unrelated to the
purpose of a lawful joint venture.” But this mischaracterizes the
ancillary-restraints doctrine. “The per se rule would collapse if
every claim of economies from restricting competition, however
implausible, could be used to move a horizontal agreement not to

App. 21
Seventh, Eighth, and Ninth Circuits adopt this
approach.8
Perhaps most destructive to MCEP’s argument is
then-Judge Sotomayor’s concurrence in MLB
Properties, 542 F.3d at 338. Although MCEP cites that
concurrence five times in its briefing, Judge Sotomayor
categorically rejected the position MCEP asks this
court to adopt. She described ancillary restraints as
requiring “a reasonable procompetitive justification,
related to the efficiency-enhancing purposes of the joint
venture.” Id. at 339 (emphasis added). Then, in
defining what qualifies as “reasonable,” she expressly
rejected the formulation that MCEP argues here:
“Under the ancillary restraints doctrine, a challenged
restraint need not be essential, but rather only
reasonably ancillary to the legitimate cooperative
aspects of the venture.” Id. at 340 n.11 (citations and
internal quotation marks omitted); see also Polk Bros.,

compete from the per se rule to the Rule of Reason category.” Gen.
Leaseways, Inc. v. Nat’l Truck Leasing Ass’n, 744 F.2d 588, 595
(7th Cir. 1984).
8

See MLB Properties, 542 F.3d at 338-39 (Sotomayor, J.,
concurring); Craftsmen Limo,, Inc. v. Ford Motor Co., 363 F.3d 761,
776 (8th Cir. 2004) (“When determining whether to apply the rule
of reason analysis to non-price advertising restrictions related to
product safety, the issue is not whether the restrictions were
procompetitive, but whether they could be.”); Paladin Assoc., Inc.
v. Mont. Power Co., 328 F.3d 1145, 1154-55 (9th Cir. 2003) (“When
a defendant advances plausible arguments that a practice
enhances overall efficiency and makes markets more competitive,
per se treatment is inappropriate, and the rule of reason applies.”);
Polk Bros., 776 F.2d at 189.

App. 22
776 F.2d at 189 (explaining that a restraint is ancillary
if it may promote the success of a joint venture).
The question of what relationship a challenged
restraint must have to a joint venture in order to
qualify as ancillary splits the Circuits—the Eleventh
Circuit on the one hand, and the Second, Seventh,
Eighth, and Ninth Circuits on the other. We follow the
majority of Circuits and hold that a joint venture’s
restraint is ancillary and therefore inappropriate for
per se categorization when, viewed at the time it was
adopted, the restraint “may contribute to the success of
a cooperative venture.” Polk Bros., 776 F.2d at 189.
That approach better accords with Supreme Court
guidance. As the Ninth Circuit in Paladin Associates
explained:
The Supreme Court generally has treated as per
se illegal joint efforts by firms to disadvantage a
competitor by persuading customers to deny that
competitor relationships the competitor needs in
the competitive struggle. But in these cases, the
practices generally were not justified by
plausible arguments that the practices enhanced
overall efficiency and made markets more
competitive.
328 F.3d at 1154-55. In a footnote that follows the court
elaborated:
This is so because plausible arguments that a
practice is procompetitive make us unable to
conclude “the likelihood of anticompetitive

App. 23
effects is clear and the possibility of
countervailing procompetitive effects is remote.”
Id. at 1155 n.8 (quoting Stationers, 472 U.S. at 294).
Paladin faithfully applies the Supreme Court’s
holding in Stationers. Condemning as per se illegal
restraints that, while not necessary to achieving a joint
venture’s efficiency-enhancing purpose nevertheless
plausibly relate to that purpose, would run counter to
the Supreme Court’s instruction to avoid applying the
per se rule to situations where efficiencies are being
served. See Leegin Creative Leather Prods., Inc. v.
PSKS, Inc., 551 U.S. 877, 894 (2007) (holding that per
se treatment is inappropriate where “it cannot be
stated with any degree of confidence that [the
challenged restraint] ‘always or almost always tends to
restrict competition and decrease output’”) (quoting
Business Electronics Corp. v. Sharp Electronics Corp.,
485 U.S. 717, 723 (1988)).
MCEP’s second but related argument, which was
adopted by Judge Black, is that Hospital Defendants
bear the burden of proving that a challenged restraint
is procompetitive, and therefore ancillary, because the
question of the procompetitiveness of a restraint is
“quintessentially one of fact.” Judge Black’s inclination
to defer to the fact finder has an intuitive appeal in the
summary judgment context. And it would be correct
had MCEP brought a claim under the rule of reason.
See Perceptron, Inc. v. Sensor Adaptive Mach., Inc., 221
F.3d 913, 919 (6th Cir. 2000) (“[T]he rule of reason
requires the factfinder to decide whether under all the
circumstances of the case the restrictive practice
imposes an unreasonable restraint on competition.”)

App. 24
(citation omitted). For a per se claim, however, Judge
Black’s conclusion is erroneous. Whether challenged
conduct belongs in the per se category is a question of
law. See Ariz. v. Maricopa Cty. Med. Socy., 457 U.S.
332, 337 n.3, 354 (1982) (characterizing the per se rule
as a “rule of law”); MM Steel, L.P. v. JSW Steel (USA)
Inc., 806 F.3d 835, 847 (5th Cir. 2015) (“The decision to
analyze the conspiracy under a per se theory of liability
is a question of law that we review de novo.”). In
Craftsmen Limousine, Inc. v. Ford Motor Co., the
Eighth Circuit likewise found that whether a given
restraint falls within the per se category is a question
of law, citing a well-respected treatise on antitrust law
for the proposition that “although a court’s
determination that the per se rule applies ‘might
involve many fact questions, the selection of a mode of
analysis is entirely a question of law.’” 363 F.3d 761,
772 (8th Cir. 2004) (citing Phillip E. Areeda & Herbert
Hovenkamp, Antitrust Law, ¶ 1909b (1998)). And it is
a question of law where certain presumptions apply. As
we explained in Expert Masonry, the “plaintiff must
satisfy each element of the per se . . . test[] . . . in its
allegations in order to survive pre-trial termination.”
440 F.3d at 344 (emphasis added). The Supreme Court
has likewise held that because a plaintiff failed to
make a threshold showing that the challenged conduct
had the characteristics necessary to justify per se
condemnation, rule of reason analysis should apply
instead. Stationers, 472 U.S. at 298 (“A plaintiff
seeking application of the per se rule must present a
threshold case that the challenged activity falls into a
category likely to have predominantly anticompetitive
effects.”).

App. 25
If the record in this case reveals a plausible way in
which the challenged restraints contribute to the
procompetitive efficiencies of the joint venture, then
“the possibility of countervailing procompetitive effects”
is not remote and per se treatment is improper. Id. at
294. What are Premier’s procompetitive efficiencies?
The joint operating agreement of Hospital Defendants’
joint venture, Premier, states the following goals:
(1) To provide a broad scope and a continuum of
health care services with a focus upon
community health benefit.
(2) To improve cost effectiveness and efficiencies
in the delivery of health care services.
(3) To increase the quality of health care services
in the greater Miami Valley Region.
(4) To integrate physicians and other health care
providers with the JOC Network.
(5) To have the capacity to assume and manage
financial risk.
(6) To improve the health status of the greater
Miami Valley Region.
We analyze Hospital Defendants’ challenged restraints
in light of these goals.9
9

The challenged conduct evaluated in this section is limited to
MCEP’s claim of illegal concerted action among the Hospital
Defendants, not the additional “rim conspiracy” claims. The reason
for this is that we conclude in the next section that Judge Rice did
not abuse his discretion by ruling that MCEP’s effort to plead
those claims was untimely.

App. 26
MCEP challenges two kinds of conduct on the part
of Hospital Defendants. First, MCEP argues that
Hospital Defendants restrained trade through “panel
limitations,” wherein Hospital Defendants stipulated
to payers that if they added MCEP to their networks,
Hospital Defendants would be able to renegotiate
prices. Second, MCEP alleges that Hospital Defendants
took direct concerted action against MCEP by cutting
off patient referrals to MCEP-affiliated physicians,
evicting MCEP-affiliated physicians from office space
owned by Hospital Defendants, and agreeing with third
parties to refuse to deal with MCEP-affiliated
physicians.
Panel limitations. Courts have found such
restraints of trade supported by procompetitive
justifications. Stop & Shop Supermarket Co v. Blue
Cross & Blue Shield, 373 F.3d 57, 62 (1st Cir. 2004)
(finding that closed networks can allow payers to
reduce customer premiums because providers will
exchange better rates for guaranteed volume). Likewise
in Methodist Health Servs. Corp. v. OSF Healthcare
Sys., where the Seventh Circuit addressed panel
limitations as a mere variant on the accepted restraint
of exclusive dealing arrangements:
But what is more common than exclusive
dealing? It is illustrated by requirements
contracts, which are common, and legal, and
obligate a buyer to purchase all, or a substantial
portion of, its requirements of specific goods or
services from one supplier. [The Hospital
Defendants’] deals with the health insurance
companies are a form of requirements contract,

App. 27
for the deals require the companies to limit the
network of providers from which they obtain the
health care that their insurance contracts
obligate them to obtain for their insureds. And
an insurance company may get better rates from
a hospital in exchange for agreeing to an
exclusive contract, as exclusivity will drive a
higher volume of business to the hospital.
859 F.3d 408, 410 (7th Cir. 2017).
MCEP claims that Hospital Defendants’ argument
that panel limitations help ensure volume is a pretext.
In support of this claim, MCEP points to evidence
showing that Premier’s contract with insurer Aetna
had a volume-based discount that automatically
lowered Premier’s rates when billing volume increased
past certain benchmarks. Thus, even without panel
limitations, Hospital Defendants had financially
incentivized insurers to maintain a high volume of
patients getting services from Hospital Defendants. To
MCEP, this evidence reveals that the only possible
purpose of the panel limitation in Hospital Defendants’
contract with Aetna was “purely punitive.”
We are not persuaded. A panel limitation and a
price schedule are two distinct methods directed
toward the common goal of keeping patients
(customers) coming through the doors. A pricing
schedule is a discount that incentivizes payers to keep
volume up. A panel limitation, meanwhile, forces
payers to confront the risk of renegotiating their
contract with Hospital Defendants if they choose to
send their insureds (customers) to a competing
provider. Moreover, it is plausible that Hospital

App. 28
Defendants would deploy a “belt and suspenders”
approach to a matter as crucial for a hospital system as
maintaining patient (customer) volume. It is plausible
that panel limitations, by lowering the cost of Hospital
Defendants’ services, contribute to the efficiencyenhancing purposes of the joint venture, specifically
improving “cost effectiveness and efficiencies in the
delivery of health care services.”
Concerted action regarding physicians. MCEP’s
claims concerning Hospital Defendants’ direct
concerted action toward physicians can be divided into
two categories: (1) threatened loss of patient referrals;
and (2) non-compete agreements.
1. Threatened loss of patient referrals10

10

MCEP also argues that Hospital Defendants waived the right to
move for summary judgment on this theory of liability because
they failed to argue before Judge Black that their direct concerted
action should be viewed under the rule of reason. Likely, MCEP
intends to say that Hospital Defendants’ forfeited the argument.
“Whereas forfeiture is the failure to make the timely assertion of
a right, waiver is the intentional relinquishment or abandonment
of a known right.” United States v. Olano, 507 U.S. 725, 733 (1993).
Under forfeiture doctrine, “parties are not limited to the precise
arguments they made below.” Yee v. Escondido, 503 U.S. 519, 534
(1992). At worst, MCEP is claiming that Hospital Defendants are
making a “new argument to support what has been [their]
consistent claim.” Lebron v. Natl’l R.R. Passenger Corp., 513 U.S.
374, 379 (1995). Hospital Defendants did not forfeit the right to
move for summary judgment on MCEP’s claim that Hospital
Defendants’ direct concerted action is per se illegal because
Hospital Defendants have consistently argued that MCEP’s per se
claim does not apply to the challenged conduct.

App. 29
This alleged restraint centers around evidence
found in a letter sent by Hospital Defendants to
Dayton-area doctors informing them of Hospital
Defendants’ opposition to MCEP. The letter, signed by
94 primary care physicians, discusses the consequences
that MCEP’s presence could have on the Dayton
healthcare market. The primary concern expressed in
the letter was that the profit-driven MCEP “will take
the better insured and more profitable patients away
from Premier” and leave “local hospitals with only the
more complex and underinsured patients.” At the
conclusion of the letter, the physicians wrote:
We, the primary care network of physicians for
Premier, strongly oppose [MCEP]. We believe it
will have only negative impacts on our
community, our hospitals and our network. We
do not support the physicians who invest in
these inpatient hospitals. We do look forward,
however, to our continued efforts to work with
the specialists of our hospital medical staffs and
do our part within Premier to continue to
improve the delivery of cost-effective, highest
quality healthcare to the people of our
community.
MCEP claims that doctors who signed the letter
“understood [it] to mean that signatories would stop
referring patients to anyone who invested in MCEP.”
Hospital Defendants argue that the letter, in
expressing the opinion of Premier and its affiliated
physicians, does not constitute a restraint, and
therefore cannot qualify as illegal conduct under
antitrust laws. They are right. In Am. Council of

App. 30
Podiatrists v. Am. Bd. of Podiatric Surgery, Inc., we
held that, in the absence of a showing by the plaintiff
that allegedly anticompetitive communication was
(1) “false” and (2) “difficult or costly for the plaintiff to
counter,” we would apply a presumption that speech
has “de minimis effect on competition.” 323 F.3d 366,
370-72 (6th Cir. 2003). MCEP’s claim fails under both
of these prongs. MCEP has not shown that Hospital
Defendants’ “Dear Physician” letter was untrue, and
MCEP countered the “Dear Physician” letter, without
any apparent difficulty, with a “Dear Colleague” letter
of its own.
2. Non-compete agreements
MCEP claims that Hospital Defendants terminated
the leases of multiple MCEP-affiliated doctors who
rented space in Hospital Defendants’ hospitals. Judge
Rice rejected this argument on the grounds that
Hospital Defendants have a legitimate interest as a
joint venture in preventing free riding by physicians
who will reap the benefits of training and convenient
office space at their hospitals and “then refer their
patients elsewhere or invest in other hospitals.”
Hospital Defendants had a plausible concern that,
without these contracts, physicians who invested in
MCEP could rent office space at a Premier-associated
hospital, free ride on the reputation and facilities of
that hospital, and then refer patients out to MCEP.
Preventing such a misalignment of incentives is
plausibly related to Hospital Defendants’ goal of
“integrat[ing] physicians and other health care
providers with the JOC Network.”

App. 31
MCEP also alleges that Hospital Defendants’ noncompete agreements with physicians in the Dayton
area qualify as concerted conduct subject to per se
condemnation. Hospital Defendant Good Samaritan
purchased the Dayton Heart Hospital in 2008. As
characterized by MCEP, a condition of the purchase by
Good Samaritan Hospital was that individual owners
of Dayton Heart Hospital were paid in full only if they
agreed “(i) not to invest in MCEP, and (ii) if they
already owned shares, they would divest if MCEP
began to offer cardiac services” over the next five years.
MCEP cites no case law holding that vertical noncompete contracts entered into by joint ventures
qualify as conduct that is anticompetitive per se.11 And
this circuit, as well as the common law,12 have long
recognized that “[l]egitimate reasons exist to uphold

11

Instead MCEP cites to E. States Retail Lumber Dealers’ Assoc.
v. United States, 234 U.S. 600 (1914), and United States v. Coop.
Theatres of Ohio, Inc., 845 F.2d 1367, 1373 (6th Cir. 1988) (per
curiam). Neither case concerns joint ventures or the ancillaryrestraints doctrine. Coop. Theatres of Ohio is inapposite, as it
concerns market allocation rather than a group boycott. 845 F.2d
at 1368.
12

“It must have been obvious from the beginning that the flat ban
against such restraints of trade covered more than the rationale of
the rule required. The rule might prevent desirable transfers of
property. The most valuable asset of a business might be the good
will of the public toward its owner. Should he wish to sell the
business the owner could not get a price reflecting the asset of good
will or the true going concern value of his business unless he could
promise the purchaser not to return to compete with the business
sold.” Robert Bork, Ancillary Restraints & the Sherman Act, 15
ABA Section of Antitrust Law Proceedings 211, 213 (1959)
(footnote omitted).

App. 32
noncompetition covenants even though by nature they
necessarily restrain trade to some degree.” Perceptron,
Inc., 221 F.3d at 919 (quoting Lektro-Vend Corp. v.
Vendo Co., 660 F.2d 255, 265 (7th Cir. 1981)). It is
MCEP’s burden to show that per se treatment of
allegedly anticompetitive conduct is justified.
Stationers, 472 U.S. at 298. In this context, MCEP’s
failure to produce any on-point precedent is damning,
as we refuse to apply the per se rule in the absence of
judicial experience with the challenged restraint. See
Broad. Music, Inc., v. Columbia Broad. Sys. Inc., 441
U.S. 1, 9 (1979) (concluding that “it is only after
considerable experience with certain business
relationships that courts classify them as per se
violations”) (quoting United States v. Topco Assocs.,
Inc., 405 U.S. 596, 607-08 (1972)).
MCEP’s other arguments in support of its per se
claim. First, MCEP argues that we are bound by
precedent to find that Hospital Defendants’ restraints
qualify for per se treatment. To that end, MCEP cites
to Klor’s, Inc. v. Broadway-Hale Stores, Inc., 359 U.S.
207 (1959). Klor’s, however, did not concern a
legitimate joint venture, so its approach to alleged
horizontal restraints does not bear on the legal
framework established above. Id. at 208-09. MCEP also
argues that Com-Tel, Inc. v. DuKane Corp., 669 F.2d
404 (6th Cir. 1982), which followed Klor’s approach,
controls. But Com-Tel, like Klor’s, does not contain
ancillary-restraints analysis because it does not
concern a joint venture.
Second, MCEP argues that we are bound by “law of
the case” to find in its favor because, in MCEP I, we

App. 33
implicitly rejected a number of the arguments that
Hospital Defendants make here. We need not guess at
the contours of MCEP I’s holding—we said expressly
that it concerned “only . . . whether defendants’ conduct
is the result of two or more entities acting in concert or
whether defendants, based on their participation in the
joint operating agreement, function as a single entity
in the market place.” MCEP I, 817 F.3d at 939.
B.
Rim Conspiracy claims
MCEP argues that Judge Rice erred in dismissing
its Section 1 claims of concerted action based on “rim”
conspiracies—that is, agreements (induced by Hospital
Defendants) to boycott MCEP made among the payers
as well as independent physicians. The rim
conspiracies are distinct from the alleged conspiracy
among the Hospital Defendants. MCEP argues that
Hospital Defendants orchestrated two additional
conspiracies—one among payers to collectively “hold
the line” against MCEP by excluding it from their
market, the other a “physician conspiracy” in which
Hospital Defendants induced Dayton-area physicians
to collectively refuse to refer patients to MCEP. As
Judge Rice noted, this issue is significant. Hospital
Defendants “conceded that, if MCEP could prove that
the payers agreed among themselves not to offer MCEP
a managed care contract and that Premier orchestrated
that agreement, the per se rule would apply to that
claim.” If the district court erred by precluding these
rim conspiracy claims, then even if Judge Rice was
correct that MCEP has no triable per se claim of
concerted action among Hospital Defendants (the “hub”

App. 34
claim), the case would need to be remanded and set for
trial on MCEP’s rim conspiracy claim.
MCEP argues that the rim conspiracy claims are
not new. Instead, MCEP characterizes the rim
agreements as additional evidence found through
discovery that supports the overarching group boycott
claim advanced in the Amended Complaint. MCEP
undermines that position, however, by claiming
simultaneously that “[t]he payer agreement and
physician agreement . . . represent additional
horizontal concerted action that independently requires
imposition of the per se rule whether the jury finds the
Defendants to be a single entity or multiple actors.”
But MCEP’s Amended Complaint includes neither
an allegation of an agreement among the payers nor an
agreement among the physicians.13 Instead, the
Amended Complaint alleges an agreement among the
Hospital Defendants to financially induce payers and
physicians to boycott MCEP. There is no “rim”
conspiracy without alleged agreement among the
parties at the rim (among the payers and physicians,
respectively). See Total Benefits Planning Agency, Inc.
v. Anthem Blue Cross & Blue Shield, 552 F.3d 430, 436
(6th Cir. 2008). Because the Amended Complaint lacks
an essential element for MCEP’s “rim” conspiracy

13

MCEP’s counsel acknowledged this fact in the course of a
deposition, asserting: “I’ll represent to you [to the deponent] that
there was not an allegation of an outer rim in the complaint, but
that MCEP contends that the evidence developed through
discovery establishes the existence of an outer rim, meaning an
understanding among two or more payers that each had agreed
with the defendants not to expand their hospital panel.”

App. 35
claims, the Amended Complaint does not include those
claims.
Faced with that omission, MCEP claims that Judge
Rice erred by not permitting MCEP to submit a Second
Amended Complaint to add the rim conspiracy claims.
We review for abuse of discretion the district court’s
decision to deny such a motion. Super Sulky, Inc. v.
U.S. Trotting Ass’n, 174 F.3d 733, 740 (6th Cir. 1999).
We will overturn the district court’s decision only if we
have a “definite and firm conviction that the court
below committed a clear error in judgment in the
conclusion it reached upon a weighing of the relevant
factors.” Taylor v. United States Parole Comm’n, 734
F.2d 1152, 1155 (6th Cir. 1984) (citation omitted); see
also John B. v. Goetz, 531 F.3d 448, 459 (6th Cir. 2008).
The standard for a motion to amend is governed by the
general principle that “cases should be tried on their
merits rather than the technicalities of pleadings,”
which is in turn moderated by the exception that
judges should allow amendment only when doing so
does not “cause prejudice to the defendants” or undue
delay. Tefft v. Seward, 689 F.2d 637, 639 (6th Cir.
1982).
The district court found that Hospital Defendants
“would be severely prejudiced if MCEP were permitted
to amend its Complaint at this late date” primarily for
the reason that a proper adjudication of the rim
conspiracy claims would require a new round of
discovery that could last well over a year. The district
court was unmoved by MCEP’s arguments that
amending its complaint would not cause prejudice
because Hospital Defendants had been “on notice” of

App. 36
the rim conspiracy claims since MCEP filed its
Omnibus Opposition to Defendants’ Motions for
Summary Judgment.
The district court did not abuse its discretion by
concluding that its allowing MCEP to amend its
complaint for a second time would require a new round
of discovery that would cause undue delay and
prejudice Hospital Defendants by significantly
extending litigation that began in 2012. Tefft does not
save MCEP on this point. In that case, it was “obvious
that the facts as set forth in Tefft’s original complaint
would support [the new] cause of action . . . as well as
[the original cause of action].” Id. at 639. That is not
the case here, where the facts as set forth in MCEP’s
Amended Complaint do not support MCEP’s different
rim conspiracy claims. This case is more like Super
Sulky, where a plaintiff moved to amend his complaint
to add an additional Section 1 theory that was absent
from the original complaint, but had been raised in
response to a motion for summary judgment—in short,
the circumstance here. The district court denied that
plaintiff’s motion to amend and we affirmed. Super
Sulky, 174 F.3d at 740-41.
Judge Rice did not abuse his discretion when he
denied MCEP’s motion to amend its complaint.14

14

MCEP raised two additional claims on appeal—that the district
court erred in dismissing Catholic Heath Initiatives and that the
case should be remanded to Judge Black rather than Judge Rice.
Both arguments are mooted because we affirm the district court’s
summary judgment in favor of Hospital Defendants.

App. 37
IV.
Because Judge Rice was correct to find that the
challenged restraints do not fall within the
circumscribed categories of per se condemnation, we
AFFIRM the district court’s grant of summary
judgment.

App. 38
_________________
CONCURRENCE
_________________
SUTTON, Circuit Judge, concurring. I join Judge
Batchelder’s thoughtful opinion in full. I write
separately to discuss the law-of-the-case doctrine and
to explain why it does not apply to the prior panel’s
decision.
What we call law of the case has two parts. The first
part, known as the “mandate rule,” is vertical. A lower
court “is bound by the decree [of a higher court] as the
law of the case, and must carry it into execution
according to the mandate.” In re Sanford Fork & Tool
Co., 160 U.S. 247, 255 (1895). The rule springs from the
hierarchical structure of our judicial system and leaves
no room for discretion. If the U.S. Supreme Court
resolves an issue in a case and remands the matter to
us, we are duty bound to follow the mandate of the
superior court. So too at the trial level. If we decide an
issue and remand the case, the trial court must carry
out its duties in accordance with that mandate. See
Bryan A. Garner et al., The Law of Judicial Precedent
459–60 (2016).
The second part, the part implicated by this case, is
horizontal. It “expresses the practice of courts generally
to refuse to reopen what has been decided” by an
earlier panel of the same court in the same case.
Messenger v. Anderson, 225 U.S. 436, 444 (1912)
(Holmes, J.). Unlike its upward counterpart, the
sideways version of the law of the case is “not a limit to
[a court’s] power.” Id. A later panel of an appellate

App. 39
court, like a district court, “has the power to revisit
prior decisions of its own or of a coordinate court in any
circumstance.” Christianson v. Colt Indus. Operating
Corp., 486 U.S. 800, 817 (1988). That is what happened
when Judge Rice took over this case, reconsidered
Judge Black’s opinion, came to a different conclusion,
and granted summary judgment to Premier. See supra
at 7; Garner, supra, at 474, 487–88.
Today, we sit in essentially the same position as
Judge Rice. A prior panel of our court decided that
Premier was not a single entity under the Sherman
Act. See Med. Ctr. at Elizabeth Place, LLC v. Atrium
Health Sys., 817 F.3d 934, 936 (6th Cir. 2016). One
judge dissented. Id. at 945 (Griffin, J., dissenting). Now
the case has returned.
As I see it, the dissent got it right. Section 1 of the
Sherman Act “does not reach conduct that is wholly
unilateral.” Copperweld Corp. v. Indep. Tube Corp., 467
U.S. 752, 768 (1984) (quotation omitted). Officers and
divisions within a single entity cannot collude in a way
that violates § 1. Single-entity status depends on
economic realities rather than labels. Whether or not
they keep their separate corporate identities,
participants in a joint venture merge into a single
entity if (1) their agreement creates a “complete unity
of interest,” id. at 771, and (2) they receive orders from
a single decisionmaking center, Am. Needle, Inc. v.
Nat’l Football League, 560 U.S. 183, 194 (2010).
Premier qualified as a single entity.
Complete unity of interest? Check. The hospitals
shared profits and losses according to a distribution

App. 40
schedule that did not change based on any one
hospital’s performance. That means that each hospital
in the joint venture benefited when another hospital
succeeded even if that other hospital drew patients and
profits away.
Single decisionmaking center? Check again.
Premier served as the “operator” for all the joint
venture’s health system activities and had the power to
negotiate managed care contracts, fire hospital
executives, dictate their budgets, and plot the strategic
course each hospital took. Med. Ctr., 817 F.3d at 950
(Griffin, J., dissenting).
The law-of-the-case doctrine does not prohibit us
from reviewing that ruling. And I would suggest we do
so in this case save for one reality: It makes no
difference to the outcome. Either way, Premier
rightfully prevails.
No doubt, it’s often said that courts at all levels
should be “loathe” to overturn their earlier opinions
unless they are “clearly erroneous” and cause a
“manifest injustice.” Christianson, 486 U.S. at 817
(quotations omitted). But what does that mean? Surely,
a legal ruling does not become more insulated from
reversal by a senior court every time the junior court
refuses to reconsider a prior ruling. The “clear error”
and “manifest injustice” phrases must refer to
something else. They instead are a reminder that
courts should not lightly reconsider prior rulings in the
same case—lest we scramble the expectations of the
parties and encourage serial efforts to revisit prior
rulings. These are, in other words, self-enforced
standards, not the standard a senior court uses to

App. 41
review a reconsidered ruling. There is no such thing as
upholding an erroneous, but not clearly erroneous,
legal ruling in this setting. Accordingly, if a court
revisits a prior legal ruling, that does not transform the
standard of review from de novo to clear error. See
Garner, supra, at 447.

App. 42
_________________
DISSENT
_________________
HELENE N. WHITE, Circuit Judge, dissenting in
part. I agree with the majority’s conclusion that the
rule of reason applies to the alleged conspiracy
involving concerted action by the Hospital Defendants.
However, I disagree with the majority’s determination
regarding the rim conspiracy involving the payers.
The majority acknowledges that there is evidence of
horizontal concerted action among the payers,
orchestrated by Defendants, not to provide MCEP a
managed-care contract (i.e., the “rim conspiracy”), and
that the per se rule would apply to that conspiracy. The
majority nevertheless concludes that MCEP cannot
present that evidence to a jury because (1) it
constitutes a separate, unpled claim from the
conspiracy claim that MCEP pled; and (2) Judge Rice
did not abuse his discretion in determining that
allowing MCEP to amend its complaint to include this
claim would prejudice Defendants. Because the
allegations in MCEP’s Amended Complaint encompass
this rim conspiracy; the evidence was known by
Defendants early in the proceedings; this court
discussed the evidence of a rim conspiracy in the first
appeal; Judge Black relied on the evidence of a rim
conspiracy in denying Defendants’ summary judgment
motions after remand; and Defendants failed to seek
the purported necessary additional discovery in a
timely fashion, I would reverse the grant of summary
judgment and remand for trial. Accordingly, I
respectfully dissent.

App. 43
The majority’s recitation of the procedural history
of this case omits important details that bear on
whether the rim conspiracy should proceed to trial.
After Defendants moved for summary judgment on the
basis that they were a single entity and thus incapable
of conspiring, MCEP affirmatively raised the rim
conspiracy, arguing in opposition to Defendants’ motion
that evidence of concerted action by the payers—what
MCEP called “an additional facet to th[e] conspiracy” it
pled (R. 139, PID 10136)—meant that the plurality
requirement was met and that the alleged conspiracy
would still be subject to per se treatment even if
Defendants were a single entity. In reply, Defendants
did not argue that the rim conspiracy constituted a
separate and untimely alleged conspiracy; and they did
not argue that they needed additional discovery
regarding this concerted action. Rather, they argued
only that there was insufficient evidence of the rim
conspiracy, forfeiting any timeliness argument.
It was not until the first appeal that Defendants
challenged the rim-conspiracy claim as not
encompassed within MCEP’s Amended Complaint, and
therefore untimely. Defendants also argued that they
would be prejudiced by adding this new theory to the
case, and stressed at oral argument in the first appeal
that they would need additional discovery to defend
against the allegation of horizontal concerted action by
the payers. Despite Defendants’ argument, the prior
panel expressly considered evidence of the rim
conspiracy in its majority opinion:
Plaintiff has submitted evidence that each
insurer knew that the other insurers had

App. 44
included this [panel] limitation in their
contracts, as demonstrated by the excerpt below
from a Dayton industry publication:
Premier has threatened to revoke
privileges for physicians participating in
[plaintiff hospital] and contracts with
health plans such as Anthem and
UnitedHealth are known to be contingent
on excluding [plaintiff hospital] from the
network.
In addition to this published account, plaintiff
also offered evidence from insurance company
emails and defendant hospitals’ Board of
Directors meetings that, in addition to
demonstrating knowledge among the insurers of
the restriction on adding new hospitals to their
networks in their managed-care contracts with
defendant hospitals, the insurance companies
regularly monitored each other to ensure that
the other insurance companies were complying
with the contract restriction on dealing with a
new hospital.
Med. Ctr. at Elizabeth Place, LLC v. Atrium Health
Sys., 817 F.3d 934, 941–42 (6th Cir. 2016) (hereafter
MCEP I) (second and third alterations in original)
(internal citation omitted).
After remand, Judge Black issued an order
requesting briefing regarding the effects of the opinion
in MCEP I on Defendants’ previously filed summary
judgment motions. In their reply brief, Defendants
summarily argued, for the first time before the district

App. 45
court, that the horizontal concerted action by the
payers was not pled and that adding that theory to the
case would prejudice them. Defendants did not request
additional discovery on that issue, however.
In denying Defendants’ remaining summary
judgment motions, to support his conclusion that the
per se rule applies to MCEP’s antitrust claim, Judge
Black discussed and relied on evidence that at the
behest of Defendants, the payers joined in an
agreement not to deal with MCEP.1
After Judge Black denied Defendants’ remaining
summary judgment motions, and despite this court’s
and Judge Black’s opinions indicating that the rim
conspiracy was part of the case and Defendants’
representation to this court that they would need
additional discovery to defend against that theory,
1

Because Judge Black construed MCEP’s claim as encompassing
the rim conspiracy, his conclusion that the per se rule applied to
MCEP’s claim is reasonable. Further, despite the majority’s
conclusion “that then-Judge Sotomayor’s concurrence in MLB
Properties” is “[p]erhaps most destructive to” Judge Black’s
framing of the ancillary-restraints doctrine (Maj. Op. at 13), thenJudge Sotomayor’s concurrence in MLB Properties stated at
several points that the restraint must be “reasonably necessary”
to the efficiency-enhancing benefits of the joint venture. See, e.g.,
542 F.3d at 338 (explaining that a per se approach may apply to
joint ventures where “a particular challenged restraint is not
reasonably necessary to achieve any of the efficiency-enhancing
benefits of a joint venture and serves only as naked restraint
against competition”). Thus, the majority’s critique of Judge
Black’s formulation of the ancillary-restraints doctrine—requiring
the restraint to be necessary to an efficiency-enhancing purpose of
the joint venture—is not entirely fair given the broader context of
his ruling.

App. 46
Defendants still did not request additional discovery.
Instead, more than seven months later, after Judge
Black recused himself and only a couple of months
before trial was scheduled to begin, Defendants made
the same untimeliness argument to Judge Rice,
arguing that they would be prejudiced if the rim
conspiracy was included at trial and that they would
need 12–18 months of additional discovery. As the
majority explains, Judge Rice accepted those
arguments, finding that the rim conspiracy was not
alleged in the Amended Complaint and that MCEP
could not file a Second Amended Complaint because
Defendants would be prejudiced by the delay.
Given this chronology, I would reverse the district
court’s grant of summary judgment and allow the rim
conspiracy, which all agree is subject to the per se rule,
to proceed to trial. This conclusion is not dependent on
whether the law of the case applies, but rather on
whether the issue was fairly included in the case. First,
MCEP’s Amended Complaint expressly alleges a group
boycott subject to per se condemnation involving
Defendants and the payers. The horizontal concerted
action by the payers, orchestrated and monitored by
Defendants, can reasonably be construed as part of this
single, overarching conspiracy. This conclusion is
reinforced by Defendants’ failure to argue in their
summary judgment briefs before the first appeal that
the rim conspiracy was not encompassed within the
Amended Complaint; and this court’s and Judge
Black’s express reliance on evidence of the rim
conspiracy when discussing the merits of this case.

App. 47
Second, Defendants’ prejudice argument is
unavailing in light of their failure to (1) argue prejudice
in their initial summary judgment briefing, and
(2) seek the discovery they told this court they would
need in October 2015, despite the opportunity to do so
for months. Rather than seek the discovery they
claimed to need, Defendants moved forward with trial
preparations before deciding to try their untimeliness
argument a third time on a different judge after it
failed to persuade either this court or Judge Black.
More fundamentally, the majority’s affirmance of
the dismissal of the rim conspiracy deprives MCEP of
any remedy based on a pleading technicality even
though all agree that there is sufficient evidence that
Defendants and the payers conspired to exclude MCEP
from the market in a way that is per se illegal—i.e., in
a way that is “so inherently anticompetitive that [the
agreement] is illegal per se without inquiry into the
harm it has actually caused.” Copperweld Corp. v.
Indep. Tube Corp., 467 U.S. 752, 768 (1984) (citation
omitted). Because “cases should be tried on their merits
rather than the technicalities of pleadings,” Tefft v.
Seward, 689 F.2d 637, 639 (6th Cir. 1982), I would
remand the rim conspiracy for trial.

App. 48

APPENDIX B
IN THE UNITED STATES DISTRICT COURT
FOR THE SOUTHERN DISTRICT OF OHIO
WESTERN DIVISION
Case No. 3: 12-cv-26
JUDGE WALTER H. RICE
[Filed August 9, 2017]
________________________________
THE MEDICAL CENTER AT
)
ELIZABETH PLACE, LLC,
)
)
Plaintiff,
)
)
v.
)
)
PREMIER HEALTH PARTNERS, )
et al.,
)
)
Defendants.
)
________________________________ )
DECISION AND ENTRY SUSTAINING
DEFENDANTS’ MOTION TO CLARIFY
ISSUES FOR TRIAL (DOC. #195), WHICH THE
COURT CONSTRUES AS A MOTION FOR
RECONSIDERATION OF JUDGE TIMOTHY
BLACK’S OCTOBER 6, 2016, SEALED ORDER
RESOLVING DEFENDANTS’ MOTIONS FOR
SUMMARY JUDGMENT (DOC. #183);

App. 49
SUSTAINING DEFENDANTS’ SEALED
MOTION TO PRECLUDE TRIAL OF
UNPLE[D] “RIM CONSPIRACY” CLAIM (DOC.
#190); SUSTAINING DEFENDANTS’ MOTION
TO PRECLUDE TRIAL OF UNPLED
“PHYSICIANS” CONSPIRACY (DOC. #194);
OVERRULING AS MOOT DEFENDANTS’
SEALED MOTION TO PRECLUDE LAY
WITNESS THOMAS MALLON FROM
TESTIFYING ON DAMAGES (DOC. #199),
DEFENDANTS’ MOTION TO EXCLUDE
PREJUDGMENT INTEREST FROM
PLAINTIFF’S CALCULATION OF DAMAGES
(DOC. #200), DEFENDANTS’ SEALED
MOTION TO EXCLUDE TESTIMONY OF DR.
HARRY E. FRECH III ON DAMAGES (DOC.
#205), DEFENDANTS’ SEALED MOTION TO
EXCLUDE OPINIONS OF PLAINTIFF’S
DAMAGES EXPERT HARRY E. FRECH, III,
FOR FAILURE TO COMPLY WITH FED. R.
CIV. P. 26(e) AND 26(a)(2)(B) (DOC. #201),
DEFENDANTS’ SEALED MOTION TO
EXCLUDE TESTIMONY RELATING TO
PREMIER’S CASH RESERVES (DOC. #202),
DEFENDANTS’ SEALED MOTION TO
EXCLUDE TESTIMONY ABOUT CATHOLIC
HEALTH INITIATIVES (DOC. #203),
DEFENDANTS’ SEALED MOTION TO
EXCLUDE TESTIMONY OF JAMES L.
WATSON (DOC. #204), DEFENDANTS’
SEALED MOTION TO EXCLUDE TESTIMONY
REGARDING HEARSAY FROM NONTESTIFYING PHYSICIANS (DOC. #206),
DEFENDANTS’ SEALED MOTION IN LIMINE

App. 50
TO EXCLUDE HEARSAY OF MANAGED
CARE FACILITY REPRESENTATIVES (DOC.
#208), PLAINTIFF THE MEDICAL CENTER
AT ELIZABETH PLACE’S MOTION IN
LIMINE NO. 1 TO EXCLUDE EVIDENCE OF
DEFENDANTS’
PURPORTED
JUSTIFICATIONS
FOR
THEIR
ANTICOMPETITIVE CONDUCT (DOC. #210),
AND PLAINTIFF THE MEDICAL CENTER AT
ELIZABETH PLACE’S SEALED MOTION IN
LIMINE NO. 2 TO EXCLUDE EVIDENCE OF
KETTERING HEALTH NETWORK’S NONCOMPETE PROVISIONS (DOC. #211);
DISMISSING PLAINTIFF’S SHERMAN ACT
CLAIM WITH PREJUDICE; JUDGMENT TO
ENTER IN FAVOR OF DEFENDANTS AND
AGAINST PLAINTIFF; TERMINATION
ENTRY
Plaintiff, The Medical Center at Elizabeth Place,
LLC (“MCEP”), a 26-bed adult acute-care hospital, filed
suit against Premier Health Partners, Atrium Health
System, Catholic Health Initiatives, MedAmerica
Health Systems Corporation, Samaritan Health
Partners, and UVMC (“the Hospital Defendants” or
“Defendants”), alleging a per se violation of Section 1 of
the Sherman Act, 15 U.S.C. § 1. MCEP alleges that
Defendants orchestrated a group boycott of MCEP,
which cut off access to necessary managed care
contracts, physicians, and funding.
This case is currently before the Court on remand
following the Sixth Circuit Court of Appeals’ reversal of
Judge Timothy Black’s decision granting summary

App. 51
judgment in favor of Defendants on the question of
whether MCEP’s claim lacks the necessary plurality of
actors. Medical Ctr. at Elizabeth Place v. Atrium
Health Sys., 817 F.3d 934 (6th Cir. 2016).
On October 6, 2016, on remand, Judge Black issued
a Sealed Order overruling several other motions for
summary judgment, which he had previously overruled
as moot. Doc. #183. One of the motions overruled was
Defendants’ Sealed Motion for Summary Judgment
that the Per Se Rule Does Not Apply and that
Plaintiff’s Claim Should Be Dismissed. Doc. #132.
Earlier this year, Judge Black recused himself, and this
case was re-assigned to the undersigned. Doc. #186.
Trial is set to begin on August 14, 2017.
Although the parties have filed numerous motions
in limine, the Court must first address Defendants’
Motion to Clarify Issues for Trial, Doc. # 195. The
Court construes this as a motion for reconsideration of
that portion of Judge Black’s Sealed Order Resolving
Defendants’ Motions for Summary Judgment, Doc.
#183, that held that the per se rule applies to MCEP’s
claim. Two other pending motions also have the
potential to affect the scope of claims to be tried:
(1) Defendants’ Sealed Motion to Preclude Trial of
Unple[d] “Rim Conspiracy” Claim, Doc. # 190; and
(2) Defendants’ Motion to Preclude Trial of Unpled
“Physicians” Conspiracy, Doc. #194.
The Court held oral argument on August 2, 2017.
For the reasons set forth below, the Court concludes
that Judge Black’s October 6, 2016, decision was
clearly erroneous, because MCEP’s Sherman Act claim
is not subject to per se condemnation. Because MCEP

App. 52
has disavowed any reliance on a rule of reason
analysis, the Court agrees with Defendants that this
claim must be dismissed.
At the outset, it is important to state what this
decision is about and, more importantly, what it is not.
MCEP has alleged that Defendants violated Section 1
of the Sherman Act by a series of actions and threats
that severely restricted MCEP’s ability to compete in
the marketplace, and eventually required its sale of a
49% share to the Kettering Health Network. These
allegations have neither been proven nor failed of proof
in court; nor will they ever be, as a result of this
decision. MCEP’s allegations remain just that –
allegations.
This decision represents the legal equivalent of
“inside baseball.” It merely reflects this Court’s firm
opinion that MCEP’s claims, contentions and
allegations must be considered by a different legal
standard from that which MCEP maintains is
applicable and, therefore, this case must be dismissed
without those claims, contentions and allegations being
tested in a court of law before a duly impaneled jury.
This decision should not be considered either as a
failure of proof by MCEP or an exoneration of the
Defendants.
I. Overview of Relevant Law
Antitrust laws exist to protect competition, not
competitors. Expert Masonry, Inc. v. Boone Cty., 440
F.3d 336, 346 (6th Cir. 2006). Section 1 of the Sherman
Act provides that “[e]very contract, combination in the
form of [a] trust or otherwise, or conspiracy, in

App. 53
restraint of trade or commerce among the several
States, or with foreign nations, is declared to be
illegal.” 15 U.S.C. § 1.
Despite this very broad language, only unreasonable
restraints are actionable. State Oil Co. v. Khan, 522
U.S. 3, 10 (1997). The unreasonableness of a restraint
of trade may be proven in one of two ways. Although a
handful of categories of restraints are deemed to be per
se unreasonable, the vast majority must be assessed, on
a case-by-case basis, under a more exacting “rule of
reason” standard. Accordingly, the court must initially
determine, as a matter of law, whether the challenged
restraint is per se unreasonable or whether it should be
evaluated under the rule of reason. In re Southeastern
Milk Antitrust Litig., 739 F.3d 262, 271 (6th Cir. 2014).
“[C]ondemnation per se is an unusual step, one that
depends on confidence that a whole category of
restraints is so likely to be anticompetitive that there
is no point in searching for a potentially beneficial
instance.” Polk Bros., Inc. v. Forest City Enter., Inc.,
776 F.2d 185, 189 (7th Cir. 1985) (emphasis added). As
the Sixth Circuit explained in Expert Masonry, these
restraints “have such a clear lack of any redeeming
virtue that any restraint of that type is conclusively
presumed to be unreasonable.” 440 F.3d at 342
(quoting Bailey’s, Inc. v. Windsor Am., Inc., 948 F.2d
1018, 1027 (6th Cir. 1991)).
The plaintiff in a per se case need not prove the
challenged restraint’s effect on the market; the
anticompetitive effects are implied. The plaintiff need
prove only that “(1) two or more entities engaged in a
conspiracy, combination, or contract;” (2) “to effect a

App. 54
restraint or combination prohibited per se;” (3) “that
was the proximate cause of the plaintiff’s antitrust
injury.” Expert Masonry, 440 F.3d at 342.
“The most important per se categories are naked
horizontal price-fixing, market allocation, and output
restrictions.” Group boycotts are also sometimes
included in this category. Stop & Shop Supermarket
Co. v. Blue Cross & Blue Shield, 373 F.3d 57, 61 (1st
Cir. 2004). The Supreme Court has cautioned, however,
that “easy labels do not always supply ready answers.”
Broadcast Music, Inc. v. Columbia Broad. Sys., Inc.,
441 U.S. 1, 8 (1979). See also Augusta News Co. v.
Hudson News Co., 269 F.3d 41, 47 (1st Cir. 2001) (“The
categorical descriptions of per se offenses are quite
misleading for anyone not well versed in antitrust.”).
As discussed below, the fact that a challenged restraint
is labeled by MCEP as a “group boycott” does not
necessary mean that it is automatically subject to per
se condemnation.
The vast majority of restraints are subject to a “rule
of reason” analysis which requires a “case-by-case
evaluation of their effect on competition.” Expert
Masonry, 440 F.3d at 342 (quoting Bailey’s, 948 F.2d at
1027). This is the prevailing standard. As economic and
business structures continue to become more complex,
the rule of reason appears to have gained even more
traction. As noted in Khan, courts are reluctant to
adopt per se rules in connection with “restraints
imposed in the context of business relationships where
the economic impact of certain practices is not
immediately obvious.” 522 U.S. at 10 (quoting FTC v.

App. 55
Indiana Fed’n of Dentists, 476 U.S. 447, 458-459
(1986)).
The rule of reason requires the fact finder to
“weigh[] all of the circumstances of a case,” to
determine whether the challenged restraint of trade is
unreasonable. Relevant factors include information
about the relevant business, the nature and history of
the restraint, the justification offered by the defendant,
and the existence of any anticompetitive effects flowing
from the restraint. Leegin Creative Leather Products,
Inc. v. PSKS, Inc., 551 U.S. 877, 885-86 (2007).
If the rule of reason applies, a plaintiff must first
establish:
(1) that the defendants contracted, combined, or
conspired; (2) that the scheme produced
anticompetitive effects; (3) that the restraint
affected relevant product and geographic
markets; (4) that the object of the scheme and
the conduct resulting from it was illegal; and
(5) that the scheme was a proximate cause of the
plaintiff’s antitrust injury.
Expert Masonry, 440 F.3d at 343. The burden (not of
proof but of production) then shifts to the defendant to
“come forward with evidence of the restraint’s
procompetitive effects to establish that the alleged
conduct justifies the otherwise anticompetitive
injuries.” Id. If the defendant satisfies this burden of
production, the burden shifts back to the plaintiff to
show “that any legitimate objectives can be achieved in
a substantially less restrictive manner.” Id. (quoting

App. 56
Nat’l Hockey League Players Ass’n v. Plymouth
Whalers, 325 F.3d 712, 718 (6th Cir. 2003)).
An intermediate standard of review is the “quick
look” approach under the rule of reason. It is based on
the premise that, if a challenged restraint has obvious
anticompetitive benefits, an elaborate market analysis
is not necessarily required. Competitive harm is
presumed. The defendant must then come forward with
evidence of a procompetitive reason for the restraint.
California Dental Ass’n v. FTC, 526 U.S. 756, 770
(1999). “Where procompetitive justifications are
proffered, their logic must be assessed and rejected in
order to avoid reverting to full-scale rule of reason
analysis.” Deutscher Tennis Bund v. ATP Tour, Inc.,
610 F.3d 820, 832 (3d Cir. 2010).1
There are two types of restraints of trade.
Horizontal restraints involve direct competitors at the
same level of the market structure, i.e., two
distributors or two suppliers. Expert Masonry, 440 F.3d
at 344. They are deemed to be more threatening and
may, in some cases, be subject to a per se analysis. Id.
Vertical restraints involve parties “upstream or
downstream of one another,” a manufacturer and a
supplier, for example. Id. Vertical restraints are almost
always subject to the rule of reason. See Leegin, 551
U.S. at 907; Khan, 522 U.S. at 22.
In Texaco, Inc. v. Dagher, 547 U.S. 1 (2006), the
Supreme Court set forth the analytical framework for
reviewing restraints of trade by a legitimate joint
1

Neither party has advocated for a “quick look” approach to this
case.

App. 57
venture. In that case, Texaco and Shell formed a joint
venture called Equilon, to consolidate their gasoline
refining and marketing operations in part of the United
States. The gasoline produced by Equilon was sold at
the same price under the Texaco and Shell names.
Service station owners alleged that the unification of
gas prices under both brands was price-fixing, and was
a per se violation of Section 1 of the Sherman Act.
The Supreme Court disagreed. It noted that “this
Court presumptively applies rule of reason analysis.”
Id. at 5. The Court held that it is not per se illegal “for
a lawful, economically integrated joint venture to set
the prices at which the joint venture sells its products.”
Id. at 3. “As a single entity, a joint venture, like any
other firm, must have the discretion to determine the
prices of the products that it sells.” Id. at 7.
The Ninth Circuit had reached the opposite
conclusion by invoking the ancillary restraints
doctrine, which “governs the validity of restrictions
imposed by a legitimate business collaboration, such as
a . . . joint venture, on nonventure activities.” Id. at 7
(emphasis added).2 Under that doctrine, the court must
2

An ancillary restraint is one that is “subordinate and collateral
to a separate, legitimate transaction” and “serves to make the
main transaction more effective in accomplishing its purpose.”
Rothery Storage & Van Co. v. Atlas Van Lines, Inc., 792 F.2d 210,
224 (D.C. Cir. 1986). For example, Atlas Van Lines uses
independent agents to move household goods between two points.
Atlas does the advertising, finds the customers, sets the rates,
chooses routes, collects revenue and pays the agents. It instituted
a policy prohibiting agents from also contracting to handle
interstate carriage on their own. The court held that this restraint
was “ancillary” in that it enhanced the efficiency of the enterprise

App. 58
determine whether the challenged restraint “is a naked
restraint on trade, and thus invalid, or one that is
ancillary to the legitimate and competitive purposes of
the business association, and thus valid.” Id. The Court
concluded that the ancillary restraints doctrine has no
application “where the business practice being
challenged involves the core activity of the joint
venture itself – namely, the pricing of the very goods
produced and sold by Equilon.” Id. at 7-8.
Accordingly, under Dagher, a joint venture’s core
activities are subject to a rule of reason analysis. Noncore activities that are naked restraints on trade are
per se unreasonable. However, if the challenged
restraint is “ancillary to the legitimate and competitive
purposes of the joint venture,” it may be deemed valid
by the factfinder under the rule of reason.
II. Relevant Procedural History
A. Allegations in Amended Complaint (Doc.
#7)
Premier Health Partners (“Premier”) is a not-for
profit corporation formed in 1995 pursuant to a Joint
Operating Agreement (“JOA”) among Catholic Health
Initiatives, MedAmerica Health Systems Corporation,
Atrium Health System, and UVMC (the “Hospital
Defendants”). Doc. #7, PageID#37. The Hospital
Defendants aggregate market share of general
inpatient surgical services in the relevant geographical

by eliminating the problem of the “free ride,” i.e., agents using
Atlas’s reputation, equipment, facilities and services in conducting
business for their own profit.

App. 59
area exceeds 55%. Premier manages many of the
business functions of these four area hospitals,
including negotiating managed care contracts with
insurance providers (“insurers”). Id. at PageID#48.
MCEP is a physician-owned, 26-bed acute-care
hospital, which opened in 2006. Id. at PageID#37.
MCEP alleges that the Hospital Defendants “set out on
an agreed course of concerted action which Defendants
admit was designed to eliminate [MCEP] and any other
specialty hospital.” Id. at PageID#50. In furtherance of
this conspiracy, the Hospital Defendants, through
Premier, allegedly engaged in the following overt acts:
(a)

coercing, compelling, co-opting or
financially inducing commercial health
insurers or managed care plan providers,
including Anthem, UnitedHealthcare,
Private Healthcare Systems, HealthSpan,
Humana, Aetna, Cigna, and Medical
Mutual of Ohio to refuse to permit
[MCEP] full access to their respective
networks;

(b)

threatening
punitive
financial
consequences to physicians who affiliated
with [MCEP] and following through on
punitive measures against physicians
who did affiliate with [MCEP], including
terminating leases that the physicians
had with the Defendants for office space;

(c)

offering payments to physicians who
agreed not to work with or at [MCEP];

App. 60
and who agreed to divest ownership in
[MCEP];
(d)

coercing, compelling, co-opting or
financially inducing physicians affiliated
with or employed by the Hospital
Defendants from becoming members of
[MCEP], admitting patients to [MCEP] or
referring patients to physicians who
treated patients at [MCEP];

(e)

hiring as employees key physicians
affiliated with [MCEP] who accounted for
a disproportionately high number of
admissions and then prohibiting them
from admitting patients to [MCEP]; and

(f)

coercing, compelling, co-opting or
financially inducing commercial health
insurers or managed care plans to provide
reimbursement rates that were below
market and below the rates and on
different terms from what the Hospital
Defendants demanded for the exact same
services.

Id. at PageID##51-52.
Eventually, in 2009, MCEP was forced to sell a 49%
interest to Kettering Health Network, the other major
health care provider in the area, “in exchange for
Kettering’s commitment to seek managed care
contracts for [MCEP] on terms comparable to hospitals
in the Kettering network.” Id. at PageID##52-53.

App. 61
MCEP alleges that the Hospital Defendants
conspired to reduce output in the relevant markets,
including by “orchestrating group boycotts” of MCEP,
and authorized Premier to take the steps necessary to
implement the conspiracy. Id. at PageID#54. MCEP
further alleges that this conduct is not “reasonably
related to or necessary for Premier’s performance of
any of the joint functions specified under the JOA[,]”
and that the Hospital Defendants’ conduct constitutes
a per se violation of Section 1 of the Sherman Act, 15
U.S.C. § 1.
B. Sealed Order Granting Defendants’ Motion
for Summary Judgment as Plaintiff’s Claim
Lacks the Necessary Plurality of Actors
(Doc. #162)
On October 20, 2014, Judge Black issued a Sealed
Order Granting Defendants’ Motion for Summary
Judgment as Plaintiff’s Claim Lacks the Necessary
Plurality of Actors. Doc. #162. He concluded that
Premier controlled the operations of the Defendant
Hospitals, and that Defendants operated as a single,
unified economic unit incapable of conspiring,
rendering their conduct outside the scope of Section 1
of the Sherman Act. See Copperweld Corp. v.
Independence Tube Corp., 467 U.S. 752, 767-68 (1984).
Judge Black also noted that, under Dagher, Premier is
a legitimate joint venture and that “the challenged
conduct in this case – managed care contracting and
physician relations – is a core function of the Premier
health system.” Doc. #162, PageID#15932.
Given that MCEP’s failure to show the necessary
plurality of actors was dispositive, Judge Black

App. 62
overruled as moot all other pending motions for
summary judgment, including Defendants’ Motion for
Summary Judgment that the Per Se Rule Does Not
Apply and that Plaintiff’s Claim Should Be Dismissed,
Doc. #132.
C. Appeal to Sixth Circuit
MCEP appealed, arguing that the district court
erred in holding that Defendants were a single entity
incapable of conspiring. According to MCEP, three
separate agreements formed the “hub and spokes”
conspiracy to boycott MCEP: (1) an agreement at the
hub, among the Hospital Defendants; (2) an agreement
at the spokes, between the Hospital Defendants and
the insurers, involving “Panel Limitations” in the
managed care contracts, whereby, if the insurers added
other hospitals to their networks, the Hospital
Defendants could terminate or renegotiate the
contracts; and (3) an agreement at the rim, whereby
the insurers agreed to “hold the line” in their refusal to
add MCEP to their managed care networks. MCEP
argued that, in granting summary judgment, the
district court erred by failing to consider evidence of
the “rim conspiracy” among the insurers, which would
have been independently sufficient to satisfy the
“plurality of actors” requirement.
MCEP further argued that the district court erred
in holding that Premier’s joint venture status insulated
its conduct from antitrust scrutiny. According to
MCEP, the district court mischaracterized the
challenged conduct as “managed care contracting and
physician relations” and then erroneously concluded
that these were “core activities” of the joint venture.

App. 63
MCEP urged the appellate court to instead view the
challenged restraint as the joint negotiation and
policing of provisions that prohibited the insurers from
contracting with MCEP, and that operated to exclude
MCEP from the marketplace. Citing Major League
Baseball Properties, Inc. v. Salvino, Inc., 542 F.3d 290,
338-39 (2d Cir. 2008) (Sotomayor, J., concurring in
judgment), MCEP argued that, because this “group
boycott” promotes no legitimate objective of the joint
venture, it must be evaluated apart from the joint
venture as a per se horizontal concerted action.
In response, Defendants argued that MCEP’s “rim
conspiracy” claim was untimely, and that no triable
evidence supported this new theory. They noted that
the Amended Complaint contains no allegations of a
separate agreement among the insurers to “hold the
line,” and MCEP never amended its Complaint to
assert such a claim. Defendants suggested that this is
why the district court declined to address this
argument.
Defendants further argued that the district court
correctly concluded that Premier is a single entity for
antitrust purposes. They noted that the ancillary
restraint doctrine does not apply either to a single
entity or to a legitimate joint venture’s core activity
such as the pricing of its own goods or services. Under
Dagher, core activities of a legitimate joint venture are
subject to a rule of reason analysis. Defendants also
argued that, even if the ancillary restraint doctrine
applied, the result would be the same, given that the
rate-for-volume provisions in the managed care
contracts had undisputed plausible efficiency

App. 64
justifications. Defendants suggested that, because
MCEP had pled only a per se claim, but the challenged
restraints were subject to a rule of reason analysis, the
district court’s summary judgment decision could be
affirmed on this alternative basis.
On March 22, 2016, the Sixth Circuit issued an
Opinion reversing the district court’s order on the
“plurality of actors” element, and remanding the case
for further proceedings. Med. Ctr. at Elizabeth Place,
LLC v. Atrium Health Sys., 817 F.3d 934 (6th Cir.
2016). The court concluded that:
Based on defendants’ stated intent to keep
plaintiff out of the Dayton market, the evidence
of coercive conduct threatening both physicians
and insurance companies with financial loss if
they did business with plaintiff, evidence of
continued actual and self-proclaimed
competition among the defendant hospitals, and
evidence that the defendant hospitals’ business
operations are not entirely unitary, we conclude
that there is a genuine issue of material fact as
to whether the defendant hospitals’ network
constitutes a single entity or concerted action
among competitors for purposes of Section 1 of
the Sherman Act.
Id. at 938.
The court’s decision was specifically limited to “the
element addressed by the district court,” i.e., whether
Defendants’ conduct was the result of two or more
entities acting in concert or whether Defendants, based
on their participation in the JOA, functioned as a

App. 65
single entity. Id. at 939. The court noted that, in
determining this issue, it must look at the actual
conduct of the parties to the joint venture. Id. at 940. In
discussing the alleged boycott, the court cited to
contractual provisions (“Panel Limitations”), which
restricted the insurers’ ability to add new hospitals to
their networks. The Sixth Circuit then stated that
“[n]egotiating contracts that explicitly exclude the
insurers’ ability to contract with other parties is
anticompetitive on its face and normally serves no
proper business function, a fact recognized by the
district court in its first order denying the motion to
dismiss.” Id. at 941. Evidence showed that the insurers
knew of the Panel Limitations in each other’s contracts,
and regularly monitored each other’s compliance. Id. at
941-42.
Notably, the Sixth Circuit did not consider whether
this separate “rim” agreement among the insurers
could independently satisfy the “plurality of actors”
element.3 Likewise, the Sixth Circuit made absolutely
no mention of Dagher. Nor did it address Defendants’
argument that the district court’s decision could be
affirmed on the alternate ground that MCEP’s claim
was governed by the rule of reason and not the per se
rule.

3

At oral argument, one judge pointed out that it appeared that the
district court had not addressed this argument because it was
untimely. Oral Arg. Tr. at 11-13.

App. 66
D. Sealed Order Resolving Defendants’
Motions for Summary Judgment (Doc.
#183) on Remand
When Judge Black granted summary judgment to
Defendants on the “plurality of actors” element, he
overruled as moot four other pending motions for
summary judgment, including Defendants’ Motion for
Summary Judgment that the Per Se Rule Does Not
Apply and that Plaintiff’s Claim Should Be Dismissed,
Doc. #132. On remand, he issued a Sealed Order
overruling these previously-filed motions. Doc. #183.
In their Motion for Summary Judgment that the Per
Se Rule Does Not Apply, Defendants noted that the
Supreme Court has held that not all group boycotts are
per se illegal. If there are plausible arguments that the
challenged restraints have legitimate efficiency
justifications, they are instead governed by the rule of
reason. Northwest Wholesale Stationers, Inc. v. Pacific
Stationery & Printing Co., 472 U.S. 284, 293-94 (1985).
Defendants argued that because the rate-for-volume
clauses in Premier’s contracts with its insurers, and
the non-compete clauses in Premier’s contracts with its
physicians, have plausible efficiency justifications, the
alleged group boycott of MCEP cannot be deemed a per
se violation of § 1 of the Sherman Act. Citing Dagher,
547 U.S. at 7, Defendants also argued that, because
Premier was a legitimate joint venture, and the pricing
of its products and the hiring of physicians were “core
activities” of the joint venture, the rule of reason
applied.
Judge Black rejected these arguments. He prefaced
his decision by noting that the Sixth Circuit had cited

App. 67
evidence of two discrete horizontal agreements – one
among the Hospital Defendants to prevent MCEP from
competing, including precluding MCEP from obtaining
managed care contracts with insurers, and another
among those insurers not to offer MCEP managed care
contracts. He also noted that the Sixth Circuit had
stated that “[n]egotiating contracts that explicitly
exclude the insurers’ ability to contract with other
parties is anticompetitive on its face and normally
serves no proper business function, a fact recognized by
the district court in its first order denying the motion
to dismiss.” Doc. #183, Page ID#16481 (citing Medical
Ctr. at Elizabeth Place, 817 F.3d at 941).
Citing Nynex Corporation v. Discon, Inc., 525 U.S.
128 (1998), and Total Benefits Planning Agency v.
Anthem Blue Cross & Blue Shield, 552 F.3d 430 (6th
Cir. 2008), Judge Black noted that group boycotts
involving horizontal agreements among direct
competitors are one of the categories of restraints that
courts have deemed per se anticompetitive.
Judge Black acknowledged that volume-based
pricing, whereby a hospital is willing to accept
discounted prices from an insurer in return for access
to an expected volume of patients, is “prevalent in
managed care contracting in the Dayton area and
elsewhere across the United States.” Doc. #183,
PageID#16488 n. 7. He also acknowledged that this
“expected volume can be realized either because the
insurer offers a large number of members or because
the insurer limits the size of its hospital network and
in that way channels its volume to fewer hospitals.” Id.
However, he found “no record evidence demonstrating

App. 68
the rate for volume analyses regarding any of the
managed care contracts,” and “no evidence that
Defendants increased rates when payers successfully
negotiated Panel Limitations out of their contracts.” Id.
Judge Black rejected Defendants’ argument that
their joint contracting with the insurers was a
legitimate joint venture activity that should be
analyzed under the rule of reason. He wrote:
[T]his argument ignores the ancillary
restraint doctrine. The ancillary restraint
doctrine “recognizes that a restraint that is
unnecessary to achieve a joint venture’s
efficiency-enhancing benefits may not be
justified based on those benefits. Accordingly, a
challenged restraint must have a reasonable
procompetitive justification, related to the
efficient-enhancing purposes of the joint
venture.” Major League Baseball Props., Inc. v.
Salvino, Inc., 542 F .3d 290, 339 (2d Cir. 2008).
Where that nexus does not exist, the challenged
restraint must be evaluated apart from the rest
of the venture, i.e., as horizontal concerted
action. Id. at 339.
The Panel Limitations that Defendants
jointly negotiated with payers restricted output
by excluding MCEP, which payers considered a
viable price competitor to Defendants.
Defendants argue that the MCEP exclusion
permitted them to provide price reductions.
However, the legitimacy of the “rate for
volume” rationale is the subject of a genuine

App. 69
dispute, which precludes it from being the basis
for this summary judgment argument. Even
assuming the rate for volume rationale is
legitimate, it is simply Defendants bribing
payers in exchange for a commitment to not
bring in a rival that the Defendants would have
to deal with for the payer’s business. Defendants
have failed to [produce] evidence that their joint
contracting has any efficiency-enhancing
purpose to which such an agreement is
necessary.
Accordingly, a jury could reasonably conclude
from this evidence that the “rate for volume”
language is nothing more than a provision
seeking to provide cover for excluding
competitors. Alternatively, a jury could find that
whatever discount was given was payment for
the payer’s agreement to the Panel Limitation
commitment and completely unrelated [to]
volume-sensitive pricing.
Doc. #183, PageID##16487-90 (footnotes omitted).
According to Judge Black, “[t]he ancillary restraint
doctrine requires undisputed proof (at summary
judgment) that the ‘non-venture’ activity (the
agreement to exclude a rival from the payer’s network)
is joint conduct that is necessary for the Defendants to
achieve whatever efficiency-enhancing purpose
collective negotiation brings and that there are not less
restrictive alternatives.” Id. at PageID#16489 n.8. He
found that Defendants had failed to make this showing.

App. 70
Judge Black summed up as follows:
As the Court previously concluded,
“[o]rganizing a group boycott of MCEP does not
promote any legitimate objective of the JOA or
achieve any procompetitive benefits.” (Doc. 37 at
12). Accordingly, since the alleged restraint
bears no relationship to some procompetitive
justification or legitimate function of the joint
venture, the challenged restraint must be
evaluated on its own and can be per se illegal
even if the remainder of the joint venture is
lawful. Blackburn v. Sweeney, 53 F.3d 825, 82829 (7th Cir. 1995) (applying per se rule to a
provision in a law partnership dissolution
agreement that restrained the territories where
former partners could advertise after finding the
provision to be non-ancillary to the rest of the
agreement).
Accordingly, the Court finds, as a matter of
law, that the appropriate standard for
evaluating the challenged conduct is the per se
rule.
Id. at PageID##16490-91 (footnote omitted).
III.

Defendants’ Motion to Clarify Issues for
Trial (Doc. #195)

On June 16, 2017, after this case was reassigned to
the undersigned judge, Defendants filed a Motion to
Clarify Issues for Trial, Doc. #195. They maintain that
Judge Black’s October 6, 2016, Order, is not only
ambiguous and confusing, but also clearly erroneous.
The Court construes Defendants’ Motion to Clarify

App. 71
Issues for Trial as a motion for reconsideration of that
portion of Judge Black’s October 6, 2016, Sealed Order
Resolving Defendants’ Motions for Summary
Judgment, Doc. #183, dealing with the question of
whether MCEP’s claim is governed by the per se rule or
the rule of reason.
As previously noted, Judge Black found that the
alleged group boycott consists of two discrete horizontal
agreements – an overarching conspiracy among
Defendants to prevent MCEP from competing (the
“hospital conspiracy” claim), and another conspiracy,
allegedly orchestrated by Defendants, among the
insurers not to offer MCEP a managed care contract
(the “rim conspiracy” claim). Defendants maintain that
Judge Black improperly conflated these two conspiracy
claims, and wrongly concluded that the per se rule
applies to both.
Defendants ask the undersigned to “disentangle”
them, and to preclude trial of both claims because:
(1) the “hospital conspiracy” claim was pled as a per se
claim, but is governed by the rule of reason; and (2) the
“rim conspiracy” claim was not pled at all.4 At a
minimum, Defendants ask the Court to clarify that the
rule of reason governs the “hospital conspiracy” claim,
and that the per se rule applies only to the “rim
conspiracy” claim.
Defendants maintain that, to the extent that Judge
Black concluded that the per se rule governs the
4

Defendants have filed a separate motion to preclude trial of the
unpled “rim conspiracy” claim. Doc. #190. That motion will be
addressed below.

App. 72
hospital conspiracy claim, that holding is clearly
erroneous. Moreover, the Order is confusing because,
even though he concludes that the per se rule applies,
he appears to have inadvertently evaluated the
hospital conspiracy claim under the rule of reason. In
addition, although the determination of which standard
applies is a question of law, Judge Black found that a
factual dispute concerning the legitimacy of the
proffered procompetitive justifications for the rate-forvolume clauses precluded summary judgment on this
issue.
MCEP urges the Court to summarily deny
Defendants’ Motion to Clarify and sanction Defendants
for filing it because it ignores the “law of the case”
doctrine. Given that Judge Black’s decision was issued
nine months ago, and trial is imminent, MCEP also
argues that Defendants’ motion is untimely.
MCEP insists that there are not two separate
conspiracy claims. Although the group boycott involved
two types of concerted horizontal action, the Amended
Complaint alleges just one overarching conspiracy to
effectuate a group boycott against MCEP. MCEP
maintains that Judge Black thoroughly analyzed the
relevant issues and correctly concluded that the per se
rule applies to the entire overarching conspiracy. Citing
Continental Ore Co. v. Union Carbide & Carbon Corp.,
370 U.S. 690, 699 (1962), MCEP argues that it would
be inappropriate to “dismember” the hospital
conspiracy from the rim conspiracy and apply different
standards to each. MCEP further argues that
Defendants’ purported justifications for the restraints

App. 73
are simply not plausible and, in any event, cannot save
the group boycott from per se condemnation.
Defendants offer very little explanation for why
they waited more than eight months to seek
“clarification” of Judge Black’s Order. They maintain
only that they were waiting on two appellate court
decisions that might support their position, and were
concentrating their efforts on settlement negotiations.
Nevertheless, the Court questions why they could not
have raised these issues much sooner than they did.
A court typically reconsiders an interlocutory order
only when there is “(1) an intervening change of
controlling law; (2) new evidence available; or (3) a
need to correct a clear error or prevent manifest
injustice.” Louisville/Jefferson Cty. Metro Gov’t v.
Hotels.com, L.P., 590 F.3d 381, 389 (6th Cir. 2009)
(quotation omitted). As MCEP notes, there have been
no changes in the controlling law, and there is no new
evidence. The only element that has changed is the
judge assigned to try this case. All of these factors
weigh against reconsideration.
Nevertheless, in the view of the undersigned,
Defendants have raised a very substantial question
about whether MCEP’s antitrust claim must be
analyzed under the per se rule or the rule of reason.
Given that MCEP has alleged only a per se claim, and
has disavowed reliance on a rule of reason analysis,
this question is both crucial and potentially dispositive.
Moreover, given the importance of this case, the Court
feels compelled to address and to resolve this issue
before allowing the parties to embark on what is
destined to be a very lengthy and expensive trial.

App. 74
A. Law of the Case Doctrine Does Not
Preclude Reconsideration
“District courts have authority both under common
law and [Federal Rule of Civil Procedure] 54(b) to
reconsider interlocutory orders and to reopen any part
of a case before entry of final judgment.” Rodriguez v.
Tennessee Laborers Health & Welfare Fund, 89 F. App’x
949, 959 (6th Cir. 2004). See also Am. Civil Liberties
Union v. McCreary Cty., 607 F.3d 439, 450 (6th Cir.
2010) (noting that where the district court has not yet
entered final judgment, it is “free to reconsider or
reverse its decision for any reason.”).
MCEP argues, however, that the “law of the case”
doctrine should preclude reconsideration of Judge
Black’s decision. This doctrine exists to prevent
relitigation of issues in a case that have already been
decided. “[W]hen a court decides upon a rule of law,
that decision should continue to govern the same issues
in subsequent stages in the same case.” Arizona v.
California, 460 U.S. 605, 618 (1983).
The Sixth Circuit has noted that the “‘law of the
case’ doctrine is ‘directed to a court’s common sense’
and is not an ‘inexorable command.’” Hanover Ins. Co.
v. Am. Eng’g Co., 105 F.3d 306, 312 (6th Cir. 1997)
(quoting Petition of U.S. Steel Corp., 479 F.2d 489, 494
(6th Cir. 1973)). MCEP acknowledges that the “law of
the case” doctrine is only a prudential consideration,
but notes that the Supreme Court has held that “[a]
court has the power to revisit prior decisions of its own
or of a coordinate court in any circumstance, although
as a rule[,] courts should be loathe to do so in the
absence of extraordinary circumstances such as where

App. 75
the initial decision was ‘clearly erroneous and would
work a manifest injustice.”’ Christianson v. Colt Indus.
Operating Corp., 486 U.S. 800, 817 (1988) (quoting
Arizona, 460 U.S. at 618 n.8).
Revisiting Judge Black’s decision on the
applicability of the per se rule so soon before the trial is
scheduled to begin is, needless to say, less than ideal,
particularly given the massive amounts of time and
money that have already been poured into this
litigation. Moreover, the undersigned has the utmost
personal and professional respect for Judge Black, who
is a gifted jurist and a thoughtful legal scholar.
Nevertheless, the undersigned, having thoroughly
reviewed the procedural history of this case and the
parties’ briefs on Defendants’ Motion to Clarify, and
having carefully researched this extremely complicated
area of the law,5 is convinced that Judge Black’s finding
– that the per se rule applies to MCEP’s Sherman Act
claim – is clearly erroneous. For the reasons set forth
below, the Court concludes that this is one of those
“extraordinary circumstances” in which reconsideration
is warranted.

5

One district court has called the application of the per se doctrine
to joint ventures “one of the darkest corners of antitrust law . . . an
area that is unsettled, unclear, unwieldy and unequivocally
complex.” In re ATM Fee Antitrust Litig., 554 F. Supp. 2d 1003,
1007 (N.D. Cal. 2008) (internal quotation omitted) .

App. 76
B. Internal Inconsistencies in Judge Black’s
Summary Judgment Opinions
The Court agrees with Defendants that several
aspects of Judge Black’s legal analysis are internally
inconsistent and in need of clarification. As an aside,
the Court notes that, in his October 20, 2014, Order,
granting summary judgment to Defendants on the
“plurality of actors” element, Judge Black found that
Premier was a legitimate joint venture, and that the
“challenged conduct–managed care contracting and
physician relations – is a core function of the Premier
health system.” Doc. #162, PageID#15932. Under
Dagher, 547 U.S. at 7-8, this factual finding would have
required the conclusion that the rule of reason applies.
Nevertheless, because that Order was limited to the
question of whether MCEP could satisfy the “plurality
of actors” element, and because the Sixth Circuit
declined to address the question of whether MCEP’s
claim was governed by the per se rule, this apparent
inconsistency is ultimately of little import.
The October 6, 2016, Order, is more problematic.
MCEP alleged a per se illegal group boycott.
Defendants argued that they were entitled to summary
judgment because MCEP’s claim was not subject to per
se condemnation. Quoting Salvino, 542 F.3d at 339
(Sotomayor, J ., concurring in judgment), Judge Black
noted that, under the ancillary restraint doctrine, “a
restraint that is unnecessary to achieve a joint
venture’s efficiency-enhancing benefits may not be
justified based on those benefits. Accordingly, a
challenged restraint must have a reasonable
procompetitive justification, related to the efficient-

App. 77
enhancing purposes of the joint venture.” If that nexus
does not exist, it “must be evaluated apart from the
rest of the venture, i.e., as horizontal concerted action.”
Doc. #183, PageID##16487-88. Judge Black ultimately
concluded that orchestrating a group boycott bears no
relationship to some procompetitive justification or
legitimate function of the joint venture, and that the
per se rule therefore applied. Id. at PageID#16490-91.
Along the way, however, he found that “the
legitimacy of the ‘rate for volume’ rationale is the
subject of a genuine dispute,” which precluded it from
being the basis for Defendants’ argument that the
Panel Limitations permitted them to provide price
reductions. Id. at PageID##16488-89 (emphasis added).
In a footnote, he stated that “[t]he ancillary restraint
doctrine requires undisputed proof (at summary
judgment) that the ‘non-venture’ activity (the
agreement to exclude a rival from the payer’s network)
is joint conduct that is necessary for the Defendants to
achieve whatever efficiency-enhancing purpose
collective negotiation brings and that there are not less
restrictive alternatives.” Id. at PageID# 16489 n.8
(citing Federal Trade Commission, Antitrust
Guidelines for Collaborations Among Competitors at
24). He found that Defendants failed to make this
showing. Id.
This language is troubling for a number of reasons.
First, it imposes an unwarranted evidentiary burden
on Defendants at this stage of the litigation. As
Defendants’ counsel explained at oral argument on
August 2, 2017, Defendants were not seeking a ruling
that their conduct was lawful; they were simply

App. 78
seeking a ruling that, as a matter of law, the per se rule
does not apply to MCEP’s Sherman Act claim.
Accordingly, as explained more fully below, to succeed
on this argument, all Defendants had to do was show
that the challenged restraint, i.e., the Panel
Limitations, was plausibly necessary to achieve a
procompetitive objective of the joint venture. They had
no duty to prove that there was no genuine issue of
material fact concerning the legitimacy of the rate-forvolume rationale. Whether the restraint is actually
anticompetitive in nature is a question of fact for the
jury to decide in the context of a rule of reason
analysis.
Second, as Defendants point out, Judge Black’s
factual finding, that rate-for-volume pricing is
prevalent in managed care contracts throughout the
United States, would appear to require a finding that
the challenged restraints are at least plausibly
necessary to achieve a procompetitive objective of the
joint venture, and that they are related to the
efficiency-enhancing purposes of the joint venture. The
rule of reason would, therefore, necessarily apply.
Third, Judge Black’s reliance on the section of the
Federal Trade Commission Guidlelines for
Collaborations Among Competitors that he cited is
puzzling. That section, Section 3.36(b), is a subsection
of Section 3.3, entitled “Agreements Analyzed Under
the Rule of Reason.” (emphasis added). Had MCEP
asserted a rule of reason claim, and had Defendants
moved for summary judgment on that claim, this
section of the Guidelines might be relevant. However,
under the circumstances presented here, the

App. 79
evidentiary burdens allegedly imposed by this section
appear to be inapplicable to the analysis.
For all of these reasons, the Court agrees that
Defendants’ motion seeking clarification of Judge
Black’s Order was warranted, despite its extreme
untimeliness.
C. Analysis
As previously noted, the Court construes
Defendants’ Motion to Clarify Issues for Trial, Doc.
#195, as a motion for reconsideration of Judge Black’s
conclusion that the restraints of trade at issue are
subject to per se condemnation.
In Leegin Creative Leather Products, Inc. v. PSKS,
Inc., 551 U.S. 877, 886-87 (2007), the Supreme Court
cautioned that the per se rule should be applied to a
challenged restraint only if a court “can predict with
confidence that it would be invalidated in all or almost
all instances under the rule of reason.” Likewise, the
Sixth Circuit has held that the per se rule should be
applied “reluctantly and infrequently, informed by
other courts’ review of the same type of restraint, and
only when the rule of reason would likely justify the
same result.” In re Southeastern Milk Antitrust Litig.,
739 F.3d at 271.
Defendants maintain that, under the analytical
framework for joint ventures set forth in Dagher, the
rule of reason applies, either because the challenged
restraints, i.e., the Panel Limitations and non-compete
clauses, are “core activities” of the joint venture, or
because they are plausibly necessary to achieve a
procompetitive objective of the joint venture. MCEP, on

App. 80
the other hand, maintains that Premier’s joint venture
status is immaterial. According to MCEP, because
“group boycotts” are per se unreasonable restraints of
trade, Defendants’ purported procompetitive
justifications are irrelevant.
For the reasons set forth below, the Court concludes
that, regardless of whether the challenged restraints
are analyzed as activities of a legitimate joint venture
under Dagher, or whether they are instead
characterized as a “group boycott,” a category of
restraints often, but not always, subject to per se
condemnation, the rule of reason applies. In short, the
challenged restraints at issue in this case do not have
“such a clear lack of any redeeming virtue” that they
should be “conclusively presumed to be unreasonable.”
Expert Masonry, 440 F.3d at 342 (quotation omitted).
Therefore, they cannot be deemed per se unreasonable
restraints of trade. A more thorough rule of reason
analysis is required to determine whether they violate
Section 1 of the Sherman Act.
1. Joint Venture Analysis
In determining whether MCEP’s claim is subject to
the per se rule or the rule of reason, the Court starts
with the undisputed premise that Premier Health
Partners is a legitimate joint venture. Under the Joint
Operating Agreement, the Hospital Defendants are
owned, controlled and operated independently.
However, their income streams are consolidated, and
Premier manages many of their business functions,
including the negotiation of each hospital’s managed
care contracts with insurers.

App. 81
MCEP points out that the Premier joint venture is
perhaps not as fully integrated as the joint venture at
issue in Dagher. In the Court’s view, the degree of
integration is clearly relevant to the first element of a
Sherman Act claim, i.e., whether there is a plurality of
actors, but has little relevance to the question of
whether a challenged restraint of a joint venture is
subject to per se condemnation. MCEP has pointed to
no authority indicating that the analytical framework
for joint ventures, as set forth in Dagher, does not
apply to the circumstances presented here.
a. Analytical Framework
In determining whether the per se rule applies, it
makes a difference that Premier is a joint venture.
Joint ventures are not insulated from per se violations
of antitrust laws. Salvino, 542 F.3d at 336-37
(Sotomayor, J., concurring in judgment). However,
because they “hold the promise of increasing a firm’s
efficiency and enabling it to compete more effectively,”
their conduct is much more likely to be judged under
the rule of reason. Copperweld Corp. v. Independence
Tube Corp., 467 U.S. 752, 768 (1984). “[C]ourts must be
cautious in condemning a joint venture’s acts of
cooperation as per se unreasonable, for fear of
punishing the very conduct that society should aim to
protect.” In re A TM Antitrust Litig., 554 F. Supp. 2d
1003, 1011-12 (N .D. Cal. 2008).
Accordingly, “competitors engaged in joint ventures
may be permitted to engage in a variety of activities
that would normally be illegal under a per se rule when
such activities are necessary to achieve the significant
efficiency-enhancing purposes of the venture.” Salvino,

App. 82
542 F .3d at 337 (Sotomayor, J., concurring in
judgment). See also Stop & Shop Supermarket Co. v.
Blue Cross & Blue Shield, 373 F.3d 57, 61 (1st Cir.
2004) (noting that labels such as “group boycott” are
only “minimally useful,” given that “many
arrangements that are literally concerted refusals to
deal have potential efficiencies and are judged under
the rule of reason.”).
“In short, to protect the efficiency-enhancing
potential of joint ventures and cooperatives, the rule of
reason is the favored method of analysis for these
ventures, preventing courts from intervening before a
full market analysis is completed.” Salvino, 542 F.3d at
338 (Sotomayor, J., concurring in judgment). See also
In re New Energy Corp., 739 F.3d 1077, 1079 (7th Cir.
2014) (“Joint ventures have the potential to improve
productivity as well as the potential to affect prices;
that’s why in antitrust law they are analyzed under the
Rule of Reason rather than a rule of per se illegality.”);
Polk Bros., Inc. v. Forest City Enter., Inc., 776 F.2d 185,
188 (7th Cir. 1985) (holding that the rule of reason is
the norm “[w]hen cooperation contributes to
productivity through integration of efforts”).
As previously noted, Texaco, Inc. v. Dagher, 547
U.S. 1 (2006), sets forth the analytical framework for
reviewing restraints of trade by a legitimate joint
venture. If the challenged conduct involves a “core
activity” of the joint venture, such as setting prices for
its own goods or services, it is subject to a rule of

App. 83
reason analysis. Id. at 7.6 If the challenged conduct
involves restrictions imposed on a “nonventure
activity,” the ancillary restraints doctrine comes into
play, whereby the court “must determine whether the
restriction is a naked restraint on trade, and thus
invalid, or one that is ancillary to the legitimate and
competitive purposes of the business association, and
thus valid.” Id.
A treatise on antitrust law explains the analysis
governing “nonventure” activities as follows. The first
question is “whether the restraint is of a type
potentially subject to per se condemnation.” Holmes, W.
and Mangiaracina, M., Antitrust Law Handbook § 2:22.
If not, it is analyzed under the rule of reason. If it is of
a type potentially subject to per se condemnation, then
the court must ask “whether the restraint is plausibly
necessary to achieving a procompetitive objective of the
venture.” Id. If the restraint is plausibly necessary, the
rule of reason applies. Only “if the restraint is of a per
se character and not plausibly necessary to a legitimate
joint venture objective” is application of the per se rule
appropriate. Id.
As MCEP’s counsel pointed out at oral argument, a
defendant can almost always concoct some reason why
the challenged restraint is plausibly necessary to
achieve a procompetitive objective of the joint venture.
Accordingly, bare assertions by counsel are insufficient

6

Merriam-Webster defines “core” as “a basic, essential or enduring
part.” https://www.merriam-webster.com/dictionary/core. The
Court has found no caselaw defining this term in a relevant legal
context.

App. 84
to establish plausibility. In the view of the
undersigned, a number of other factors should be
considered in assessing the plausibility of a proffered
justification, including the prevalence of similar
restraints in the industry, the circumstances giving
rise to the particular challenged restraint at issue, and
a healthy dose of common sense.
The following diagram shows the proper analytical
framework:

*Whether the challenged restraint is
actually necessary to achieve a
procompetive objective of the joint
venture is a question of fact to be decided
by the jury.
Using this analytical framework, the Court then
turns to the question of whether the challenged

App. 85
restraints at issue are subject to the per se rule or the
rule of reason.
b. Rate-for-Volume
Pricing/Panel
Limitations in Contracts with
Insurers
MCEP’s claim focuses on certain provisions
contained in the contracts between the Defendant
Hospitals and the insurers. As Judge Black explained
in his October 6, 2016, Sealed Order, the price at which
a hospital sells its services to an insurer is often linked
to the volume of patients that the insurer can be
expected to direct to that hospital over the course of the
contract. This rate-for-volume pricing is “prevalent in
managed care contracting in the Dayton area and
elsewhere across the United States.” Doc. #183,
PageID#16488 n. 7. MCEP conceded at oral argument
that, as a general matter, no court has held rate-for
volume pricing to be per se illegal.
The problem, according to MCEP, is how
Defendants went about obtaining the benefit of their
bargain. Given that it is the physicians who decide
where to refer their patients, an insurer has no way to
guarantee a certain volume of patients; however, as
explained at oral argument, the expected volume can
be estimated based on past hospital admissions. Judge
Black noted that the expected volume can be realized
“either because the insurer offers a large number of
members or because the insurer limits the size of its
hospital network and in that way channels its volume
to fewer hospitals.” Id.

App. 86
The managed care contracts that Premier
negotiated on the behalf of the individual hospitals
contain a “Panel Limitations” clause, which is the chief
challenged restraint at issue. It does not expressly
prohibit the insurer from adding other hospitals to its
managed care networks. Rather, it provides that, if the
insurer does add other hospitals to the network,
thereby diluting the expected volume, the hospital has
the option to terminate the contract or renegotiate the
rates at which it will sell the services at issue.
MCEP acknowledges that these Panel Limitations
are vertical restraints (between parties “upstream or
downstream” of each other), which are typically
analyzed under a rule of reason. Citing Com-Tel, Inc. v.
DuKane Corp., 669 F.2d 404, 409 (6th Cir. 1982),
MCEP nevertheless argues that the per se rule applies
because Defendants enforced the Panel Limitations in
a way that prevented MCEP, a horizontal competitor,
from obtaining crucial managed care contracts. In other
words, according to MCEP, the Panel Limitations
operated to exclude MCEP from the market, thereby
rendering a per se analysis appropriate.
In Business Electronics Corporation v. Sharp
Electronics Corporation, 485 U.S. 717 (1988), the
Supreme Court appears to have rejected this view. It
stated that “a restraint is horizontal not because it has
horizontal effects, but because it is the product of a
horizontal agreement.” Id. at 730 n.4. See also In re
Southeastern Milk Antitrust Litig., 739 F.3d at 273
(“The conspiracy’s effect on the plaintiff, however, is
not the sole means of determining whether a restraint
is horizontal or vertical. The agreement which causes

App. 87
the effect is determinative.”). It would appear,
therefore, that the Panel Limitations are vertical
restraints subject to the rule of reason.
Nevertheless, assuming arguendo that DuKane is
still good law, and that the Panel Limitations could be
deemed per se unreasonable based on their effect on
MCEP, a horizontal competitor of Defendants, the
Court will proceed to analyze them under the
analytical framework of Dagher. The result is the
same.
The first question is whether the Panel Limitations
involve a “core activity” of the joint venture. Dagher
held that the pricing of the very goods or services
produced by a joint venture is a core activity subject to
the rule of reason. 547 U.S. at 7-8. To the extent that
the Panel Limitations operate to ensure a certain
volume of patients, and that volume, in turn, forms the
basis of the discounted prices offered to the insurer, the
Panel Limitations are intricately intertwined with
“internal pricing decisions,” which were found to be
core activities in Dagher.7 Accordingly, the rule of
reason applies.
However, even if the Panel Limitations are viewed
as “nonventure” restraints, based on the fact that they
reach outside of the joint venture to impose potential

7

Notably, in the course of deciding that MCEP’s claim lacked the
necessary plurality of actors, Judge Black found that the
challenged restraints, “managed care contracting and physician
relations,” were “core functions” of the joint venture under Dagher.
Doc. #162, PageID#15932. The Sixth Circuit did not disturb this
finding on appeal.

App. 88
negative consequences on insurers who decide to add
new hospitals to their managed care networks, the rule
of reason still applies.
As explained above, the next question would be
whether the Panel Limitations are a naked restraint of
a type typically subject to per se analysis. If they are
not, the rule of reason applies. If they are, the Court
must ask whether they are plausibly necessary to
achieve a procompetitive objective of the joint venture.
On appeal, the Sixth Circuit stated, “[n]egotiating
contracts that explicitly exclude the insurers’ ability to
contract with other parties is anticompetitive on its
face and normally serves no proper business function,
a fact recognized by the district court in its first order
denying the motion to dismiss.” Medical Ctr. at
Elizabeth Place v. Atrium Health Sys., 817 F. 3d at 941.
Pointing to this statement, MCEP argues that the
Sixth Circuit definitively held that this claim is subject
to the per se rule.8 This Court disagrees for several
reasons.

8

MCEP also argues that, because Defendants also argued on
appeal – as an alternate ground for affirming Judge Black’s
opinion – that MCEP’s claim was not subject to the per se rule, and
because the Sixth Circuit did not discuss this alternate ground for
affirmance, we should assume that the Sixth Circuit impliedly
rejected it. Given the Sixth Circuit’s explicit statement that the
appeal concerned only the first element of the Sherman Act claim,
i.e., plurality of actors, such an inference is unwarranted.
Moreover, the Sixth Circuit was not required to address the
alternate ground for affirmance. See Portman v. Cty. of Santa
Clara, 995 F.2d 898, 910 (9th Cir. 1993) (“Although we may affirm
the grant of summary judgment on any basis presented in the
record, we are not obliged to do so.”).

App. 89
First, the Sixth Circuit explicitly stated that “[t]his
appeal looks only at the element addressed by the
district court, which is the first element: whether
defendants’ conduct is the result of two or more entities
acting in concert or whether defendants, based on their
participation in the joint operating agreement, function
as a single entity in the market place.” Id. at 939
(emphasis added). Because the question of whether the
Panel Limitations provision is a per se unreasonable
restraint of trade is completely irrelevant to the first
element of the claim, the Sixth Circuit’s statement,
that “[n]egotiating contracts that explicitly exclude the
insurers’ ability to contract with other parties is
anticompetitive on its face and normally serves no
proper business function,” is nothing more than dicta.
Second, it is based on the false premise that
Premier’s contracts explicitly prohibited the insurers
from adding other hospitals to the network. As
discussed above, that was not the case. Although the
insurers may face adverse financial consequences if
they did so, they were not prohibited from adding other
hospitals to the network.
Third, as counsel for Defendants pointed out at oral
argument, courts have repeatedly rejected antitrust
challenges to short-term exclusive contracts between
insurers and hospitals. See, e.g., Methodist Health
Services Corp. v. OSF Healthcare Sys., 859 F.3d 408,
410 (7th Cir. 2017) (noting that “an insurance company
may get better rates from a hospital in exchange for
agreeing to an exclusive contract, as exclusivity will
drive a higher volume of business to the hospital.”).
Accordingly, the Sixth Circuit’s statement that such

App. 90
provisions are anticompetitive on their face does not
appear to comport with the law.9
Based on the foregoing, in this Court’s view, the
Panel Limitations are not a naked restraint of the type
typically subject to per se analysis. The rule of reason
would therefore apply. Assuming arguendo that the
Panel Limitations are, in fact, of a type typically
subject to a per se analysis (as the Sixth Circuit
appeared to state), the result would be the same. The
question would then become whether the Panel
Limitations are plausibly necessary to achieve a
procompetitive objective of the joint venture. If they are
not plausibly necessary, they are subject to per se
condemnation. Otherwise, they are subject to the rule
of reason.
Judge Black found that there was no evidence that
the hospitals increased their rates after the Panel
Limitations were removed from the contracts. At this
stage, however, the only question is whether the Panel
Limitations were plausibly necessary to achieve a
procompetitive objective of the joint venture at the time
the agreement was made. Polk Bros., 776 F.2d at 189.
They clearly were.
The Panel Limitations help ensure that patient
volume at the hospitals remains steady. This is the
quid pro quo for the discounted rates that the hospitals
offer the insurers, and the only real way that the
hospitals can protect the benefit of their bargain. In
9

The Court notes that the Sixth Circuit did qualify its statement
by saying that such restraints “normally serve[] no proper business
function.” 817 F.3d at 939 (emphasis added).

App. 91
turn, the discounted rates given to the insurers
arguably will result in lower premiums and more
choices for the consumers. See Abraham v.
Intermountain Health Care, Inc., 461 F.3d 1249, 1261
(10th Cir. 2006) (noting that “there is substantial
empirical evidence that selective contracting allows
managed care companies to contain health care
costs–the more restrictive the panel, the lower the cost
of the premium to the subscriber.”). Given that
Defendants have presented plausible efficiency
justifications for the Panel Limitations, related to the
efficiency-enhancing purposes of the joint venture, the
rule of reason applies as a matter of law.
Defendants have no evidentiary burden at this
stage to prove that the Panel Limitations were, in fact,
necessary to achieve a procompetitive purpose. After
reviewing all of the evidence in this case, a jury could
ultimately conclude that the Panel Limitations are an
unreasonable restraint of trade, and that Defendants
used the Panel Limitations in an anticompetitive
manner to exclude MCEP from the market. However,
because the Panel Limitations are plausibly necessary
to achieve a procompetitive objective of the joint
venture, this finding must be made only after
considering all relevant factors under a full rule of
reason analysis. The Panel Limitations are not subject
to per se condemnation.
c. Non-Compete Clauses
MCEP also challenges Defendants’ enforcement of
certain non-compete provisions in leases and
employment contracts of physicians who invested in
MCEP, who were affiliated with MCEP, or who

App. 92
referred patients to MCEP. Again, because these are
purely vertical restraints (between the employer and
employee), the Court believes that the per se rule does
not apply, regardless of any negative effects on MCEP.
Business Elec. Corp., 485 U.S. at 730 n.4. Nevertheless,
the Court will analyze the non-compete provisions
under Dagher.
Defendants argue that because physicians are
necessary to the operation of the joint venture, the noncompete provisions included in the employment
contracts and leases should be deemed core activities
subject to the rule of reason. The Court tends to agree.
But even if the non-compete provisions are deemed
“non-core,” the result is the same, because they are not
of a type typically subject to per se analysis and, even
if they were, they are plausibly necessary to achieve a
procompetitive objective of the joint venture. The noncompete provisions arguably operate to make the joint
venture agreement more productive. The hospitals
provide training to the physicians and provide nearby
office space in order to increase patient volume. They
do not want the physicians to reap the benefits of the
training and the convenient office space, and then refer
their patients elsewhere or invest in other hospitals.
Accordingly, under the framework set forth in
Dagher, the rule of reason applies to the non-compete
provisions also. Again, after considering all of the
evidence, a jury might reject Defendants’ arguments,
but because there are plausible procompetitive
justifications for the non-compete provisions, the
challenged restraints must be subjected to a full rule of
reason analysis.

App. 93
2. Group Boycott Analysis
MCEP argues that Defendants’ status as a joint
venture is immaterial where a horizontal group boycott
is alleged. According to MCEP, because group boycotts
are per se unreasonable restraints on trade, it is
improper to consider whether the challenged restraints
are plausibly necessary to achieve some procompetitive
objective of the joint venture. The Court disagrees.
Even though a restraint of trade may fall into one of
the categories traditionally labeled per se
unreasonable, this does not mean that it is per se
unreasonable in the context of a joint venture. As one
court explained, “well-settled doctrines of antitrust law
do not always map smoothly onto the relatively
contemporary concept of joint ventures. It is not
appropriate to assume that a restraint imposed by
members of a joint venture is per se unreasonable,
merely because the same conduct by competitors would
be judged under the per se rule.” In re ATM Fee
Antitrust Litig., 554 F. Supp. 2d at 1011. See also In re
Sulfuric Acid Antitrust Litig., 703 F.3d 1004, 1013 (7th
Cir. 2012) (holding that, even though price fixing is per
se illegal, it may be subject to rule of reason analysis in
the context of a legitimate joint venture).
Moreover, it is true that group boycotts have often
been included on the list of “classes of economic activity
that merit per se invalidation under § 1 [of the
Sherman Act].” Northwest Wholesale Stationers, Inc. v.
Pacific Stationery and Printing Co., 472 U.S. 284, 293
(1985). Nevertheless, “[t]here is more confusion about
the scope and operation of the per se rule against group
boycotts than in reference to any other aspect of the per

App. 94
se doctrine.” Id. at 294 (quoting L. Sullivan, Law of
Antitrust 229-230 (1977)).
In earlier antitrust cases, such as Klor’s, Inc. v.
Broadway-Hale Stores, Inc., 359 U.S. 207 (1959), the
Supreme Court stated that group boycotts have
traditionally fallen into the “forbidden category” and
“have not been saved by allegations that they were
reasonable in the specific circumstances.” Id. at 212.
Although the law has evolved, and group boycotts are
no longer considered automatically subject to the per se
rule, courts have continued to cite Klor’s and other
early cases for that outdated proposition. See, e.g.,
Com-Tel, Inc. v. DuKane, 669 F.2d 404, 408 (6th Cir.
1982) (citing Northern Pac. Ry. Co. v. United States,
356 U.S. 1 (1958) for the proposition that group
boycotts are per se illegal); Expert Masonry, 440 F.3d at
344 (citing Fashion Originators’ Guild v. Federal Trade
Comm’n, 312 U.S. 457 (1941) for the proposition that
group boycotts are typically viewed under the per se
rule “regardless of any alleged ameliorative
rationale.”).
In Northwest Wholesale Stationers, the Supreme
Court clarified that “not all concerted refusals to deal
[i.e., group boycotts] are predominately
anticompetitive.” 472 U.S. at 298. It identified three
characteristics of the kinds of group boycotts that have
been deemed per se illegal. First, they involve joint
efforts to disadvantage competitors by cutting off
access to necessary suppliers or customers. Id. at 294.
Second, the defendants typically possess a “dominant
position in the relevant market.” Id. Third, “the
practices were generally not justified by plausible

App. 95
arguments that they were intended to enhance overall
efficiency and make markets more competitive.” Id.
When these factors are present, “the likelihood of
anticompetitive effects is clear and the possibility of
countervailing procompetitive effects is remote.” Id.
The Court went on to say that “a concerted refusal
to deal need not necessarily possess all of these traits
to merit per se treatment.” Id. at 295. Nevertheless,
Northwest Wholesale Stationers instructs that,
although the presence of a plausible procompetitive
justification may not be dispositive, it certainly cannot
be ignored in determining whether per se condemnation
is warranted.
One treatise states that if the alleged group boycott
arguably serves a plausible procompetitive objective,
“then the analysis shifts to a full rule of reason
inquiry.” Holmes, W. and Mangiaracina, M., Antitrust
Law Handbook, § 2:16. See also Paladin Assocs., Inc. v.
Montana Power Co., 328 F.3d 1145, 1155 (9th Cir.
2003) (“When a defendant advances plausible
arguments that a practice enhances overall efficiency
and makes markets more competitive, per se treatment
is inappropriate, and the rule of reason applies.”).
In this case, assuming arguendo that the alleged
group boycott involved efforts to disadvantage MCEP
by cutting off access to necessary managed care
contracts, physicians and/or investors, and assuming
arguendo that Premier possesses a “dominant position
in the relevant market,” the Court–for the reasons set
forth above–finds that the challenged restraints at
issue (Panel Limitations and non-compete provisions)
were nevertheless plausibly “intended to enhance

App. 96
overall efficiency and make markets more competitive.”
Northwest Wholesale Stationers, 472 U.S. at 294. The
alleged group boycott is therefore not subject to per se
condemnation.
The case of Stop & Shop Supermarket Co. v. Blue
Cross & Blue Shield, 373 F.3d 57 (1st Cir. 2004), is
closely analogous to this one. Blue Cross, in exchange
for better prices, entered into a three-year exclusive
contract with certain pharmacies, creating a “closed
network.” A few other pharmacies were later allowed to
join the network, but Stop & Shop and Walgreen were
excluded. They sued, alleging antitrust violations.
The district court dismissed their per se claims, and
the First Circuit affirmed. The court held that “the
closed network is simply an exclusive dealing
arrangement which is not a per se violation of the
antitrust laws.” Id. at 62 (citing Tampa Elec. Co. v.
Nashville Coal Co., 365 U.S. 320, 327-29 (1961)).
“Because such agreements can achieve legitimate
economic benefits (reduced cost, stable long-term
supply, predictable prices), no presumption against
such agreements exists today.” Id. at 65 (emphasis
added).
As to the fact that the contract precluded the
network from admitting any other new pharmacies, the
court concluded that:
this is a possible antitrust violation, but it is not
a per se violation. The reason is that the closed
pharmacy arrangement is valuable to
participating pharmacies in part because it
directs volume to them; thus, the

App. 97
United/Provider pharmacies had a direct
interest, in exchange for allowing CVS to
compete for their captive subscribers, in not only
being allowed to compete for Blue Cross’
customers but in making sure that yet
additional new member pharmacies did not
unreasonably dilute this benefit.
This does not mean that the ancillary restriction
is lawful[,] but only that per se condemnation is
not appropriate. Joint ventures involving direct
competitors not infrequently exclude other
competitors. Cf. N.W. Wholesale Stationers, Inc.
v. Pac. Stationery & Printing Co., 472 U.S. 284,
296-97, 105 S.Ct. 2613, 86 L.Ed .2d 202 (1985).
Id. at 63.
Likewise, in Levine v. Central Florida Medical
Affiliates, Inc., 72 F.3d 1538, 1550-51 (11th Cir. 1996),
the Eleventh Circuit held that an agreement to exclude
certain providers from a multiprovider network is
subject to the rule of reason, and that panel limitations
do not constitute a per se illegal group boycott.
The Court finds the reasoning in these cases to be
very persuasive. Defendants’ alleged attempts to
exclude MCEP from the market by cutting off access to
insurers, physicians and investors may well constitute
an antitrust violation. In fact, on appeal of this case,
the Sixth Circuit noted that “[t]he summary judgment
record leaves little doubt on the question of the intent
of the network to prevent plaintiff hospital from
entering the Dayton healthcare market.” Med. Ctr. at
Elizabeth Place, 817 F.3d at 937-38. Nevertheless,

App. 98
Defendants’ stated intent is not enough to bring the
challenged restraints within the per se rule. See Nynex,
525 U.S. at 137-38 (holding that a stated motive to
drive a competitor from the market does not
necessarily lead to a finding that this was a per se
illegal “boycott”). Given the facts presented here,
MCEP’s claim is subject to the rule of reason.
There is yet another reason why the Court believes
that MCEP’s claim is subject to a rule of reason
analysis. The fact that the case involves rate-forvolume pricing and non-compete provisions that are
commonplace in the health care industry, many of
which existed in Defendants’ contracts long before
MCEP came into existence, leads the Court to conclude
that these are not the types of restraints that lack such
redeeming value that they should categorically be
subject to per se condemnation. In addition, because
courts do not have a great deal of experience in the
complex area of managed care contracting, it is
inappropriate to condemn such practices as per se
violations of the Sherman Act. See, e.g., Diaz v. Farley,
215 F.3d 1175, 1184 (10th Cir. 2000) (holding that the
relative inexperience of courts in understanding
internal hospital scheduling practices made it “wholly
inappropriate to justify condemning one type of
scheduling practice as per se violative of the Sherman
Act”); Cohlmia v. Ardent Health Servs., LLC, 448 F.
Supp. 2d 1253, 1267 (N.D. Okla. 2006).
3. Conclusion
MCEP has pled only a per se violation of Section 1
of the Sherman Act. For the reasons set forth above,
the Court concludes that Judge Black’s conclusion that

App. 99
the per se rule applies to MCEP’s claim is clearly
erroneous. Regardless of whether the challenged
restraints are analyzed as activities of a joint venture
under Dagher, or completely outside of the joint
venture, as a horizontal agreement to exclude MCEP
from the marketplace, i.e., a group boycott, the result
is the same.
Under the circumstances presented here, the Court
cannot say that the challenged restraints are “so
plainly anticompetitive that no elaborate study of the
industry is needed to establish their illegality.” Dagher,
547 U.S. at 5 (quoting National Soc. of Prof’l Engineers
v. United States, 435 U.S. 679, 692 (1978)).
Accordingly, the rule of reason applies, and MCEP’s
claim must be dismissed.
The Third Circuit has noted that:
While pleading exclusively per se violations can
lighten a plaintiff’s litigation burdens, it is not a
riskless strategy. If the court determines that
the restraint at issue is sufficiently different
from the per se archetypes to require application
of the rule of reason, the plaintiff’s claims will be
dismissed. E.g., AT&T Corp. v. JMC Telecom,
LLC, 470 F.3d 525, 531 (3d Cir. 2006); see also
Texaco v. Dagher, 547 U.S. 1, 7 n.2, 126 S. Ct.
1276, 164 L. Ed. 2d 1 (2006) (declining to
conduct a rule of reason analysis where
plaintiffs “ha[d] not put forth a rule of reason
claim”). See generally 11 Hovenkamp, supra,
¶1910b (discussing the cost-benefit analysis
involved in deciding whether to pursue an
exclusively per se theory of liability).

App. 100
In re Ins. Brokerage Antitrust Litig., 618 F.3d 300, 317
(3d Cir. 2010). See also Diaz, 215 F. 3d at 1182 (where
plaintiffs conceded that they did not have sufficient
evidence to support a rule of reason claim, and the
appellate court agreed that the per se rule was
inapplicable, the district court’s order dismissing the
antitrust claim must be affirmed). Given that MCEP
has disavowed any reliance on a rule of reason
analysis, and its claim is not subject to per se
condemnation or analysis under a per se standard, the
Court DISMISSES MCEP’s Sherman Act claim WITH
PREJUDICE.
IV.

Defendants’ Motions to Preclude Trial of
Unpled Conspiracy Claims (Docs. #190, 194)

MCEP has alluded to three separate “agreements”
in this case: (1) an agreement among the Hospital
Defendants to exclude MCEP from the market place
(what Defendants call the “hospital conspiracy”); (2) an
agreement among the insurers not to offer MCEP a
managed care contract (what Defendants call the “rim
conspiracy”); and (3) an agreement among Defendants’
primary care physicians and independent primary care
physicians not to do business with investors in MCEP
(what Defendants call the “physicians conspiracy”).
The Amended Complaint alleges only an agreement
among the Hospital Defendants. Defendants have
moved to preclude trial of the other two “unpled
conspiracies.” Docs. ##190, 194. The Court’s finding,
that MCEP’s Sherman Act claim is not subject to per se
condemnation and must be dismissed, would appear to
render these motions moot. Nevertheless, in an

App. 101
abundance of caution, the Court will briefly address
them.
MCEP has never moved to amend its Complaint to
assert allegations of separate agreements among the
insurers, or among the physicians.10 At oral argument
and in their reply brief, however, Defendants conceded
that, if MCEP could prove that the insurers agreed
among themselves not to offer MCEP a managed care
contract and that Premier orchestrated that
agreement, the per se rule would apply to that claim.
Doc. #236, PageID#20286. The same could presumably
be true of the alleged agreement among primary care
physicians employed by Premier and independent
primary care physicians.
To the extent that MCEP could argue that, instead
of dismissing the Sherman Act claim on the ground
that the per se rule does not apply to the “hospital
conspiracy,” as pled, the Court should allow MCEP to
amend its Complaint to assert these previously-unpled
allegations, the Court rejects this suggestion.
A. Defendants’ Sealed Motion to Preclude
Trial of Unple[d] “Rim Conspiracy” Claim
(Doc. #190)
Defendants filed a Sealed Motion to Preclude Trial
of Unple[d] “Rim Conspiracy” Claim, Doc. #190.

10

MCEP maintains that these are not separate claims, but are
merely “additional evidence” of the overarching conspiracy claim
pled in the Amended Complaint. Given that the Amended
Complaint already names all of the relevant parties as
coconspirators, MCEP contends that no amendment was needed.

App. 102
Although the Amended Complaint alleges that
Defendants “orchestrated group boycotts,” and that
they coerced insurers into refusing to offer managed
care contracts to MCEP, it contains no allegation that
the insurers ever agreed with each other not to offer
managed care contracts to MCEP. Moreover, MCEP
has never sought leave to amend its Complaint to
assert such a claim.
According to Defendants, the possibility of a “rim
conspiracy” among the insurers was first mentioned by
MCEP’s attorney during Dr. David Argue’s deposition
on June 10, 2014, well after the discovery deadline, and
after expert reports had been exchanged. Doc. #190-2,
PageID##16589-90. Discovery had allegedly revealed
evidence that the insurers were aware of the panel
restrictions in each other’s contracts with Defendants,
had agreed to “hold the line” in their refusal to offer
MCEP managed care contracts, and had monitored
each other’s commitments to this agreement. MCEP
later raised allegations of a “rim conspiracy” in its
memorandum in opposition to Defendants’ motions for
summary judgment, Doc. #139, and again on appeal.
Defendants note that MCEP raised this new claim
only after they moved for summary judgment on the
question of whether MCEP could establish the
“plurality of actors” element of its Sherman Act claim
– MCEP asserting that, even if the Hospital
Defendants could not satisfy this element because they
were a “single entity,” a conspiracy among the insurers
could.
Defendants objected to this “newly-minted” claim.
They surmise that the district court agreed that the

App. 103
“rim conspiracy” claim was untimely; after all, its
decision granting summary judgment in Defendants’
favor on the plurality element makes sense only if the
court deemed the new rim conspiracy claim to be
improper. Likewise, although MCEP raised the issue
on appeal, and the Sixth Circuit mentioned the alleged
agreement among the insurers in its opinion, the
appellate court did not conduct any separate analysis
of the “rim conspiracy” claim. Oral argument
transcripts indicate that at least one judge believed
that this claim was untimely, and that MCEP should
have sought leave to amend the Complaint. Oral Arg.
Tr. at 11-13.
Given that a “rim conspiracy” claim was not pled in
the Amended Complaint, Defendants conducted no
discovery on the relationships among the insurers, and
sought no expert witness opinions on this topic. They
argue that they would, therefore, be severely
prejudiced if the Court now allowed MCEP to pursue
this claim. Doc. #190-1, PageID##16579-85. See Super
Sulky, Inc. v. United States Trotting Ass’n, 174 F.3d
733 (6th Cir. 1999) (refusing to allow trial of new
conspiracy claim raised for the first time in opposition
to summary judgment motion).
Defendants further note that a claim based on a
horizontal agreement among the Hospital Defendants
would be analyzed very differently than a claim based
on a horizontal agreement among the insurers. Because
the Hospital Defendants have entered into a joint
operating agreement, the key question, the factual
dispute, is whether Premier constitutes a single entity

App. 104
incapable of conspiring, or whether the individual
hospitals should be viewed as separate actors.
In contrast, there is no question that the insurers
are separate entities. The focus there is on whether the
insurers actually agreed among themselves and with
Premier to exclude MCEP from the marketplace. Proof
of such a claim would focus on factors set forth in
Re/Max International, Inc. v. Realty One, Inc., 173
F.3d 995 (6th Cir. 1999):
(1) whether the defendants’ actions, if taken
independently, would be contrary to their
economic self-interest; (2) whether the
defendants have been uniform in their actions;
(3) whether the defendants have exchanged or
have had the opportunity to exchange
information relative to the alleged conspiracy;
and (4) whether the defendants have a common
motive to conspire.
Id. at 1009.
At oral argument, counsel for Defendants estimated
that, if the Court were to allow MCEP to amend its
Complaint to assert a “rim conspiracy” claim,
Defendants would need 12-18 months of additional fact
discovery, followed by new expert witness opinions and
new dispositive motions. Given that this litigation was
initiated more than five years ago and substantial
resources have already been expended, he argued that
Defendants would be severely prejudiced if the Court
permitted such an amendment. MCEP counters that
Defendants’ claims of prejudice are spurious, given that

App. 105
Defendants passed up numerous opportunities to seek
discovery on this topic.
The Court agrees with Defendants that the “rim
conspiracy” is a separate claim not encompassed within
the allegations of the conspiracy alleged in the
Amended Complaint. MCEP has unsuccessfully tried to
wedge this new claim into the existing allegations. If
MCEP wanted to pursue a claim based on this separate
agreement among the insurers, orchestrated by the
Defendants, it should have moved to amend the
Complaint. Given that the evidence needed to defend
against a “rim conspiracy” claim is significantly
different than what is needed to defend against the
claim that was actually pled, the Court agrees that
Defendants would be severely prejudiced if MCEP were
permitted to amend its Complaint at this late date. The
Court therefore SUSTAINS Defendants’ Sealed Motion
to Preclude Trial of Unple[d] “Rim Conspiracy” Claim,
Doc. #190.
B. Defendants’ Motion to Preclude Trial of
Unpled “Physicians” Conspiracy (Doc.
#194)
Defendants have also moved to preclude MCEP
from pursuing at trial, or introducing any evidence of
a purported “agreement among Defendants’ primary
care physicians and independent primary care
physicians not to do business with investors in
[MCEP].” Doc. #194. This allegation of yet a third
horizontal agreement was not brought to Defendants’
attention until May 26, 2017, when they received
MCEP’s draft of the Proposed Final Pretrial Order.
Unlike the “rim conspiracy” claim, it was not raised in

App. 106
response to the motions for summary judgment or on
appeal.
As before, MCEP denies that this is a separate
claim or a new theory. MCEP again tries to wedge this
new agreement into the Amended Complaint, citing
allegations that the Hospital Defendants coerced
doctors not to affiliate with MCEP or refer their
patients to physicians who treated patients at MCEP.
The Amended Complaint, however, contains no
allegation of a separate agreement among the
physicians. If MCEP wanted to rely on this purported
agreement, it needed to amend its Complaint.
Defendants have not had the opportunity to conduct
discovery, seek expert witness testimony, or move for
summary judgment on this claim. Doc. #194-1. As such,
allowing MCEP to present evidence of a separate
agreement among the physicians would be unfairly
prejudicial to Defendants. The Court therefore
SUSTAINS Defendants’ Motion to Preclude Trial of
Unpled “Physicians” Conspiracy, Doc. #194.
V. Conclusion
For the reasons stated above, Defendants’ Motion to
Clarify Issues for Trial, Doc. #195, which the Court
construes as a motion for reconsideration of Judge
Black’s October 6, 2016, Sealed Order Resolving
Defendants’ Motions for Summary Judgment, Doc.
#183, is SUSTAINED. The Court finds that Judge
Black’s conclusion that MCEP’s Sherman Act claim is
governed by the per se rule is clearly erroneous. Given
that MCEP has pled only a per se claim, but the rule of

App. 107
reason applies, the Court DISMISSES MCEP’s
Sherman Act claim WITH PREJUDICE.
The Court also SUSTAINS Defendants’ Sealed
Motion to Preclude Trial of Unple[d] “Rim Conspiracy”
Claim, Doc. #190, and Defendants’ Motion to Preclude
Trial of Unpled “Physicians” Conspiracy, Doc. #194.
The following other motions in limine are
OVERRULED AS MOOT:
• Defendants’ Sealed Motion to Preclude Lay
Witness Thomas Mallon from Testifying on
Damages (Doc. #199);
• Defendants’ Motion to Exclude Prejudgment
Interest from Plaintiff’s Calculation of Damages
(Doc. #200);
• Defendants’ Sealed Motion to Exclude
Testimony of Dr. Harry E. Frech III on Damages
(Doc. #205);
• Defendants’ Sealed Motion to Exclude Opinions
of Plaintiff’s Damages Expert Harry E. Frech,
Ill, for Failure to Comply with Fed. R. Civ. P.
26(e) and 26(a)(2)(B) (Doc. #201);
• Defendants’ Sealed Motion to Exclude
Testimony Relating to Premier’s Cash Reserves
(Doc. #202);
• Defendants’ Sealed Motion to Exclude
Testimony about Catholic Health Initiatives
(Doc. #203);

App. 108
• Defendants’ Sealed Motion to Exclude
Testimony of James L. Watson (Doc. #204);
• Defendants’ Sealed Motion to Exclude
Testimony Regarding Hearsay from NonTestifying Physicians (Doc. #206);
• Defendants’ Sealed Motion In Limine to Exclude
Hearsay of Managed Care Facility
Representatives (Doc. #208);
• Plaintiff The Medical Center at Elizabeth Place’s
Motion in Limine No. 1 to Exclude Evidence of
Defendants’ Purported Justifications for Their
Anticompetitive Conduct (Doc. #210); and
• Plaintiff The Medical Center at Elizabeth Place’s
Sealed Motion in Limine No. 2 to Exclude
Evidence of Kettering Health Network’s NonCompete Provisions (Doc. #211).
Judgment shall enter in favor of Defendants and
against Plaintiff.
The captioned case is hereby ordered terminated
upon the docket records of the United States District
Court for the Southern District of Ohio, Western
Division, at Dayton.
Date: August 9, 2017
/s/Walter H. Rice
WALTER H. RICE
UNITED STATES DISTRICT JUDGE

App. 109

APPENDIX C
IN THE UNITED STATES DISTRICT COURT
FOR THE SOUTHERN DISTRICT OF OHIO
WESTERN DIVISION
Case No. 3: 12-cv-26
JUDGE WALTER H. RICE
[Filed August 14, 2017]
________________________________
THE MEDICAL CENTER AT
)
ELIZABETH PLACE, LLC,
)
)
Plaintiff,
)
)
v.
)
)
PREMIER HEALTH PARTNERS, )
et al.,
)
)
Defendants.
)
________________________________ )
ADDENDUM TO DECISION AND ENTRY
SUSTAINING DEFENDANTS’ MOTION TO
CLARIFY ISSUES FOR TRIAL, WHICH
THE COURT CONSTRUED AS A MOTION
FOR RECONSIDERATION (DOC. #267)

App. 110
On August 9, 2017, the Court issued a Decision and
Entry (Doc. #267) Sustaining Defendants’ Motion to
Clarify Issues for Trial (Doc. #195), which the Court
construed as a Motion for Reconsideration of that
portion of Judge Timothy Black’s October 6, 2016,
Order (Doc. #183) overruling Defendants’ Motion for
Summary Judgment that the Per Se Rule Does Not
Apply and that Plaintiff’s Claim Should Be Dismissed
(Doc. #132). The Court concluded that Judge Black’s
ruling was clearly erroneous and that, because the per
se rule does not apply and Plaintiff has disavowed any
reliance on the rule of reason, Plaintiff’s Sherman Act
claim must be dismissed with prejudice.
To the extent that the Decision and Order may not
have explicitly set forth the procedural vehicle by which
such dismissal was proper, this Addendum simply
seeks to clarify that Defendants are, in fact, entitled to
summary judgment on their Motion for Summary
Judgment that the Per Se Rule Does Not Apply and
that Plaintiff’s Claim Should Be Dismissed (Doc. #132).
Date: August 14, 2017
/s/Walter H. Rice
WALTER H. RICE
UNITED STATES DISTRICT JUDGE

App. 111

APPENDIX D
AO 450 (Rev. 11/11) Judgment in a Civil Action
UNITED STATES DISTRICT COURT
for the
Southern District of Ohio
Civil Action No. 3: 12-cv-26
[Filed August 9, 2017]
________________________________
The Medical Center at Elizabeth )
Place, LLC
)
Plaintiff
)
)
v.
)
)
Premier Health Partners, et al.,
)
Defendant
)
________________________________ )
JUDGMENT IN A CIVIL ACTION
The court has ordered that (check one):
G the plaintiff (name) ________________ recover from
the defendant (name) __________________the amount of
____________________ dollars ($ _______), which
includes prejudgment interest at the rate of
%,
plus post judgment interest at the rate of
% per
annum, along with costs.
G the plaintiff recover nothing, the action be
dismissed on the merits, and the defendant (name)

App. 112
_______________ recover costs from the plaintiff (name)
_________________________.
U other: DISMISSING PLAINTIFF’S SHERMAN
G
ACT CLAIM WITH PREJUDICE;
JUDGMENT IN FAVOR OF DEFENDANTS
AND AGAINST PLAINTIFF
This action was (check one):
G tried by a jury with Judge ______________________
presiding, and the jury has rendered a verdict.
G tried by Judge
and the above decision was reached.

without a jury

G decided by Judge Walter H. Rice on a motion for
U
Decision and Entry
Date: 8/9/17

CLERK OF COURT
/s/Kaylin Atkinson [SEAL]
Signature of Clerk or Deputy Clerk

App. 113

APPENDIX E
UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF OHIO
WESTERN DIVISION
Case No. 3:12-cv-26
Judge Timothy S. Black
[Filed April 19, 2017]
________________________________
MEDICAL CENTER AT
)
ELIZABETH PLACE, LLC,
)
)
Plaintiff,
)
)
vs.
)
)
MEDAMERICA HEALTH
)
SYSTEMS CORPORATION, et al., )
)
Defendants.
)
________________________________ )
ORDER OF RECUSAL AND RE-ASSIGNMENT
This District Judge hereby RECUSES himself from
this civil case and directs the Clerk of Court to reassign this case to the docket of District Judge Walter
H. Rice, who has agreed to proceed to jury trial in
Dayton on August 14, 2017, as the parties desire
(which this Cincinnati duty-stationed Judge cannot).

App. 114
IT IS SO ORDERED.
Date: April 19, 2017

s/ Timothy S. Black
Timothy S. Black
United States District Judge

App. 115

APPENDIX F
UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF OHIO
WESTERN DIVISION
Case No. 3:12-cv-26
Judge Timothy S. Black
[Filed October 6, 2016]
________________________________
THE MEDICAL CENTER AT
)
ELIZABETH PLACE,
)
)
Plaintiff,
)
)
vs.
)
)
PREMIER HEALTH PARTNERS, )
et al.,
)
)
Defendants.
)
________________________________ )
SEALED ORDER RESOLVING DEFENDANTS’
MOTIONS FOR SUMMARY JUDGMENT
(Docs. 129, 130, 132, 133)1

1

Pursuant to S.D. Ohio Civ. R. 79.3 and paragraph 14 of the
Stipulated Protective Order (Doc. 43), this Order contains citations
to exhibits, deposition testimony, and other documents produced
in this case that have been designated “Confidential” or “Highly

App. 116
This civil action is before the Court on:
(1) Defendant Catholic Health Initiatives motion for
summary judgment (Doc. 129); (2) Defendants’ motion
for summary judgment on statute of limitations (Doc.
130); (3) Defendants’ motion for summary judgment on
the per se rule (Doc. 132); (4) Defendants’ motion for
summary judgment based on Plaintiff’s failure to
present evidence of antitrust injury (Doc. 133);
Plaintiff’s omnibus memorandum contra (Doc. 139);
and Defendants’ reply memoranda (Docs. 155, 156, 157,
158, 159).2
I. BACKGROUND FACTS3
MCEP maintains that Defendants designed and
implemented a plan to deny MCEP access to supply
(managed care contracts and physicians) and demand
(physician referrals) that MCEP needed to compete as
a 26-bed adult acute-care hospital in Dayton, Ohio.
This alleged plan secured the cooperation and
agreement of members of the Defendants’ Joint
Operating Agreement (“JOA”) and their subsidiary
Hospitals with the oversight of Defendant Premier
Health Partners, nearly all of the health insurers

Confidential—Outside Counsels Eyes Only.” Accordingly, this
Order is docketed under seal.
2

Defendants include Premier Health Partners, Atrium Health
System, Catholic Health Initiatives, MedAmerica Health Systems
Corporation, Samaritan Health Partners, and UVMC (collectively
“Defendants”).
3

See also the parties’ undisputed facts at Doc. 129, Ex. 1; Doc. 130,
Ex. 1; Doc. 132, Ex. 1; Doc. 133, Ex. 1; and Doc. 139, Ex. 1.

App. 117
operating in Dayton, and certain independent medical
professionals.
On March 23, 2016, the Sixth Circuit reversed and
remanded this Court’s Order granting summary
judgment to Defendants, holding that this Court erred
in concluding that MCEP’s claim lacked the necessary
plurality of actors. (Doc. 173). Specifically, the Sixth
Circuit determined that “[b]ecause plaintiff presented
evidence of conduct and business operations that raise
the possibility of concerted action among defendant
hospitals, the question remains upon remand whether
hospitals that had previously pursued their own
interests separately, and that continue to seem to
compete, combined unlawfully to restrain competition.”
Med. Ctr. at Elizabeth Place, LLC v. Atrium Health
Sys., 817 F.3d 934, 945 (6th Cir. 2016). Moreover, while
the Sixth Circuit expressly stated that the circuit court
“look[ed] only at the element addressed by the district
court, which is the first element: whether defendants’
conduct is the result of two or more entities acting in
concert or whether defendants, based on their
participation in the joint operating agreement, function
as a single entity in the market place” Id. at 939, the
following findings by the Sixth Circuit have a direct
impact on the per se and antitrust injury motions:
• When viewing the record in the light most
favorable to MCEP, a reasonable juror might
conclude that, aside from a business relationship
pursuant to the joint operating agreement,
defendant hospitals maintained separate
identities and acted more like competitors than
one unit. (Id. at 945).

App. 118
• MCEP has submitted evidence that each insurer
knew that the other insurers had included this
limitation (“Panel Limitations”) in their
contracts. (Id. at 941).
• MCEP also offered evidence from insurance
company emails and defendant hospitals’ Board
of Directors meetings that, in addition to
demonstrating knowledge among the insurers of
the restriction on adding new hospitals to their
networks in their managed-care contracts with
defendant hospitals, the insurance companies
regularly monitored each other to ensure that
the other insurance companies were complying
with the contract restriction on dealing with a
new hospital. (Id. at 942).
• Negotiating contracts that explicitly exclude the
insurers’ ability to contract with other parties is
anticompetitive on its face and normally serves
no proper business function, a fact recognized by
the district court in its first order denying the
motion to dismiss. (Id. at 941).
Based on these findings, the Sixth Circuit instructs
that MCEP submitted evidence sufficient to
demonstrate that the group boycott underlying MCEP’s
Sherman Section 1 claim involves two discrete
horizontal agreements; (1) an agreement among the
Defendants as separate actors and competitors of
MCEP to prevent MCEP from competing, including
precluding MCEP from obtaining managed care
contracts from insurers; and (2) an agreement among
those insurers, orchestrated and monitored by the
Defendants’ concerted action, not to offer MCEP a

App. 119
managed care contract. See Med. Ctr. at Elizabeth
Place, 817 F.3d 934.
II. STANDARD OF REVIEW
A motion for summary judgment should be granted
if the evidence submitted to the Court demonstrates
that there is no genuine issue as to any material fact,
and that the movant is entitled to judgment as a
matter of law. Fed. R. Civ. P. 56(c). See Celotex Corp. v.
Catrett, 477 U.S. 317, 322 (1986); Anderson v. Liberty
Lobby, Inc., 477 U.S. 242, 247-48 (1986). The moving
party has the burden of showing the absence of genuine
disputes over facts which, under the substantive law
governing the issue, might affect the outcome of the
action. Celotex, 477 U.S. at 323. All facts and inferences
must be construed in a light most favorable to the
party opposing the motion. Matsushita Elec. Indus. Co.
v. Zenith Radio Corp., 475 U.S. 574, 587 (1986).
A party opposing a motion for summary judgment
“may not rest upon the mere allegations or denials of
his pleading, but . . . must set forth specific facts
showing that there is a genuine issue for trial.”
Anderson, 477 U.S. at 248 (1986).
III. ANALYSIS
Section 1 of the Sherman Act provides that “[e]very
contract, combination in the form of trust or otherwise,
or conspiracy, in restraint of trade or commerce among
the several States, or with foreign nations, is declared
to be illegal.” 15 U.S.C. § 1. Although the Sherman Act,
by its terms, prohibits every agreement “in restraint of
trade,” the United States Supreme Court recognizes

App. 120
that Congress intended to outlaw only “unreasonable
restraints.” State Oil Co. v. Khan, 522 U.S. 3, 10 (1997).
[T]o establish a claim under Section 1, the
plaintiff must establish that the defendants
contracted, combined or conspired among each
other, that the combination or conspiracy
produced adverse, anticompetitive effects within
relevant product and geographic markets, that
the objects of any conduct pursuant to that
contract or conspiracy were illegal and that the
plaintiff was injured as a proximate result of
that conspiracy.
Crane & Shovel Sales Corp. v. Buckyrus-Erie Co., 854
F.2d 802, 805 (6th Cir. 1988).
The two major types of antitrust conspiracies to
restrain trade are horizontal and vertical. Care Heating
& Cooling, Inc. v. Am. Standard, Inc., 427 F.3d 1008,
1013 (6th Cir. 2005). “Horizontal conspiracies involve
agreements among competitors at the same level of
market structure to stifle trade, such as agreements
among manufacturers or among distributors to fix
prices for a given product[.]” Id. Vertical restraints are
combinations of persons at different levels of the
market structure, such as manufacturers and
distributors. See United States v. Topco Assoc., 405
U.S. 596, 608 (1972). Horizontal restraints have been
characterized as “naked restraints of trade with no
purpose except stifling competition,” White Motor Co.
v. United States, 372 U.S. 253, 263 (1963), and
therefore, per se violations of the Sherman Act. While
vertical restrictions may reduce intrabrand competition
by limiting the number of sellers of a particular

App. 121
product competing for a given group of buyers, vertical
restrictions also promote interbrand competition by
allowing a manufacturer to achieve certain efficiencies
in the distribution of its products. Cont’l T.V., Inc. v.
GTE Sylvania, Inc., 433 U.S. 36, 54 (1977).
A threshold requirement of the Sherman Act is that
the challenged agreement be entered into by multiple
parties. 15 U.S.C. § 1. Conduct by a single entity is not
covered by Section 1 -- the statute applies only to joint
conduct. Copperweld Corp. v. Independence Tube Corp.,
467 U.S. 752, 767-68 (1983). As the Sixth Circuit has
held, the plurality requirement has been met. Med. Ctr.
at Elizabeth Place, 817 F.3d 934.
A. Anticompetitive Effect (“Per Se Motion”)
The appropriate standard for evaluating the
challenged conduct—rule of reason or per se—is a
question of law for the Court to decide. Food Lion, LLC
v. Dean Foods Co., (In re Re. Milk Antitrust Litig.), 739
F.3d 262, 271 (6th Cir. 2014) (“[t]he district court’s
decision to use the rule of reason is a question of law…,
which we review de novo.”). While the selection of a
mode of analysis (per se or rule of reason) is a question
of law, sometimes “underpinning that purely legal
decision are numerous factual questions.” In re
Wholesale Grocery Products Antitrust Litig., 752 F.3d
728, 733-34 (8th Cir. 2014).
MCEP alleges that Defendants participated in a per
se illegal group boycott of which MCEP was a target in
violation of Section 1 of the Sherman Act. Specifically,
MCEP alleges that Premier’s contracts with insurers
and employment or lease agreements with physicians

App. 122
should be condemned as automatically, or per se, illegal
under Section 1 of the Sherman Act. Defendants argue
that the rule of reason, not the per se rule, applies and
consequently MCEP’s per se claim must be dismissed.
The Supreme Court has made it clear that the “‘rule
of reason’ [is] the prevailing standard of analysis.”
GTW Sylvania, 433 U.S. at 49. The rule of reason
requires the fact finder to “weigh[] all of the
circumstances of a case,” including the nature of the
challenged restraint, the justification offered by the
defendant for the challenged restraint, and the
existence of any anticompetitive effects flowing from
the challenged restraint, “in deciding whether a
restrictive practice should be prohibited as imposing an
unreasonable restraint on competition.” Leegin
Creative Leather Products, Inc. v. PSKS, Inc., 551 U.S.
877, 885 (2007).
The second mode of analysis is the per se rule, that
is limited to specific restraints that always, or almost
always, harm competition without any redeeming
competitive benefits. GTW Sylvania, 433 U.S. at 50
(the per se rule should be reserved for “manifestly
anticompetitive” conduct having a “pernicious” and
anticompetitive effect without “any redeeming virtue”).
The per se rule applies only after “considerable” judicial
experience confirms the existence of “naked restraint[]
of trade with no purpose except stifling of competition.”
White Motor Co. v. United States, 372 U.S. 253, 263
(1963). The per se standard recognizes there are some
methods of restraint that are so inherently and facially
anti-competitive that an elaborate and burdensome
inquiry into a demonstrable economic impact on

App. 123
competition in a relevant market is not required. Nat’l
Soc’y of Prof’l Eng’rs v. United States, 435 U.S. 679, 692
(1978).
A court, in performing its gatekeeping function,
must evaluate only whether “the charged party offers
a plausible competitive justification for the restraint.”
Polygram Holding, Inc. v. FTC, 416 F.3d 29, 33 (D.C.
Cir. 2005). If the court reaches that conclusion, the
court cannot apply the per se rule, but instead the court
must “engage in a more searching analysis of the
market circumstances surrounding the restraint” in a
rule of reason analysis. Id.
When determining whether to use the per se rule or
the rule of reason, courts must consider the type of
restraint at issue—whether it is horizontal or vertical.
Expert Masonry Inc. v. Boone County, KY, 440 F.3d
336, 344 (6th Cir. 2006).
An agreement “between competitors at the same
level of the market structure” is horizontal. Sancap
Abrasives Corp. v. Swiss Indus. Abrasives, 19 F. App’x
181, 191 (6th Cir. 2001). Horizontal restraints are
considered to be more threatening, and thus result in
per se treatment more regularly. Expert Masonry, 440
F.3d at 344.4

4

See also Com-Tel, Inc. v. DuKane Corp., 669 F.2d 404, 409 (6th
Cir. 1982) (evidence of horizontal concerted action in boycott
demanded application of per se doctrine); Klors v. Broadway-Hale
Stores, 359 U.S. 207, 212 (1959) (group boycotts with horizontal
concerted action are per se illegal regardless of justification, even
when they operated to lower prices).

App. 124
Vertical restraints—agreements between parties “at
different levels of the market structure, such as
manufacturers and distributors”—have more
redeeming qualities (e.g., allowing for distribution
efficiencies) and are subjected to the rule of reason.
Total Benefits Planning Agency, Inc. v. Anthem Blue
Cross & Blue Shield, 552 F.3d 430, 435 (6th Cir. 2008).
This Court previously held that MCEP alleged a
conspiracy, “the multiplicity of actors as well as the
effect of [which] was predominately horizontal, and
therefore illegal.” (Doc. 37 at 11 n. 9). Boycotts are per
se illegal where they involve “horizontal agreements
among direct competitors.” Nynex Corp. v. Discon, Inc.,
525 U.S. 128, 135 (1998). The Sixth Circuit reaffirmed
per se condemnation where the group boycott involves
“a horizontal agreement among competitors.” Total
Benefits Planning Agency, 552 F.3d at 435.
In Total Benefits, various Anthem Blue Cross and
Blue Shield entities allegedly entered into vertical
agreements with independent insurance agents that
those agents would not do business with the plaintiff.
Id. at 435-36. The plaintiff claimed the requisite
horizontal agreement existed among the Anthem
defendants. Id. at 435. The Sixth Circuit disagreed,
holding that because the Anthem defendants were
sister corporations with a common parent, they were
incapable of conspiring. Id. In this case, however, the
Sixth Circuit held the opposite: the evidence supported
a finding that the Defendants were separate entities
and competitors and thus capable of conspiring. Med.
Ctr. at Elizabeth Place, 817 F.3d 934.

App. 125
Defendants argue that their joint contracting with
payers, which delivered the agreements that MCEP
challenges here, is legitimate joint venture activity that
should be analyzed under the rule of reason. However,
this argument ignores the ancillary restraint doctrine.
The ancillary restraint doctrine “recognizes that a
restraint that is unnecessary to achieve a joint
venture’s efficiency-enhancing benefits may not be
justified based on those benefits. Accordingly, a
challenged restraint must have a reasonable
procompetitive justification, related to the efficientenhancing purposes of the joint venture.” Major League
Baseball Props., Inc. v. Salvino, Inc., 542 F.3d 290, 339
(2d Cir. 2008).5 Where that nexus does not exist, the
challenged restraint must be evaluated apart from the
rest of the venture, i.e., as horizontal concerted action.
Id. at 339.
The Panel Limitations6 that Defendants jointly
negotiated with payers restricted output by excluding
MCEP, which payers considered a viable price
competitor to Defendants. Defendants argue that the
MCEP exclusion permitted them to provide price
reductions.

5

The ancillary restraint doctrine provided that an otherwise
unlawful restraint may be lawful if “ancillary to the main purpose
of a lawful contract…” United States v. Addyston Pipe & Steel Co.,
85 F. 271, 282 (6th Cir. 1898).
6

Defendants’ managed care agreements with Dayton payers
contained provisions restricting the number and/or identity of
hospitals that a particular payer could have in its managed care
networks (herein referred to as “Panel Limitations”).

App. 126
However, the legitimacy of the “rate for volume”7
7

Insurers enter into contracts with hospitals and other health care
providers to purchase health care services. (Doc. 128-17 at 52, 55,
283-84, 288-89). The insurers then create networks of those
providers that they sell to employers or other groups that offer
health care services to their members. (Id. at 53-54, 59-60, 285-86).
Because they are buyers, insurers seek to negotiate discounted
rates in their negotiations with hospitals. (Id. at 55-56, 283-85,
288-89). Hospitals, in turn, seek patients, and hospitals are often
willing to accept discounted prices in return for the expectation of
increased patient volume. (Id. at 283-84, 288). The ensuing
contracts between hospitals and insurers often link discounted
rates to access to an expected volume of parties. (Doc. 128-40 at
555; Doc. 128-14 at 63; Doc. 128-28 at 45; Doc. 128-37 at 43). The
expected volume can be realized either because the insurer offers
a large number of members or because the insurer limits the size
of its hospital network and in that way channels its volume to
fewer hospitals. (Doc. 128-17 at 283-84, 286, 288). Such volumebased pricing is prevalent in managed care contracting in the
Dayton area and elsewhere across the United States. (Doc. 128-7
at 69-73). However, here, there is no record evidence
demonstrating the rate for volume analyses regarding any of the
managed care contracts.
MCEP requested this information in discovery but none was
produced. Moreover, there is no evidence that Defendants
increased rates when payers successfully negotiated Panel
Limitations out of their contracts. UHC negotiated the Panel
Limitation out of the 2010 managed care contract with the
Defendants. (Doc. 128-8 at 271). UHC stated that it had no
knowledge that rates were affected. (Id. at 327). MMO did not have
to give a rate concession to eliminate its Panel Limitations from
the Defendants’ contract. (Doc. 128-14 at 193). Similarly, Humana
had no knowledge of any effect on rates where it removed the
Panel Limitation from its 2010 contract. (Doc. 149-18 at ¶¶ 6, 9,
10). Third, the Panel Limitations are the way Defendants keep a
payer’s volume “static.” (Doc. 128-33 at 244). In other words, they
reduce competition for the volume. None of the contracts guarantee
them any volume, so Defendants have to compete with the in-

App. 127
rationale is the subject of a genuine dispute, which
precludes it from being the basis for this summary
judgment argument.8 Even, assuming the rate for
volume rationale is legitimate, it is simply Defendants
bribing payers in exchange for a commitment to not
bring in a rival that the Defendants would have to deal
with for the payer’s business. Defendants have failed to
evidence that their joint contracting has any efficiencyenhancing purpose to which such an agreement is
necessary.
Accordingly, a jury could reasonably conclude from
this evidence that the “rate for volume” language is
nothing more than a provision seeking to provide cover
for excluding competitors. Alternatively, a jury could
find that whatever discount was given was payment for
the payer’s agreement to the Panel Limitation
commitment and completely unrelated volumesensitive pricing.

network KHN hospitals for any volume. (Id. at 185) (Defendants
have to compete with KHN for UHC, notwithstanding the Panel
Limitation)). Further, Defendants must acknowledge that a new
hospital could just as likely take volume from KHN (which, by the
way, does not have this provision in any of its managed care
contracts) rather than the Defendants.
8

The ancillary restraint doctrine requires undisputed proof (at
summary judgment) that the “non-venture” activity (the
agreement to exclude a rival from the payer’s network) is joint
conduct that is necessary for the Defendants to achieve whatever
efficiency-enhancing purpose collective negotiation brings and that
there are not less restrictive alternatives. FEDERAL TRADE
COMMISSION, ANTITRUST GUIDELINES FOR COLLABORATIONS AMONG
COMPETITORS at 24. Defendants fail to make this showing.

App. 128
The decision to apply the per se rule turns on
“whether the practice facially appears to be one that
would always or almost always tend to restrict
competition and decrease output … or instead one
designed to ‘increase economic efficiency and render
markets more, rather than less, competitive.’” Broad.
Music, Inc. v. Columbia Broad, Sys., Inc., 441 U.S. 1, 8,
19-20 (1979).9 To succeed in this claim, MCEP need not
prove completion of the conspiracy or any overt acts;
the illegal agreement itself constitutes the offense.
Summit Health, Ltd. v. Pinhas, 500 U.S. 322, 330
(1991).
As this Court previously concluded, “[o]rganizing a
group boycott of MCEP does not promote any
legitimate objective of the JOA or achieve any
procompetitive benefits.” (Doc. 37 at 12).10 Accordingly,
since the alleged restraint bears no relationship to

9

The per se rule applies to conduct taken under the mantle of a
joint venture when the challenged restraint is not reasonably
related to any of the efficiency-enhancing benefits of a joint
venture, and serves instead only as a naked restraint against
competition. See, e.g., Rothery Storage & Van Co. v. Atlas Van
Lines, 792 F.2d 210, 229 (D.C. Cir. 1986).
10

In fact, the Sixth Circuit determined that MCEP submitted
evidence sufficient to demonstrate that the group boycott
underlying its Section 1 claim involves two discrete horizontal
agreements: (1) an agreement among the Defendants as separate
actors and competitors of MCEP to prevent MCEP from competing,
including precluding MCEP from obtaining managed care
contracts from insurers; and (2) an agreement among those
insurers, orchestrated and monitored by the Defendants’ concerted
action, not to offer MCEP a managed care contract. Med. Ctr. at
Elizabeth Place, 817 F.3d at 941-43.

App. 129
some procompetitive justification or legitimate function
of the joint venture, the challenged restraint must be
evaluated on its own and can be per se illegal even if
the remainder of the joint venture is lawful. Blackburn
v. Sweeney, 53 F.3d 825, 828-29 (7th Cir. 1995)
(applying per se rule to a provision in a law partnership
dissolution agreement that restrained the territories
where former partners could advertise after finding the
provision to be non-ancillary to the rest of the
agreement).
Accordingly, the Court finds, as a matter of law,
that the appropriate standard for evaluating the
challenged conduct is the per se rule.
A per se antitrust claim requires proof of: (1) “two or
more entities engaged in a conspiracy, combination, or
contract;” (2) “to effect a restraint or combination
prohibited per se, wherein the anticompetitive effects
are implied;” and (3) “that was the proximate cause of
plaintiff’s antitrust injury.” Expert Masonry, Inc., 440
F.3d at 342. The Sixth Circuit already determined that
the plurality requirement has been met. Med. Ctr. at
Elizabeth Place, 817 F.3d 934. With respect to the
remaining elements, MCEP claims that: (1) Defendants
reached an agreement with one or more supplier or
customer, under which the supplier or customer agreed
to restrict the manner in which it would do business
with MCEP; (2) the understanding(s)/agreement(s)
involved two or more actors at the customer/supplier
level (i.e., payers and/or doctors); and (3) MCEP
suffered antitrust injury to its property or business as
a result.

App. 130
1. Panel Limitations
MCEP articulates evidence regarding agreements
between Defendants and payers and the denial of
managed care contracts with MCEP. (Doc. 139 at 6471).11 The payers understood that each had
contractually committed to Defendants not to add
hospitals to their respective networks. Direct evidence
of this understanding comes from an internal United
Healthcare Services, Inc. (“UHC”)12 document:
“Premier has language in all of their payer contracts
that provides them some exclusivity. This prevented
any payer from contracting with Dayton Heart.” (Doc.
141-8 at 8763). 13

11

See, e.g., Re/Max Int’l, Inc. v. Realty One, Inc., 173 F.3d 995,
1009 (6th Cr. 1999) (evidence that conduct would have been
contrary to conspirator’s self-interest without the conspiracy
constitutes circumstantial proof of agreement); Capital Imaging
Assocs. v. Mohawk Valley Med. Assocs., 996 F.2d 537, 545 (2nd Cir.
1993) (evidence that defendant ignored its own standards in
determining whether to deal with plaintiff “strongly suggests” that
its stated reason for denial might be a sham supporting the
inference of an agreement).
12

13

UHC is the second largest private payer in the Dayton area.

See, e.g., A Dayton Daily News article reported “Premier Health
Partners has included language in Anthem’s and some other
insurers’ contracts that disqualifies Dayton Heart from their
networks.” (“Dayton Heart now in Anthem Fold,” Dayton Daily
News (January 21, 2005)). Another article reported “Premier
Health Partners routinely requires insurers to leave Dayton Heart
out of their networks if they want to include Premier’s marketleading system.” (Insurance deals often leave out Dayton Heart;
Premier Health Partners says specialty hospital siphons more
profitable serves away from its hospital group,” Dayton Daily

App. 131
The payers had an agreement that each would
comply with their respective commitments to
Defendants. MCEP argues that each payer agreed to
comply with the Panel Limitations, i.e., “hold the line,”
so long as the other payers did the same. For example,
Medical Mutual of Ohio’s (“MMO”)14 contract with
Defendants stated:
If Hospital [Defendants] enters into an
agreement with another payer with a significant
level of membership in the Dayton, Ohio market,
and that agreement contemplates or allows that
payer’s inclusion of more than (1) other hospital
in Montgomery County (excluding Children’s
Medical Center) in its [managed care networks],
MMO may likewise include more than one other
hospital in its [managed care] network(s), and

News (July 22, 2007)). A 2008 industry report available to payers
states “Premier has threatened to revoke privileges for physicians
participating in Elizabeth Place and contracts with health plans
such as Anthem and United Health[care] are known to be
contingent on excluding those [physician-owned hospital] facilities
from the network.” (HealthLeaders InterStudy, “Dayton Market
Overview 2008,” at 7-8 (April 2008), Doc. 146 at 122207, 12221314). This evidence establishes that the understanding between
Defendants and payers existed. Heartland Surgical Specialty
Hosp. v. Midwest Div., Inc., 527 F. Supp. 2d 1257, 1307-08 (D. Kan.
2007) (evidence that rival hospital defendants discussed publicly
the competitive threat of specialty hospitals and that any payers
were able to negotiate lower reimbursement rates in exchange for
including network configuration clauses to exclude plaintiff
“permit[s] an inference of conspiracy”).
14

MMO is the third largest private payer in the Dayton area.

App. 132
the inpatient and outpatient rates contained
herein shall remain unaffected.
(Doc. 132-17 at 38). MMO acknowledged that this
provision meant that if the Defendants had a contract
with a “significant” rival of MMO, that rival could add
a hospital to its Dayton managed care networks beyond
Defendants and KHN (MMO’s current network in
Dayton), without incurring the automatic rate increase
that such a move by MMO would otherwise trigger.
(Doc. 128-14 at 179-180). MMO considered Anthem,
UHC, and possibly Aetna and Humana as “significant”
rivals. (Id. at 180). MMO sought this provision and
agreed that the provision was intended to assure that
MMO “competitors with HMO products would not have
an advantage on having a hospital in its network that
MMO could not sign without incurring a rate increase.”
(Id. at 181). MMO did precisely that. When Anthem
added Dayton Heart Health (“DHH”)15 in 2005 after
Anthem’s contract with Defendant Hospitals MVH and
GSH expired, Anthem then had DHH and Kettering
Health Network (“KHN”)16 in its managed care
networks. When Anthem resigned Defendants to a
managed care contract in January 2006, its managed
care networks were comprised of Defendants KHN and
DHH. (Doc. 128-14 at 197-198). This triggered the
15

DHH was a physician-owned cardiac specialty hospital in Dayton
from September 1999 until May 2008, when Defendant Good
Samaritan Hospital purchased it for $55 million and merged it out
of existence. (Tab 116 – PX475 at 2).
16

KHN is a healthcare system in Dayton and is comprised of seven
acute care hospitals. It acquired 50% ownership in MCEP effective
December 31, 2008. (Doc. 141-2 at 1).

App. 133
provision, allowing MMO to add DHH to its managed
care networks without breaching its Panel Limitation.
(Id. at 197). A jury could find that this negotiated
“escape clause” supports an inference that payers
agreed not to expand their managed care networks.
UHC told MCEP that it would be able to give MCEP
a managed care contract if MCEP: (i) sold itself to
Defendants; (ii) sold itself to KHN; or (iii) got a
managed care contract from Anthem. (Doc. 128-25 at
138-39; Doc. 128-37 at 195-96; Doc. 142-1 at 124439).
UHC did not tell MCEP that a contract with Anthem
would create a breach of the “hold the line” agreement
among payers. Rather, UHC stated that since UHC
had stood by Defendants in 2005 while the Defendants
were out of contract with Anthem, Defendants assured
UHC that it would not be competitively disadvantage
vis a vis Anthem. (Doc. 128-37 at 81-82; Doc. 128-25 at
240; Doc. 142-1 at 124439). However, Defendants admit
that during the negotiations for the 2005 UHC contract
containing the Panel Limitation that “UHC was
positioning themselves to say that they wanted to
assure that if their competitors had a panel of X, that
they would be able to have a panel of X as well without
being disadvantaged on the rates”; in other words,
UHC sought a concept similar to MMO’s “escape”
clause. (Doc. 128-33 at 165-66 (discussing Doc. 143-31
at 141733)). Defendants, however, deny providing that
assurance. (Id. at 166). Thus UHC’s statement to
MCEP about Anthem was pretext from which a jury
could infer an agreement.
Next, on at least one occurrence, a payer used
Defendants to discipline another payer for not “holding

App. 134
the line.” When MMO signed DHH to a managed care
contract in 2007, UHC complained to Defendants. (Doc.
142-30 at UHC9795). During a July 2007 meeting,
UHC stated that having DHH in both Anthem’s and
MMO’s networks was “creating a disadvantage for
UHC.” (Id.) Defendants responded that they would
send MMO a termination letter the very next day,
because MMO had entered into a contract with DHH.
(Doc. 128-8 at 243) (“Q. So this letter of termination to
Medical Mutual of Ohio that’s going to be issued the
day after this meeting was because Medical Mutual of
Ohio had entered into a contract with Dayton Heart?
A. That was the assumption, yes. Q. Is that what he
told you? A. Yes, I believe – I mean, yes, that was.”).
Record evidence also establishes that Defendants
monitored compliance among the payers of the Panel
Limitations and shared compliance of one payer with
others. (Doc. 143-30). For example, after the 2009 KHN
investment, a number of payers appeared on MCEP’s
website, prompting Premier’s CFO to question “how is
this possible with our contracts?” (Doc. 143-29 at
167895). Mark Shaw, vice president of managed care,
decision support, and chief revenue officer at Premier,
advised senior management that his team was
challenging the payers’ right to add MCEP, and
reported that Aetna had agreed with Defendants’
position and would terminate the addendum that
added MCEP. (Doc. 147-27 at 142396-98; Doc. 148 at
167166; Doc. 148-1). Shaw concludes: “we will continue
to resolve breeches [sic] and our other [payer] contracts
and will keep you apprised.” (Id.)

App. 135
As part of this effort, Defendants confronted
Emerald Health Network,17 accusing it of breaching the
Panel Limitation. (Doc. 147-17 at 108880). When EHN
responded disavowing any contract with MCEP (Doc.
143-33 at 142441), Defendants forwarded this to
HealthSpan.18 (Doc. 142-23). At the time, HealthSpan
was fighting Defendants over HealthSpan’s intent to
contract with MCEP. HealthSpan admitted that the
email it received from Defendants disclosed that a
competitor of HealthSpan had committed not to
contract with MCEP. (Doc. 128-28 at 211). There was
no business reason to send HealthSpan the EHN
statement of compliance with its contract, except as an
assurance to HeathSpan that one of its rivals was
“holding the line.”
Additionally, the evidence shows that once the “line”
was broken, numerous payers contracted with MCEP
in short order: (1) in January 2009 KHN began
negotiations with Anthem for a managed care contract
for MCEP that took effect April 10, 2009 (Doc. 142-17);
(2) on February 27, 2009 MCEP confirmed with Aetna
a discussion about MCEP’s affiliation with KHN and
getting a managed care contract (Doc. 148-26 at
REG372) and less than a week later Aetna agreed to
give MCEP access to its managed care networks (Doc.
145-19 at 71875); (3) on March 4, 2009, MCEP spoke
with Humana about a managed care contract (Doc.

17

EHN formed one of
http://tinyurl.com/mudldqd.
18

the

first

PPOs

in

Ohio.

HealthSpan offers a PPO product to employers in Dayton that
self-insure. (Doc. 128-28 at 19-20).

App. 136
146-3 at PBC 211) and within two months, Humana
forwarded MCEP a executed managed care contract
(Doc. 143-2 at 1); and (4) on April 13, 2009, MCEP
informed UHC that it had a managed care contract
with Anthem. (Doc. 145-22 at 143386). UHC responded
on April 17 that it was moving forward with internal
discussion to determine “if and how” UHC wanted to
handle. (Id.) Within one month, UHC gave MCEP a
rate proposal. (Doc. 145-15 at 143423). This rush to
sign MCEP supports a conclusion that payers’ inaction
with respect to MCEP was the result of an agreement
at the payer level to “hold the line” on the Panel
Limitations.
2. Employment contracts, non-compete
agreements, and lease agreements
Next, MCEP claims that the direct actions against
doctors (i.e., non-compete clauses, employment
agreements, termination of lease agreements, and the
Dear Doctor letters) are facets of the Defendants’
overall conspiracy. Collusion among horizontal
competitors to reduce, or eliminate competition is a
quintessential per se violation of the antitrust laws.
See, e.g, United States v. Coop. Theaters of Ohio, Inc.,
845 F.2d 1367, 1373 (6th Cir. 1988) (agreement
between movie theater booking agents to refrain from
soliciting each other’s customers is a per se violation,
even though the booking agents remained free to accept
unsolicited business from these customers).
The record demonstrates that the Defendants put
concerted pressure on physicians affiliated with MCEP
or considering such an affiliation. Defendants met with
these physicians and let them know of the opposition

App. 137
and the punishment for affiliation. (Doc. 139 at 32-33).
The payers were aware of this part of the plan. For
example, an Anthem email circulated internally a copy
of a Dayton Daily News article about Defendants
threatening investors with loss of privileges. (Doc. 14416). In that email string, an Anthem employee discloses
“I just received a copy of the premier (sic) letter
[referenced in the article]. I will scan and attach it in a
follow up note.” (Id.)
Premier’s CEO admits that he would never consider
contractually committing employed doctors to refer
only within the Defendants. (Doc. 128-29 at 184).
Premier’s former VP of Business Development believes
that referrals should be the decision of “the doctor, the
patient, and the specialist and the doctors.” (Doc. 128-3
at 221). Drs. Toth and Wilcher, as well as the
physicians in the GILD,199 explained that their
divestment of MCEP stock was the result of pressure
brought about by the Defendants’ plan, including the
loss of referrals. (Doc. 139 at 33-34).
Furthermore, Defendants terminated Drs. Stein
and Sobol’s lease, which covered Suite 303 in the
Samaritan North Hospital Center, Lakeside Building
in approximately July 2007. (Doc. 147-20). After
Defendants evicted Drs. Stein and Sobol because of
their ownership in MCEP, Suite 303 remained vacant
and without rent from August 2007 through at least
December 2008, resulting in $72,171.80 in lost rent
($4245.40 x 17 months). (Id.) Suite 303 sat vacant with
no rental revenue from August 2007 until March 2008

19

GILD was a specialty practice. (Doc. 128-15 at 82).

App. 138
(7 months) until GSH secured another tenant,
Montgomery Orthopedic Surgeons (“MOS”), to expand
into that space. (Id.) Even then, the rent MOS paid was
5% less that what Dr. Patel paid. (Id.)
Defendants claim there was no business reason to
lease space to a competitor. (Doc. 128-4 at 181-182).
However, when MOS signed the lease for Dr. Patel’s
space, it contained a non-compete provision (Doc. 14124 at 90); but, the lease MOS had for its existing space
in the building, Suite 227, did not (Doc. 128-11 at 23738). Further, when GSH extended the lease for this
existing space in 2008-2009, it expressly authorized Dr.
Cook to keep his MCEP investment. (Doc. 141-22).
Additionally, despite knowing for almost three years
that Drs. Jacob and Goldstick were MCEP investors,
GSH let them stay in their month to month lease until
June 2009 (Doc. 146-26 at 90958), two years longer
than GSH permitted Drs. Sobol and Patel remain in
their respective month to month leases.
Accordingly, MCEP has alleged sufficient facts to
maintain a claim for a per se violation. Specifically,
MCEP has evidenced: (1) plurality of actors (Med Ctr.
at Elizabeth Place, 817 F.3d 934); (2) the Panel
Limitations, employment contracts, non-compete
agreements, and lease agreements are all examples of
Defendants combining unlawfully to restrain
competition; and (3) these unlawful restraints were the
proximate cause of antitrust injury (see infra at Section
III.B). Therefore, Defendants’ motion for summary
judgment that the per se claim does not apply (Doc.
132) is DENIED.

App. 139
B. Antitrust Injury
1. Standard
Antitrust injury is an essential element of every
antitrust claim and the plaintiff bears the burden of
proof on that threshold requirement. Atl. Richfield Co.
v. USA Petroleum Co., 495 U.S. 328, 335 (1990).
It is not enough to simply allege that an
individual competitor suffered adverse effects
from the defendant’s contract or conspiracy.
Rather, “[a]ntitrust injury is (1) injury of the
type the antitrust laws were intended to prevent
and (2) injury that flows from that which makes
the defendants acts unlawful.”… “It ensures that
the injury should reflect the anticompetitive
effect” of the defendant’s actions. This “ensures
that plaintiff can recover only if the loss stems
from a competition-reducing aspect or effect of
the defendant’s behavior.”
In re Se. Milk Antitrust Litig., 739 F.3d at 284. “Per se
rules relieve plaintiffs of the burden of proving
anticompetitive effects which are assumed, but they do
not excuse plaintiffs from showing that their injury was
caused by the anticompetitive aspects of the illegal
act.” Rebel Oil Co., Inc. v. Atl. Richfield Co., 51 F.3d
1421, 1444 (9th Cir. 1995). See also Expert Masonry,
440 F.3d at 342 (“[i]f a court determines that a practice
is illegal per se, further examination of the practice’s
impact on the market or the procompetitive
justifications for the practice is unnecessary for finding
a violation of antitrust law.”).

App. 140
The purpose of the antitrust injury requirement is
to “ensure[] that plaintiff can recover only if the loss
stems from a competition-reducing aspect or effect of
the defendant’s behavior.” In re Se. Milk Antitrust
Litig., 739 F.3d at 284. The Supreme Court’s seminal
articulation of this part of the inquiry is whether the
injury “flows from that which makes the defendants’
acts unlawful.” Brunswick Corp. v. Pueblo Bowl-O-Mat,
Inc., 429 U.S. 477, 489 (1977). A simply stated form of
the inquiry is that “‘the injury should reflect the
anticompetitive effect’ of the defendant’s actions.” In re
Se. Milk Antitrust Litig., 739 F.3d at 284 (quoting
Brunswick, 429 U.S. at 489).
“To survive [Premier’s] motion for summary
judgment, [MCEP] must establish that there is a
genuine issue of material fact as to whether [the
alleged conspiracy] caused [MCEP] to suffer a
cognizable injury.” Matsushita Elec. Indus. Co. v.
Zenith Radio Corp., 475 U.S. 574, 585-86 (1986). In the
antitrust context, the only cognizable injury is an
“injury of the type the antitrust laws were intended to
prevent,” specifically, an injury resulting from harm to
“competition, not competitors.” Brunswick, 429 U.S. at
488-89. Evidence of injury to MCEP as a single
competitor in the marketplace is irrelevant to this
threshold determination. Wee Care Child Ctr., Inc. v.
Lumpkin, 680 F.3d 841, 848 (6th Cir. 2012) (“adverse
effects suffered by an individual competitor cannot
establish an antitrust injury”)20

20

See also Indeck Energy Servs., Inc. v. Consumers Energy Co., 250
F.3d 972, 977 (6th Cir. 2000) (affirming dismissal when “the only
harm allegedly suffered by [the plaintiff] was in the company’s

App. 141
2. Cognizable Injury
MCEP claims that Premier engaged in conduct that
resulted in reduced quality and inflated prices for
consumers in the Dayton area. Defendants maintain
that this is nothing more than a theory of harm to
MCEP as a competitor as a result of a loss of access to
patients, which alone is not a cognizable injury to
competition in the market as a whole. See, e.g., Park
Ave. Radiology Assocs., P.C. v. Methodist Health Sys.,
No. 98-5668, 1999 U.S. App. LEXIS 29986 at 12-16 (6th
Cir. Nov. 10, 1999) (no standing to challenge agreement
that denied plaintiff access to patients).
a. Panel Limitations
From MCEP’s first day of business until it sold part
of its business to KHN in 2009 (a sale allegedly forced
by Defendants’ boycott), MCEP was the only nonspecialty acute-care hospital operating in Dayton
independent of Defendants and KHN. (Doc. 149-12 at
¶ 11).21 Throughout that time, MCEP was unable to get

capacity as a competitor in the marketplace, not as a defender of
marketplace competition”).
21

The only reason MCEP sold part of its business to KHN was to
get access to the payers’ managed care networks through the KHN
contracts with those payers. (Doc. 149-12 at ¶ 13).

App. 142
managed care contracts with (1) UHC;22 (2) Humana;23
(3) CIGNA;24 (4) Aetna;25 (5) PHCS;26 (6) EHN;27 and
(7) HealthSpan.28 Additionally, MCEP’s managed care

22

UHC did not contract with MCEP until: (1) Anthem contracted
with MCEP; and (2) UHC was certain they could add MCEP
without reaching the Panel Limitations. (Doc. 139 at 17-18, 62-63).
23

Humana made an unequivocal commitment not to expand the
Dayton network for the 2008 calendar year and did not contract
MCEP until that commitment expired. (Doc. 139 at 26-27, 63).
24

Cigna requested permission to add MCEP in 2008 and was
rejected by Defendants. (Doc. 139 at 27-28, 64).
25

After Aetna expressed interest in July 2007 about contracting
with MCEP, Aetna signed a contract with a Panel Limitation
commencing in 2008 with an additional commitment to keep
MCEP out of network. (Doc. 139 at 24-26, 64). After the 2009 KHN
investment, Aetna signed MCEP, but tried to back out when
Defendants warned them that it was a breach of Aetna’s
agreement with Defendants. (Doc. 139 at 26).
26

PHCS tried to negotiate the Panel Limitation out of Defendants’
contract for 2008; when unsuccessful, PHCS refused MCEP a
managed care contract. (Doc. 139 at 29-30, 65).
27

EHN would not contract with MCEP because of the Panel
Limitation. When MCEP got access to EHN, thorough the KHN
Investment, EHN told MCEP that it could not be in network
because of its contract with Defendants. (Doc. 139 at 30-31, 65).
28

HealthSpan would not contract with MCEP because of the “hold
the line” understanding among the big payers, particularly
Anthem and UHC. However, HealthSpan admits that it is
important to match its Hospital Panel to those of the larger payers
so as to be viewed as a viable alternative to those rivals. (Doc. 12828 at 189-190).

App. 143
contract with MMO
Defendants’ conduct.29

was

delayed

because

of

MCEP argues that lack of access to managed care
plans severely impeded its ability to compete with
KHN and Defendants. Being out of network with a
payer raised the patient’s out-of-pocket costs if the
patient had a procedure performed at MCEP. (Doc.
149-12 at ¶ 15; Doc. 128-8 at 309).30 Also, some payers
advised physicians operating under their own
professional managed care agreement with the payer
that the professional risked not receiving her
professional fees for procedures performed at out-ofnetwork facilities like MCEP. (Doc. 149-12 at ¶ 15; Doc.
144-14 (internal Anthem email acknowledging
“utilization decreased at the facility [MCEP] due to
increasing provider dissatisfaction with OON (out of
network) reimbursement.”). These factors, among
others, allegedly deterred physicians from utilizing
MCEP. (Doc. 149-12 at ¶ 15). With respect to this lost

29

MMO’s escape clause permitted them to sign MCEP. MMO, like
HealthSpan, concedes that it is important for its network to match
its rivals. In August 2007, MMO asked about MCEP’s contracting
status with Anthem. (Doc. 142-28 at 126808). MMO explained
“[n]obody else was contracted with Medical Center at Elizabeth
Place at that time, so I’m assuming if the largest payor in the area
[Anthem] is willing to contract with them, then we might be a little
more interested in contracting with them, as well.” (Doc. 128-14 at
230).
30

Payers acknowledge that all other things being equal, it benefits
the payer and their customers from a financial perspective to have
a procedure performed at the lowest cost facility. (Doc. 128-22 at
205-206; Doc. 128-8 at 310-311; Doc. 128-28 at 193). In that regard,
Defendant Hospitals were the highest-priced provider in Dayton.

App. 144
case value, MCEP did not even have the opportunity to
price compete.
Additionally, some payers advised MCEP that it
might not receive any payments on services provided
out of network if the procedure did not meet certain
specific criteria. (Doc. 149-12 at ¶ 16; e.g., Doc. 144-18
at 443; Doc. 144-19 at 449). Dayton’s largest payer,
Anthem, took the position that out-of-network status
meant out of contract. (Doc. 128-19 at 162, 165). As a
result, whatever benefits covered an out-of-network
claim, Anthem would pay the patient instead of MCEP,
forcing MCEP to pursue the patient to collect the
balance due from Anthem for the services. (Doc. 128-19
at 164-166; Doc. 149-12 at ¶ 16). Anthem did this to
deter out-of-network facilities from accepting out-ofnetwork procedures. (Doc. 128-19 at 166-167). The
manner in which payers handle out-of-network claims
created uncertainty with respect to anticipated revenue
and raised MCEP’s costs, both of which adversely
affected MCEP to expand output price compete. (Doc.
149-12 at ¶ 16).
This changed once MCEP was able to participate in
managed care networks in 2009, an event precipitated
solely because MCEP sold an ownership interest to
KHN. First, the number of cases increased
substantially with respect to each payer with which
MCEP had in-network status. (Doc. 149-12 at ¶ 18).
Anthem deemed the April 2009 signing of MCEP to all
of Anthem’s managed care networks as “[a] good
resolution which drives competition and will assist our
coc [community of care] in this market especially over
time.” (Doc. 142-13 at 104395). The Anthem

App. 145
representatives responsible for the MCEP contract
explained internally the basis for this conclusion:
[U]tilization decreased at the facility [MCEP]
due to increase in provider dissatisfaction with
OON [out of network] reimbursement. The
recent decline in utilization at MCEP indicates
higher utilization at other community facilities,
most likely the Premier Health Partners and the
Kettering Medical Center. It is anticipated that,
with MCEP as a contracted provider, the
utilization will return and drive savings by
diverting those members from the high cost
community hospitals to MCEP. Additionally,
MCEP has available capacity and feels confident
that the utilization will increase under the new
contract terms.
***
The main cost savings will be deemed by the
shifting of members from both Dayton Medical
Systems to the Medical Center at Elizabeth
Place.
(Id.) Anthem agreed that “the MCEP rates compared to
the Premier rates would drive competition in the
market.” (Doc. 128-19 at 233-234).
UHC acknowledged a similar dynamic once MCEP
had access to UHC’s managed care networks. There
was an increase in cases at MCEP after it gained innetwork status and UHC acknowledged that pushing
volume to MCEP would generate savings. (Doc. 128-8
at 307, 310-311, 113; Doc. 143-9 (reflecting increase in
Humana cases at MCEP after MCEP gained in

App. 146
network status). The evidence also supports the
conclusion that Defendants and Anthem had an
agreement that, in exchange for the Equal Rate
provision, Anthem agreed that it would not add any
hospitals, including MCEP, to its Dayton managed care
networks. (Doc. 139 at 19-24, 67-69).
Accordingly, the Court finds that there is an issue
of fact as to whether lack of managed care plan access
impeded MCEP’s ability to exert pricing pressure, as
well as on the issue of MCEP’s improved competitive
capability once it acquired access to managed care
contracts from the conspiring payers.31
There is also evidence of loss of specific physician’s
caseloads. For example: Dr. Toth sold his shares in
MCEP in 2011. (Doc. 149-12 at ¶ 30). At that time, he
told MCEP’s Chair it was because of pressure
Defendants were putting on GILD that resulted in a
significant drop of refusals Dr. Toth received from
GILD. (Doc. 128-15 at 82-83, 105-107). After Toth sold
back his shares, he stopped doing any procedures at
MCEP. (Doc. 149-12 at ¶ 30).

31

Moreover, the Sixth Circuit determined that “Plaintiff has
submitted evidence that each insurer knew that the other insurers
had included this limitation [negotiating contracts that explicitly
exclude the insurers’ ability to contract with other parties] in their
contracts, as demonstrated by the excerpt below from a Dayton
industry publication: ‘Premier has threatened to revoke privileges
for physicians participating in [plaintiff hospital] and contracts
with health plans such as Anthem and UnitedHealth are known
to be contingent on excluding [plaintiff hospital] from the
network.’” Med. Ctr. at Elizabeth Place, 817 F.3d at 941.

App. 147
The physicians who make up GILD—Drs. Lutter,
Stu Weprin and Patel—sold back their MCEP shares.
(Doc. 149-12 at ¶ 28). Dr. Lutter told MCEP’s Chair at
the time that the divestment was because of pressure
that Defendants were putting on GILD. (Doc. 128-15 at
105-106). GILD has a contract with GSH to provide
services to GSH patients. (Doc. 148-23 at 231715; Doc.
148-22 at 231704). After the GILD physicians divested
in MCEP, they stopped sending any specimens to
MCEP’s pathology lab. (Doc. 149-12 at ¶ 28).
Dr. Scott Wilcher forfeited his MCEP shares in
2011. (Doc. 149-12 at ¶ 30). At the time Wilcher stated
that the reason for this decision was pressure he was
feeling from Defendants on his practice. (Doc. 149-12 at
¶ 30). When Dr. Wilcher divested in MCEP, he stopped
doing any procedures at MCEP. (Id.)
Accordingly, this evidence creates a genuine dispute
about whether MCEP’s antitrust injury flows from the
agreements that Defendants formed among themselves
and with the payers. Therefore, Defendants’ motion for
summary judgment on antitrust injury is DENIED.
C. Statute of Limitations
The parties agree that the Clayton Act has a four
year statute of limitations. 15 U.S.C. § 15(b).
Generally, an antitrust “cause of action occurs and the
statute begins to run when a defendant commits an
action that injures a plaintiff’s business.” Zenith
RadioCorp. v. Hazeltine Research, Inc., 401 U.S. 32,
338 (1971). However, MCEP alleges that this general
rule has several major caveats: (1) injunctive relief;
(2) discovering the claim; and (3) continuing violations.

App. 148
The commencement of the statute of limitations is a
question of fact. In re Beef Indust. Antitrust Litig., 600
F.2d 1148, 1169-70 (5th Cir. 1979).
MCEP argues that the claims arose within the
limitations period because: (1) its request for injunctive
relief is not subject to any statute of limitations; (2) the
injurious actions occurred during the limitations period
caused it cognizable injury; (3) the injurious acts
cloaked in pretext demand a tolling that the limitations
period be postponed under the discovery rule; and
(4) the ongoing nature of Defendants’ conspiracy
reflects a continuing violation that the Defendants and
their co-conspirators fine-tuned and modified, such that
all injurious acts giving rise to MCEP’s claim occurred
within the limitations period.
Defendants argue that most (but not all) “overt” acts
at issue in this case occurred prior to the limitations
period.32 Defendants also contend that any conduct
which occurred during the limitations period should be
ignored because it is a reaffirmation of prior conduct, or
even if not, the conduct that did occur during the
limitations period failed to cause new injury to MCEP.
1. Injunctive Relief
Injunctive claims are not subject to the four-year
statute of limitations. United States v. Am. Elec. Power
Serv. Corp., 137 F. Supp. 2d 1060, 1067-68 (S.D. Ohio
2001) (citing Hommberg v. Armbrecht, 327 U.S. 392,

32

MCEP commenced this action on January 30, 2012. (Doc. 7).
Consequently, the operative day for the limitations period is
January 30, 2008.

App. 149
396 (1946) (“…statute of limitations historically do not
control measures of equitable relief.”)).
MCEP seeks injunctive relief against Defendants to
stop all conduct foreclosing MCEP from the relevant
market or that unreasonably impairs its ability to
compete in the relevant market. MCEP argues that its
equitable claim is still viable because Defendants have
active Panel Limitations in their contracts with PHCS,
Cigna, and EHN. These payers have not offered MCEP
a managed care contract. Injunctive relief would void
these Panel Limitations and enjoin Defendants from
pursuing similar restraints in the future. Furthermore,
if successful, MCEP seeks equitable relief enjoining
Defendants from: (1) imposing or enforcing restrictions
on patient referrals; and (2) enforcing various noncompetes against it.
The concurrent remedy doctrine provides that
“equity will withhold its relief [] where the applicable
statute of limitations would bar the concurrent legal
remedy.” Sierra Club v. Dayton Power & Light, Inc.,
No. 2:04cv905, 2005 U.S. Dist. LEXIS 42473, at *11-12
(S.D. Ohio Aug. 12, 2005). MCEP has pled a single per
se claim for violation of Section 1 of the Sherman Act
and has requested concurrent remedies in the form of
treble damages and injunctive relief. (Doc. 7 at 19-20).
Accordingly, MCEP’s request for injunctive relief must
be denied to the extent that it seeks equitable relief for
claims that are barred by the statute of limitations.
Therefore, while injunctive claims are not subject to
the four-year statute of limitations, to the extent
MCEP seeks equitable relief for claims barred by the

App. 150
statute of limitations, such claims are also barred by
the concurrent remedy doctrine.
2. Discovery Rule
Next, Defendants contend that because their alleged
wrongful conduct began, to a limited extent, in 2006,
MCEP’s claim is barred. However, the statute of
limitations on a Section 1 conspiracy claim does not
begin until the date plaintiff has knowledge of the
conspiracy and the injurious acts taken by the
conspiracy, sufficient to proceed with a claim. Re/Max
Int’l, Inc. v. Realty One, Inc., 173 F.3d 995, 1021 (6th
Cir. 1999).
The rule that postpones the beginning of the
limitations period from the date when the
plaintiff is wronged to the date when he
discovers he has been injured is the ‘discovery
rule’ of federal common law, which is read into
statutes of limitations in federal-question cases
(even when those statutes of limitations are
borrowed from state law) in the absence of a
contrary directive from Congress.
Cada v. Baxter Healthcare Corp., 920 F.2d 446, 450
(7th Cir. Ill. 1990). “This principle is based on the
general rule that accrual occurs when the plaintiff
discovers that ‘he has been injured and who caused the
injury.’” In re Copper Antitrust Litig., 436 F.3d 782, 789
(7th Cir. 2006). MCEP is not seeking to toll the
limitations period. Instead, MCEP contends that under
the discovery rule, much of what Defendants argue is
time-barred is timely because the accrual occurred
after January 30, 2008. Specifically, MCEP alleges that

App. 151
insurers provided pretextual excuses as to why they
could not extend managed care contracts, so MCEP did
not have knowledge of the conspiracy and the injurious
acts before January 30, 2008. 33
a. Anthem
MCEP maintains that its claim related to Anthem’s
refusal to contract did not accrue until at least 2009.
Specifically, MCEP alleges that in May 2007, Anthem
fabricated a company policy that MCEP had to be open
at least one year to become eligible for a traditional
contract, and there would not be time for a managed
care contract. Anthem pursued this “policy” with
MCEP into 2008, when it looked like MCEP might get
a traditional/indemnity contract—a non-managed care
product that Defendants state no longer exists—
Anthem severed rate negotiations under false
pretenses, which left MCEP hanging until the 2009
KHN investment. Additionally, MCEP claims that the
fact that Anthem never gave it a final and permanent
refusal provides an independent basis to conclude that
its claim accrued post January 2008.
The Court finds that this evidence creates a genuine
dispute about whether Anthem’s inaction was the
result of the “hold the line” conspiracy among its rival

33

Defendants argue that the Supreme Court does not recognize a
discovery rule for Clayton Act claims. See Zenith Radio Corp. v.
Hazeltine Research Inc., 401 U.S. 321 (1981); Klehr v. A.O. Smith
Corp., 521 U.S. 179 (1997). Despite Defendants’ argument
otherwise, the Court does not interpret either Zenith or Klehr to
find that the discovery rule does not apply in Clayton Act cases.

App. 152
payers and that MCEP could not have known about the
conspiracy prior to January 30, 2008.
b. Aetna
After committing to Defendants that Aetna would
abide by the concerted inaction by excluding MCEP
from Aetna’s managed care networks for 2008, Aetna
scripted the reason it would provide for denying
hospitals managed care contracts:
Dayton/Non-Expansion Messages. At this time,
upon further review of the market, we’ve decided
not to expand our network in Dayton. Why?
[Dayton Heart and St. E’s Place both indicating
they are more cost competitive than
competitors.] Strategically we are going to
remain partnered with our current network for
the time being. We determine our strategy based
on a number of factors—which include cost and
market stability. While we believe Dayton
Heart/St. E’s Place is cost competitive, we feel it
is more important at this time for our network to
remain stable.
(Doc. 142-10; Doc. 148-19). This script does not provide
MCEP any information that Aetna’s denial was
untoward, particularly since Aetna sought out MCEP
for inclusion in its managed care hospital panel. MCEP
only learned about Defendants’ alleged complicity with
Aetna after the 2009 KHN investment when Aetna
reported to KHN that it was reluctant to add MCEP,
because of Aetna’s managed care contract with
Defendants. (Doc. 128-42 at 80-82).

App. 153
This evidence creates a genuine dispute about
whether Aetna’s inaction was the result of the “hold the
line” conspiracy among its rival payers, thereby linking
Aetna’s inaction to that of its rivals. Aetna would not
tell MCEP the actual reason for the July 2007 denial,
but told KHN about Defendants’ involvement in 2009,
after other payers had contracted with MCEP. A
reasonable jury could conclude that Aetna came clean
with KHN because the payer “line” had been broken, so
Aetna was willing to contract with MCEP, but
reluctant because of the potential punitive
consequences the Panel Limitation imposed for that
breach.
c. Cigna
When MCEP initially approached Cigna regarding
a managed care contract in 2007, Cigna declined,
stating “after speaking with Sr. management regarding
bringing Medical Center at Elizabeth’s Place into our
network, they have decided not to pursue a contract at
this time. There is a possibility of opening our network
up early to mid-next year but at this time we are not
pursuing any additional facility contracts.” (Doc. 13032). When MCEP approached Cigna about a managed
care contract in October 2007, Cigna stated that it
could not contract now, citing “staff shortages.” (Doc.
130-51). However, Cigna testified that it did not recall
a concern about shortages; instead Cigna stated that it
did not contract with MCEP because the Dayton
market was already an accommodation market with a
robust network, “we already had via our deals with
Premier and Kettering, so I don’t know that it was a
concern about shortage.” (Doc. 128-26 at 116-118). On

App. 154
February 14, 2008, Cigna denied MCEP a contract
because “they [were] not interested in proceeding.”
(Doc. 130-50).
Later in 2008, Cigna sought Defendants’ approval
to add three hospitals to its network: (1) Wayne
Hospital; (2) Butler County Medical Center; and
(3) MCEP. (Doc. 142-25). Defendants “approved” the
addition of Wayne and Butler, but not MCEP. (Id.) In
March 2009, Cigna amended its agreement with
Defendants to add two new hospitals to the list of those
already included in the network. (Doc. 141-14). MCEP
still does not have a managed care contract with Cigna.
(Doc. 145-6).
A jury could find that Cigna’s 2007 decisions to deny
MCEP a managed care contract were not final (e.g.,
Cigna was not interested in contracting at this time,
and it was experiencing staff shortages), and the
pretext Cigna gave for the denial prevented MCEP
from discovering the conspiracy. Further, a reasonable
jury could find that Defendants’ March 2009
amendment constitutes an injurious act in the
limitations period, because Defendants and Cigna met
and agreed to “fine-tune” their agreement in
furtherance of the conspiracy. Midwestern Mach. Co.
Inc. v. Nw. Airlines, Inc., 392 F.3d 265, 269 (8th Cir.
2004).
d. Humana
When MCEP approached Humana in 2007 about a
managed care contract, Humana replied in October
2007 that it was hopeful “things would be changing.”
(Doc. 142-4). However, on November 19, 2007, Humana

App. 155
told MCEP it was still working on the Kettering
contract, which would define what Humana would be
able to do with MCEP and advised MCEP to check back
in early 2008. (Doc. 142-6 at 130786; Doc. 128-37 at
135). A month earlier, on October 16, 2007, Humana
committed to Defendants that “Humana will not
expand it’s (sic) Dayton hospital network beyond
Premier and the Kettering Health network during the
term of the agreement.” (Doc. 142-29). The Defendants
acknowledged that commitment and the parties
extended their contract through 2008. (Doc. 143-1 at
270).
After checking back on February 14, 2008, Humana
informed MCEP that it was unable to contract. (Doc.
142-4). In 2008, Humana did not expand its network in
Dayton beyond the Defendants and KHN. (Doc. 128-22
at 225). Humana’s contract with Defendants expired on
December 31, 2008, and along with it the commitment
not to expand its Dayton hospital network. (Id. at 143144). By May 2009, Humana signed MCEP to a
managed care contract. (Doc. 143-2 at 1010). A jury
could find that Humana’s response to MCEP’s inquiry
in late 2007 was not final or permanent. Further, the
misinformation about the importance of the Kettering
(not Defendants’) contract negotiations during that
time creates a genuine dispute about whether and
when MCEP should have known the denial was
because of an agreement with Defendants.
Accordingly, under the discovery rule, a jury could
reasonably find that what Defendants argue is timebarred is timely because the accrual occurred after
January 30, 2008.

App. 156
3. Continuing violation
A “continuing violation” exists where a plaintiff is
injured repeatedly over time by a conspiracy that
commenced more than four years before the plaintiff
files a lawsuit. In a continuing conspiracy each time a
member of the conspiracy commits an injurious act that
harms the plaintiff, a new cause of action accrues to
recover for that act, and, as to those damages, the
statute of limitations runs from the time the act is
committed. Klehr v. A.O. Smith Corp., 521 U.S. 179,
189 (1997). With a continuing violation, a plaintiff is
entitled to recover “not only those damages which he
has suffered at the date of accrual, but also those which
he will suffer in the future from the particular
invasion, including what he has suffered during and
will predictably suffer after trial.” Zenith, 401 U.S. at
339.
As to the continuing violation theory, the Sixth
Circuit has held:
The test for determining whether a continuing
violation exists is summarized as follows: First,
the defendant’s wrongful conduct must continue
after the precipitating event that began the
pattern. . .Second, injury to the plaintiff must
continue to accrue after that event. Finally,
further injury to the plaintiff[] must have been
avoidable if the defendants had at any time
ceased their wrongful conduct. Tolbert v. State of
Ohio Dep’t of Transp., 172 F.3d 934, 940 (6th
Cir. 1999). See also, Paschal v. Flagstar Bank,
295 F.3d 565, 572 (6th Cir. 2002). “[A]
continuing violation is occasioned by continual

App. 157
unlawful acts, not continual ill effects from an
original violation.” Tolbert, 172 F.3d at 940
(quoting National Advertising Co. v. City of
Raleigh, 947 F.2d 1158, 1166 (4th Cir. 1991)).
Passive inaction does not support a continuing
violation theory. Id.; Paschal, 295 F.3d at 573.
Edison v. Tenn. Dep’t of Children’s Servs., 510 F.3d 631
(6th Cir. 2007).
Continuing violations arise most often in the
context of conspiratorial conduct. “A conspiracy is
presumed continuing where there is an agreement to
eliminate competition with no affirmative showing of
the termination of that agreement.” In re Se. Milk
Antitrust Litig., 555 F. Supp. at 947. Amendments or
extensions to anticompetitive agreement are new acts
restarting the statute of limitations under the
continuing violation doctrine. See, e.g., Smith v. eBay
Corp., C-10-03825, 2012 U.S. Dist. LEXIS 1211, at *3
(N.D. Cal. Jan. 5, 2012) (continued modification of the
Accepted Payment Policy and enforcement of the illegal
agreement constituted a new act).
The “continuing violation” exception, however,
recognizes that “a cause of action accrues each time the
plaintiff is injured by an act of the defendants.” DXS,
Inc. v. Siemens Med. Sys., Inc., 100 F.3d 462, 467 (6th
Cir. 1996) (quoting Barnosky Oils, Inc. v. Union Oil Co.
of Cal., 665 F.2d 74, 81 (6th Cir. 1981)). This exception
requires “an overt act by the defendant. . . to restart
the statute of limitations.” Id. (quoting Peck v. General
Motors Corp., 894 F.2d 844, 849 (6th Cir. 1990). Such
an act “is characterized by two elements: (1) it must ‘be
a new and independent act that is not merely a

App. 158
reaffirmation of a previous act’; and (2) it must ‘inflict
new and accumulating injury on the plaintiff.’” Id.
(quoting Pace Indus. Inc. v. Three Phoenix Co., 813
F.2d 234, 238 (9th Cir. 1987)). Based upon this
principle, the Sixth Circuit has repeatedly rejected
invocations of the continuing-violations defense that
are mere reaffirmations of a previous act.” Z Techs v.
The Lubrizol Corp., 753 F.3d 594, 600 (6th Cir. 2014).
MWE maintains that Defendants facilitated and
enforced compliance by all payers of their respective
Panel Limitations. Consequently, where the
Defendants enforced or “fine-tuned” a payer’s Panel
Limitation after January 8, 2008, or induced a payer to
extend its commitment through some new
consideration after that date, that injurious act is
imputed to the other conspirators. In re Scrap Metal
Antitrust Litig., 527 F.3d 517, 536 (6th Cir. 2008)
(concealing acts by one conspirator are chargeable to all
members of the conspiracy). Defendants argue that
MCEP cannot establish the two essential requirements
for this exception: (1) a new and independent act; and
(2) that the act caused it new injury.
a. UHC
UHC’s Panel Limitation bars it from adding to its
managed care network the only two independent
hospitals operating in the 8-county Dayton area: MCEP
and Dayton Heart. UHC wanted to contract with both.
By July 2007, UHC considered the Panel Limitation
to be a barrier and wanted it removed. (Doc. 142-19).
At a July 2007 meeting, UHC complained that both
Anthem and MMO had contracted with DHH. To

App. 159
appease UHC, Defendants said that they would
terminate the MMO contract because that payer had
signed DHH (and, in UHC’s mind, broken the “line”).
As a result, UHC dropped its complaint about the
barrier and never added DHH to its managed care
networks while DHH was an independent hospital.
(Doc. 128-33 at 196). A jury could conclude that
Defendants’ commitment to terminate MMO was an
additional action that renewed UHC’s commitment to
“holding the line.”
UHC had no concerns about a rival contracting with
MCEP in 2007 and 2008 because all were “holding the
line.” In its conversations with MCEP, however, UHC
repeatedly told MCEP that if Anthem would contract
with MCEP, then UHC would contract with MCEP.
(Doc. 128-37 at 84-85; Doc. 128-25 at 138; Doc. 128-31
at 41-42). MCEP and UHC agreed to meet in the fall of
2007 “in concert with next steps with Anthem.” (Doc.
145-13). This strategy caused two disputed issues of
fact that preclude summary judgment on statute of
limitations grounds: (1) whether UHC’s refusal was not
an “irrevocable, immutable, permanent or final” act so
that subsequent efforts to get a contract from UHC
during the limitations period cannot be considered
“reaffirmations” of a prior independent act; and (2) to
what extent a reasonable jury might impute Anthem’s
pretext to UHC to support a conclusion of horizontal
concerted inaction at the payer level. In re Lower Lake
Erie, 998 F.2d 1144, 1172 (3rd Cir. 1993) (finding that
certain conspiracies, such as boycotts, operate through
inaction).

App. 160
MCEP also argues that the 2008 amendment to
UHC and Defendants’ contract changed certain
provisions, including the facility location and service
listings, and renewed Section 9.15 (the Panel
Limitation). (Doc. 141-7; Doc. 148-5 at 170968). A
reasonable jury may determine that this “fine-tuning”
of the agreement constitutes an injurious act during
the limitations period.
b. MMO and HealthSpan
MMO signed a managed care contract with MCEP
on August 11, 2008 (two months after MCEP signed it).
(Doc. 141-20 at 693). HealthSpan listed MCEP innetwork on KHN’s PHA plan in December 2009. (Doc.
145-23). As a result, MCEP’s damage theory with
respect to MMO and HealthSpan is that “but for” the
conspiracy, other payers would have contracted with
MCEP earlier, prompting MMO and HealthSpan to
contract with MCEP earlier than they did.
The statute of limitations inquiry as to these two
payers has two components: (1) whether the refusal by
these other payers to give MCEP a managed care
contract before the 2009 Kettering investment was the
result of a group boycott in which Defendants
participated; and (2) whether evidence raises a genuine
dispute that MMO and/or HealthSpan would have
granted MCEP access to their managed care networks
if their rivals had and there were no Panel Limitations
encumbering MMO and HealthSpan’s contracts.
MCEP claims that MMO’s escape clause permitted
it, without automatic financial penalty in the form of a
significant rate increase, to add a hospital if

App. 161
Defendants had a contract with a “significant” rival of
MMO and that rival could add a hospital to its
managed care network. (Doc. 141-19 at 38; Doc. 128-14
at 179-180). MMO considered Anthem, UHC, and
possibly Aetna and Humana “significant” rivals. (Doc.
128-14 at 180). MMO sought this provision and agreed
that the provision was intended to assure that MMO’s
“competitors with HMO products would not have an
advantage on having a hospital in its network that
MMO could not sign without incurring a rate increase.”
(Id. at 181). Therefore, MMO monitored to see when a
rival added a hospital, knowing it could do the same,
without triggering the automatic rate increase. (Id. at
211-212). For example, after Anthem resigned its
managed care contract with Defendants in 2005, its
managed care network consisted of Defendants, KHN,
and DDH. (Id. at 197-198; Doc. 142-26). This allowed
MMO to add DDH to its network without breaching
Defendants’ contract. (Id. at 198; Doc. 142-26).
MCEP first contacted MMO in August 2007. (Doc.
128-14 at 73-74; 77). However, MCEP claims the
evidence supports a finding that MMO was not going to
contract with MCEP until it made progress with
Anthem and other large insurers. (Doc. 142-28) (MMO
telling MCEP “there is a lot of concern that nobody else
is contracted with you at present. Is it possible to get a
better indication regarding Anthem’s willingness to
contract with you?”). MMO acknowledged a risk
associated with contracting with MCEP when no one
else would contract with MCEP. (Doc. 128-14 at 235).
If the conspiracy had not prevented UHC, Anthem,
Aetna, and Humana from contracting with MCEP, a
jury could reasonably infer that MMO would have

App. 162
contracted with MCEP sooner in order to be sure those
companies did not gain an advantage over MMO in the
marketplace. (Id. at 78-79).
Healthspan had a Panel Limitation in its managed
care contract with Defendants throughout the relevant
time period. Under that Limitation, the addition of a
hospital would breach the agreement, confronting
HealthSpan with the consequence of higher rates or
termination. (Doc. 141-9 at 9). Defendants and
HealthSpan had renewed their agreement each year
since 2001. (Id. at 20, 22-23, 25, 27, 32, 35, 37, 42-43,
45). MCEP argues that these amendments furthered
their conspiracy. In fact, Defendants shared an email
from EHN, a PPO network operating in Dayton
alongside HealthSpan, in which EHN confirms that it
would not contract with MCEP. (Id.) This evidence is
sufficient to create a genuine dispute about whether
HealthSpan would have contracted with MCEP sooner,
if unrestrained by Panel Limitations.
c. Private Healthcare Systems
MCEP argues that the earliest possible claim
accrual date for Private Healthcare Systems is January
31, 2008, which is within the limitations period.
Since January 2006, PHCS’s managed care contract
with Defendants contained a Panel Limitation which
operated to prevent PHCS from adding hospitals to its
Dayton managed care panel. The only affected
hospitals in Montgomery Country were DHH and
MCEP. Rather than deny MCEP’s request, PHCS
asked for time to research. On January 31, 2008, PHCS
reported that Defendants would not change the Panel

App. 163
Limitation, but advised that PHCS and Defendants
were to reconvene soon. As of February 18, 2008,
negotiations between PHCS and Defendants were
ongoing. (Doc. 142-3 at 4). After that date, PHCS told
MCEP that it could not contract with MCEP. (Doc. 1453 at 60; Doc. 149-10 at ¶ 15). PHCS was “otherwise
open to contracting with MCEP, [but] the opportunity
to do so was not worth the risk of reopening the PHCS
agreement with Premier.” (Doc. 149-10 at ¶ 17).
The negotiations about removing the Panel
Limitation from the PHCS contract occurred during the
limitations period. Unsuccessful efforts to remove the
Panel Limitation resulted in continued inaction by
PHCS, notwithstanding its desire to contract with
MCEP.
d. HealthSmart/EHN
The first record evidence of a denial with EHN is
2009, within the limitations period.
EHN’s managed care contract with Defendant
Hospitals MVH and GSH contained a Panel Limitation,
breach of which confronted EHN with significant rate
increases or termination. EHN committed to this Panel
Limitation in the January 1, 2009 contract renewal,
which Defendants executed on October 30, 2008. (Doc.
147-16 at 108873). MCEP argues that this new contract
amendment was in essence a “check-in” to ensure the
parties were all still on-board to “hold the line” against
MCEP. The new contract amendment “fine-tuned” the
contractual and conspiratorial relationship between the
parties.

App. 164
In fall 2009, when Defendants noticed that EHN
listed KHN as an in-network provider, Defendants told
EHN that it had breached the Panel Limitation and
threatened termination. In response, EHN explained
that the KHN hospitals were contracted as of January
1, 2001, through the PHA, and took the position than
the Panel Limitation did not apply to KHN. (Doc. 148-4
at 168725, 168728).
Despite telling Defendants that the Panel
Limitation did not apply to KHN, EHN told MCEP that
it could not participate through PHA because EHN’s
contract with Defendants precluded EHN from
exceeding a certain number of beds in a network and
informed MCEP that it could not be in EHN’s network.
(Doc. 128-1 at 178-179). MCEP still does not have
access to EHN’s managed care networks.
A jury could find that Defendants’ agreement with
EHN, effective January 1, 2009, coupled with
Defendants’ demand for a retroactive increase in rates,
constitute new injurious acts within the limitations
period. There is also a disputed issue of fact about
whether EHN’s inaction (not contracting with MCEP)
during the limitations period was a result of the Panel
Limitation in its agreement with Defendants and
constitutes an injurious act. (Doc. 143-33 at 142441;
Doc. 128-1 at 178-179).
MCEP claims that Defendants’ acts caused it new
injury. Specifically, MCEP claims that its lack of access
to managed care contracts resulted in patient’s out-ofpocket costs being higher and physicians risked not
receiving professional fees for procedures performed at
out-of-network hospitals like MCEP. (Doc. 144-14).

App. 165
Therefore, MCEP’s physicians were less inclined to use
MCEP’s facility and utilization decreased. For example,
Dr. Weprin testified that doctors were deterred from
investing in MCEP, which led to a general fatigue
among the investors. (Doc. 128-41 at 216-217). The
delay in obtaining managed care contracts led to
scheduling difficulties and decreased utilization
because a physician cannot perform a procedure
covered by a particular insurer at MCEP if MCEP does
not have a contract. (Doc. 128-41 at 123; Doc. 140 at
154-155; Doc. 128-6 at 76-77). Even after the managed
care contracts were in place, MCEP claims that it was
difficult to build enthusiasm because there were no
distributions and MCEP was not making a profit since
the contracts were weak. (Doc. 128-41 at 216-217).
e. Lost patients
MCEP maintains that as part of the conspiracy,
Defendants threatened to have their primary care
physicians stop referring patients to doctors affiliated
with MCEP, acted on that threat, and MCEP’s
investors saw a drop in their patient referrals. The
following MCEP physician investors were told by
Defendants that their referrals could be cut off because
of their affiliation with MCEP: Dr. Todd Sobol, Dr.
Alvin Stein, Dr. Thomas Yunger, Dr. Rajesh Patel,34

34

Defendants do not dispute that the loss of the Dayton
Respiratory Group procedures caused MCEP injury—however,
Defendants contend that Dr. Patel and other physicians resigned
for reasons “that had nothing to do with” Defendants. The Court
finds that the circumstances surrounding DRG’s departure is
disputed, because there is evidence that Dr. Patel divested from

App. 166
Dr. Anug Goyal, Dr. Alan Jacobs, Dr. Lawrence
Goldstick, Dr. Larry Weprin, Dr. Don Lutter, Dr. Piush
Gupta, Dr. Joel Vandersluis, Dr. Hugh Moncrief, Dr.
R.L. Chunduri (Doc. 128-30 at 350-351; Doc. 141-5); Dr.
Tom Cook (Doc. 128-11 at 60-61) (Jim Pancoast, at the
time President of GSH “basically told me that quote,
unquote, I’m going to tell my doctors not to send you
patients.”); Dr. Stuart Weprin (Doc. 128-41 at 49-50)
(all referrals from GSH primary care physician
“disappeared” after he invested in MCEP); Dr. Caroline
Peterson (physicians were told by Defendants that if
they continued to refer patients to MCEP and/or MCEP
physicians, they would lose their referral base) (Doc.
140 at 63); Dr. John Fleishman (Doc. 128-15 at 110112); and Dr. Lazlo Toth (Doc. 128-15 at 82, 83). MCEP
claims that these threats are ongoing because
Defendants continue to discourage referring patients to
MCEP. (Doc. 128-32 at 54).
Dr. Toth is just one example of an MCEP physician
forced to divest from MCEP in February 2009. (Doc.
143-13). Dr. Toth was a founding investor in MCEP,
however his income was effectively cut in half as a
result of Defendants’ conduct, forcing Dr. Toth to
explore alternative options to sustain his livelihood.
(Doc. 141-25, Doc. 128-30 at 659-660). Prior to losing
his referral base from Defendants, Dr. Toth had a
stable, large surgical volume, much of which he
performed at MCEP. (Doc. 128-30 at 661-662).
However, Dr. Toth’s surgical volume diminished as a
result of Defendants’ pressuring Dr. Toth’s referral
MCEP as a result of threats to his referrals by Defendants. (Doc.
128-6 at 94-95, 99-100).

App. 167
sources to not refer to MCEP. Specifically, Dr. Toth’s
referrals were cut by physicians employed by
Defendants, including Dr. Larry Weprin and his
associates in GILD. (Id.)35 GILD re-started the
referrals to Dr. Toth once Toth left MCEP to work for
Defendants. (Doc. 128-15 at 106). After being forced to
explore alternative employment, Defendants offered
Dr. Toth significant compensation in exchange for a
non-compete, which required him to divest all
ownership in any competing facilities, specifically
MCEP, and prevented him from performing procedures
at MCEP. (Doc. 128-30 at 245, 256, 718-719; Doc. 14125).
35

Larry Weprin and GILD members were losing referrals (Doc. 140
at 107-108), so GILD joined Digestive Care and mutually
terminated its investment in MCEP in October 2012. (Doc. 128-30
at 245-246; Doc. 146-1 at 7373-77). Dr. Weprin had been a part of
MCEP since its inception and was excited about the hospital; in
fact, he specifically requested a pathology lab to support his
practice. However, when Dr. Weprin discovered Defendants’
hostile sentiments for MCEP, GILD decided to join Digestive Care.
(Doc. 128-6 at 110-111). GILD physicians admitted that they were
told by Defendants that they would “suffer” if they sent patients to
MCEP. As a result, “[t]he bulk of their group [GILD] was terrified
to use anyone that even came close to MCEP from the start
because of fear of retribution on their referrals.” (Doc. 148-21 at 63;
Doc. 128-30 at 223). MCEP argues that GILD’s departure from
MCEP in October 2012 injured MCEP during the limitations
period. MCEP’s gastroenterology department’s volume of cases
decreased, which resulted in a domino effect on other departments.
(Doc. 128-32 at 94-95; Doc. 140 at 59). For example, after GILD’s
departure, Dr. Rosset saw a decrease in her pathologist practice at
MCEP by one-half to two-thirds. (Doc. 128-32 at 63-64). The
volume of cases seen by MCEP general surgeons decreased as well.
(Doc. 140 at 59; Doc. 128-32 at 95). This overall decrease in volume
lead to a decrease in revenue for MECP. (Doc. 128-32 at 94-95).

App. 168
Dr. Wilcher, a general surgeon, also felt the impact
of Defendants’ refusal to refer patients to MCEP or
MCEP physicians and was forced to leave MCEP in
Spring 2011, because he could not maintain his
practice without referrals. (Doc. 128-30 at 224-225;
Doc. 128-1 at 139). Dr. Witcher felt the effects of Dr.
Toth’s departure, because he no longer had the support
of Dr. Toth in general surgery. (Doc. 148-21 at 57-58).
Frustrated with his loss of referrals, Dr. Wilcher was
terminated from MCEP for his refusal to participate in
a cash call. (Doc. 128-30 at 224-225).
MCEP claims that each lost patient referral is
analogous to a separate purchase of a price-fixed good
in that each lost referral is a new injurious act.36 A jury
could find that Defendants’ acts were new and
independent acts that caused MCEP new injury. (Doc.
128-32 at 94; Doc. 128-30 at 354-55). The fact that
Premier’s policy on referrals was implemented in 2006
does not, as a matter of law, preclude damages arising
from lost referrals prior to January 30, 2008. Whether
Defendants’ actions are mere reaffirmations of its 2006
policy on referrals is a disputed issue of fact.

36

“Antitrust law provides that, in the case of a ‘continuing
violation,” say a price fixing conspiracy that brings about a series
of unlawfully high proceed sales over a period of years, ‘each overt
act that is part of the violation and that injures the plaintiff,’ e.g.,
each sale to the plaintiff, ‘starts the statutory period running
again, regardless of the plaintiff’s knowledge of the alleged
illegality at much earlier times.’” Klehr, 521 U.S. at 189.

App. 169
f. Dayton Heart Hospital Non-Compete
Defendants admit that the implementation of the
non-compete agreement with respect to Dayton Heart
was an overt act. (Doc. 130 at 19-20). However,
Defendants conclude that MCEP was not injured
because the non-compete agreement permitted DHH
doctors to keep shares in MCEP so long as MCEP did
not expand its scope of cardiac services beyond what
MCEP was offering at that time. (Doc. 128-29 at 250).
However, because MCEP never previously offered
cardiac surgical services, this non-compete agreement
effectively prevented expansion of those services,
because if MCEP offered any cardiac services prior to
2013, those investors would have to sell their shares in
MCEP or be in breach of the covenant and risk
forfeiting their share of the proceeds from the sale of
DHH to GSH. (Doc. 128-29 at 252; Doc. 149-12 at ¶ 12).
Accordingly, a reasonable jury could find that because
the non-compete allegedly prevented MCEP from
offering cardiac services, MCEP suffered a new injury
in the limitations period.
In sum, the Court finds that the date(s) of the
cognizable injury(ies) in this case are disputed issues of
material fact. However, a reasonable jury could find
that many, if not all, injurious acts giving rise to
MCEP’s claim occurred within the limitations period.
Therefore, Defendants’ motion for summary judgment
on statute of limitations grounds is DENIED.
D. Damages
In the alternative, Defendants request an order
granting partial summary judgment in the form of an

App. 170
order barring MCEP from recovering damages for acts
and injuries which occurred prior to January 30, 2008.
Specifically, Defendants cite specific testimony from
MCEP’s damages expert which they contend
demonstrates he intends to testify about a damages
calculation based on conduct that occurred prior to
January 30, 2008. This issue is best addressed in the
context of a Daubert motion or a motion in limine.
Denying summary judgment on Defendants’ statute
of limitations defense, this Court found that genuine
issues of material fact exist as to whether injurious
acts were committed in the four years prior to MCEP’s
filing of the Complaint. In the context of an ongoing
conspiracy, courts have held that damages caused by
injurious activity are recoverable. See In re Lower Lake
Erie, 998 F.2d at 1173.37 MCEP claims that it can
establish that it is entitled to damages flowing from
Defendants’ conduct in the following categories:
(1) managed care contracts; (2) forced sale to KHN; and
(3) PHA Benchmark damages.

37

See also Poster Exch. v. Nat’l Screen Serv. Corp., 517 F.2d 117,
128 (5th Cir. 1975) (finding that a plaintiff is not required to tie its
damages to a specific act, but rather that a continuing conspiracy
may give rise to “continually accruing rights of action,” and merely
requires a plaintiff to support its allegations that the defendant
had committed “some act” during the limitations period).

App. 171
E. CHI’s Motion38
CHI is the owner of Samaritan Health Partners,
which owns the assets of GSH. MCEP asserts that CHI
is a participant in the alleged conspiracy because it
“controls” and “makes material independent decisions
concerning. . .the operations of [SHP] and Good
Samaritan [Hospital].” (Doc. 7 at ¶¶ 4, 6, 29, 42). CHI
argues that the JOA vests Premier (not CHI) with
complete strategic, financial, and operational control of
GSH. Specifically, CHI maintains that: (1) it did not
“control” the JOC or any Defendant Hospital; and
(2) CHI is merely a “passive member” in the JOC and
merely a “passive investor” in a Defendant Hospital.
A conspiracy under Section 1 requires proof of:
(1) an agreement in violation of Section 1 of the
Sherman Act; and (2) the defendant knowingly
entering that agreement, either tacitly or explicitly.
United States v. Hayter Oil Co., 51 F.3d 1265, 1270 (6th
Cir. 1995) (citing United States v. Socony-Vacuum Oil
Co., 310 U.S. 150, 223-24 n.59 (1940)).39 MCEP must
prove that CHI “engaged in a contract,
38

The Sixth Circuit found a genuine dispute exists as to whether
CHI is an entity separate from one or more of the other defendants
for purposes of Plaintiff’s antitrust claim, but the Sixth Circuit did
not evaluate the evidence Plaintiff submitted regarding CHI’s
participation in the group boycott. (Doc. 176 at 2).
39

Worldwide Basketball & Sport Tours, Inc. v. NCAA, 388 F.3d
955, 959 (6th Cir. 2004) (“In order to establish their claim under
Section 1 of the Sherman Act, the Promoters must prove that the
[defendant] ‘(1) participated in an agreement that (2) unreasonably
restrained trade in the relevant market.’”), cert. denied, 546 U.S.
813 (2005).

App. 172
combination. . .or conspiracy, in restraint of trade or
commerce.” Midwest Media Prop., LLC v. Symmes
Twp., 503 F.3d 456, 472 (6th Cir. 2007). See also
Beukema’s Petroleum Co. v. Admiral Petroleum Co.,
746 F.2d 1475, 1475 (6th Cir. 1984) (affirming
summary judgment for defendants because plaintiff
“failed to produce any probative evidence tending to
support its conspiracy allegations”).40
Here, MCEP attempts to hold CHI liable for the
purported antitrust violations of its affiliates simply by
virtue of their corporate relationship. Such cases often
turn on the issue of control. Sun Microsystems Inc. v.
Hynix Semiconductor Inc., 622 F. Supp. 2d 890, 897,
899-900 (N.D. Cal. 2009) (evaluating in Sherman Act
case “day to day control” of parent corporation where
plaintiff argues “that an agency theory allow[ed] the
actions of NTC USA [subsidiary] to be imputed to NTC
[parent]”; observing that a “majority of [court] decisions
require more than mere ownership of stock, and more
than the supervision of finance and capital budget

40

MCEP argues that “[b]ecause [Premier] is a joint venture, [CHI]
must overcome the ‘strong presumption’” that it was an active
participant. Nunez v. Robin, 415 F. App’x 586, 589 (5th Cir. 2011).
However, MCEP misquotes Nunez (a non-antitrust case), which
actually states that: “[b]ecause SSA is a joint venture, Nunez must
overcome the ‘strong presumption’ that ‘a general partnership or
joint venture interest is not a security.’” Id. (considering whether
plaintiff’s joint venture could hold defendants liable under the
Securities Exchange Act of 1934, which depended on whether
plaintiff’s ownership interest was a security). Nunez does not
support the proposition that a joint venture is strongly presumed
to be a participant in a conspiracy (antitrust or otherwise).

App. 173
decisions, or shared directorships” for liability to
attach).41
To evidence that CHI intentionally entered into or
ratified an illegal conspiracy, MCEP points to:
(1) meeting minutes from 2006; (2) the appearance of
the CHI logo on letters sent to doctors; and (3) noncompete agreements from 2008 between GSH and
certain physicians.
1. Meeting Minutes
MCEP argues that at the April 25, 2006, June 27,
2006, and September 2006 meetings, there were
discussions about how MCEP’s entry into the Dayton
market could result in “significant reduction in surgical
volume.” MCEP maintains that this topic concerned
not only Defendants as a group, but CHI individually
as the owner of GSH’s assets. (Doc. 143-14 at 4627;

41

See also Caribbean Broad. Sys., v. Cable & Wireless PLC, 148
F.3d 1080, 1088-89 (D.C. Cir. 1998) (“To be a competitor at the
level of the subsidiary, the parent must have substantial control
over the affairs and policies of the subsidiary.”); In re Auto. Parts
Antitrist Litig., No. 2:12cv100, 2013 U.S. Dist. LEXIS 80334, at *40
(E.D. Mich. June 6, 2013) (declining to “‘presume that a parent
company participates in every decision or action of its subsidiary,’”
reasoning that there must be “some specific evidence of
coordinated activity” for the parent to be liable for antitrust
violation); In re Pa. Title Ins. Antitrust Litig., 648 F. Supp. 2d 663,
688 (E.D. Pa. 2009) (dismissing Sherman Act claim, reasoning that
“plaintiffs must set forth facts establishing the parent
corporations’ direct and independent participation in the alleged
conspiracy”; further reasoning that “‘[a]pproval and assent’ and
‘ownership and control’ constitute the entirety of plaintiffs’
allegations of [the] parents’ participation. Plaintiffs offer nothing
else”).

App. 174
Doc. 146-4 at 4745). CHI had previously made it clear
that its objective was to preserve GSH’s market share
and position in the Dayton market. (Doc. 143-19 at
6149). MCEP argues that these events demonstrate
that the CHI representatives not only approved of the
Defendants’ plan of conduct against MCEP and the
financial resources necessary to implement the plan,
but also monitored and received reports on the efficacy
of specific activities taken in furtherance of that
objective.
The mere presence of “representatives” at board and
committee meetings is not itself sufficient proof of a
connection to or ratification of a purported conspiracy.
Vandervelde v. Put & Call Brokers & Dealers Ass’n, 344
F. Supp. 118, 155 (S.D.N.Y. 1972) (“[M]ere membership
on a committee is not in itself sufficient proof of
connection [to] or ratification [of a conspiracy].”).42 CHI
claims that the minutes from the three 2006 meetings
fail to establish CHI’s connection to or ratification of
any purported conspiracy.
First, although MCEP asserts that “CHI
representatives” were in attendance at the April 25,
2006 meeting, the minutes reflect that CHI’s only
appointed trustee—Michael Rowan—was not in
attendance. (“TRUSTEES ABSENT. . .Michael Rowan,
CHI”) (Doc. 143-5 at 21544). While MCEP claims that
42

See also Daniel v. Am. Bd. of Emergency Med., 988 F. Supp. 127,
236 (W.D.N.Y. 1996) (“[A]cting as a representative does not in
itself establish that the representative is an agent for the entity
represented with authority to bind the represented party or to
serve as a conduit for attribution of tortious actions by the
organization on which the representative serves.”).

App. 175
“CHI had the second most representatives of any
member of the JOC Board at this time,” CHI appoints
only one trustee to “represent” it on the Board of
Trustees; otherwise, CHI is empowered only to “elect”
seven members nominated by the nominating
committee. (Doc. 146-4 at 4724-5). Accordingly, the
“CHI representatives” referenced by MCEP are
actually just elected members of the Board of Trustees,
not employees or agents authorized to act on behalf of
CHI. The members are “recognized civil leaders from
the Miami Valley Region,” elected to “support the
values and mission of the Catholic Church.” (Id. at
4725). Moreover, at the meeting, Premier’s CEO
discussed its commitment to responding to new
competition from MCEP “by any legal means possible.”
(Doc. 143-5 at 21548). The minutes reflect “support” by
“consensus,” but no formal action or specific vote on the
part of members elected by CHI. Accordingly,
attendance at the April 25 meeting does not evidence
attachment to an illegal scheme.
Second, with respect to the June 27, 2006 meeting,
CHI’s appointed representative, Michael Rowan, was
present.43 However, the minutes do not reflect any
activity relating to an illegal scheme, only
presentations by the GSH and MVH presidents
discussing physician attitudes toward association with
“Regent Surgical Health Hospital” after Premier
expressed concerns regarding the profit-driven values

43

Again, MCEP overstates the presence of CHI, stating that
“[s]everal CHI representatives on the JOC Board attended that
meeting.” (Doc. 139 at 142). As explained supra, these “CHI
representatives” did not have the authority to act on behalf of CHI.

App. 176
of physician-owned hospitals. (Doc. 148-13 at 213515;
Doc. 141-18 at 1207). No action was approved or
disapproved (as no vote was taken) and the minutes
reflect no statements or action by CHI. (Doc. 148-13 at
213515).
Third, with respect to the September 2006 finance
committee meeting, Douglas Wickerham, a non-voting
CHI member, was present. (Doc. 139-1 at 97). This
meeting involved discussion of a plan to enter into noncompete agreements with physicians who chose to
accept employment from GSH. (Doc. 143-23 at 234106).
Ultimately, a CHI representative attended only two
of the three meetings cited by MCEP. Furthermore, the
minutes reflect no action by CHI representatives.
Vandevelde, 344 F. Supp. at 156 (no Sherman Act
liability for defendant who “was a member of the
Business Conduct Committee but did not participate in
[the] recommendation” and another defendant who
“played no direct or indirect role in the. . . controversy”
and was not “shown to have any connection to the
matters at issue except that of a ‘mere member’ of the
association”).44
2. CHI Logo
“Dear Doctor” letters were sent from the individual
hospitals and affiliated physicians’ groups. The GSH

44

See also Black v. JP Morgan Chase & Co., No. 10-848, 2011 U.S.
Dist. LEXIS 103727, at *104-05 (W.D. Pa. Aug. 10, 2011) (conduct
that “amount[s] to nothing more than conduct ‘typical of any
parent and subsidiary[]’…are insufficient [to support] a § 1 claim
against the parent corporations”).

App. 177
Dear Doctor letter appeared on GSH letterhead which
displayed the “Catholic Health Initiatives” logo on the
bottom of the letterhead. (Doc. 141-18). MCEP argues
that the CHI-logoed letter made inflammatory
statements against it and attempted to dissuade
doctors from doing business with it. (Id.) For example,
the GSH/CHI Dear Doctor letter explicitly threatened
to deny privileges to investing physicians:
Thus, we are considering developing a conflict of
interest policy (similar to what the Columbus
hospitals have done) to include all actions up to
and including denying membership and
privileges for any physician who creates such a
conflict of interest by owning or investing in this
(or any other) competing inpatient facility. This
policy, if approved by the Board of Trustees, will
permit the Board of Trustees to take any or all
actions they may decide in regard to this issue.
(Id.) MCEP argues that the GSH/CHI letter attempted
to intimidate physicians by asserting that any
physician investment involved a serious risk of
violating Stark or Anti-kickback laws. (Id.) The letters
warned GSH physicians that they would face “fines of
up to $25,000, imprisonment up to five years, exclusion
from the Medicare and Medicaid programs, civil
monetary penalties, and loss of reimbursement for any
services provided in the facility which received an
improper referral.” (Id.)
However, despite the CHI logo, MCEP fails to
evidence that CHI was involved in or acquiesced to the
letter. See, e.g., Allstate Motor Club, Inc. v. SHL
Systemhouse, No. 97 C 5354, 1998 U.S. Dist. LEXIS

App. 178
14191, at *14 (N.D. Ill. Sept. 1, 1998) (“The appearance
of the ‘SHL’ logo on the letterhead of Christ’s
correspondence is irrelevant. Members of a corporate
family often share a corporate symbol and the
associated goodwill.”). Additionally, MCEP was not
discussed at a meeting attended by an actual CHI
representative until June 27, 2006, after the May 10,
2016 “Dear Doctor” letter was sent. (Doc. 148-13 at
213514). MCEP offers no evidence that CHI was even
aware of MCEP’s existence before June 27, 2006.
Therefore, GSH’s letter cannot connect CHI to a
purported conspiracy. Carpet Group Int’l v. Oriental
Rug Imps. Ass’n, 256 F. Supp. 2d 249, 275 (D.N.J. Feb.
28, 2003) (granting summary judgment on antitrust
claim, reasoning in part that “Plaintiffs have failed to
produce evidence tending to demonstrate that
[defendant Bashian Bros] prepared, contributed to, or
authorized any of the ‘provocative’ correspondence
[allegedly supporting [a] conspiracy”).
3. Non-Compete Agreements
In 2008, GSH created a proposal to acquire DHH
which it presented to the JOC Board of Trustees for
approval and later to CHI for funding. (Doc. 143-22). In
the proposal, GSH referenced the necessity of
“overcome[ing] the past nine years of strain” between
GSH, Premier, and DHH. (Id. at 148822). The proposal
linked DHH and MCEP, stating that the acquisition
might increase “pressure to entertain others in the
market (i.e., MCEP, Dayton Rehab Hospital, etc.).” (Id.)
A draft of the JOC’s “Communication Plan
Summary” regarding the acquisition contained a
“Master Q&A – For Internal Use Only” where the

App. 179
Defendants anticipated and offered responses to
potential questions regarding the acquisition. (Doc.
147-29 at 150110). The document included the
following potential questions for the GSH President to
consider:
• “Is this the only way PHP can compete? Like
Microsoft—so rich you just buy your competitors
and shut them down instead of earning their
business?” (Id.)
• How can you explain to your medical staff who
shunned investment in physician-owned
hospitals that you ended up rewarding those
physicians with millions of dollars and
welcoming them back on equal footing with
those who were loyal?” (Id.)
• “Do you believe the sale of DHH vindicates
Premier’s position against physician against
physician-owned hospitals?” (Id.)
• “Since you couldn’t get the legislature to outlaw
physician-owned hospitals and your boss swore
to destroy DHH, was buying it and shutting it
down the only way to win?” (Id.)
• “Didn’t you try to destroy DHH’s business by
working with insurers, like UHC, not to cover
their patients.” (Id.)
• “How do you expect the Ohio attorney general to
react to the proposed acquisition?” (Id.)
MCEP argues that CHI participated in this
anticompetitive conduct through its activities on the

App. 180
JOC Board and through its involvement with GSH,
including funding the acquisition of DHH. (Doc. 148-14
at 214551). Specifically, the JOC requested that CHI
loan GSH $55 million for the acquisition. (Id.) CHI met
with the JOC’s senior vice president and chief financial
officer to gain an understanding of the circumstances
surrounding the DHH acquisition. (Id.) As a result,
CHI loaned GSH the full purchase amount in exchange
for consideration, including increased oversight of JOC
financial performance. (Doc. 144-128 at 4020; Doc. 14421 at 6015 at 6019). MCEP argues that as a condition
for that funding, CHI required the DHH physicianowners to execute non-competes in order to receive
their share of the proceeds; this non-compete directly
implicated MCEP. (Doc. 139 at 37, 119).
None of the documents cited by MCEP in its crossreferenced pages supports the proposition that CHI
required (or even expressed a preference regarding)
non-competition agreements. MCEP simply cites to the
non-competition provisions themselves, which do not
mention CHI. (Doc. 143-12 at 143242-46; Doc. 147-28
at 148429). Even if CHI had insisted on noncompetition provisions, such a request is not per se
illegal.
Without evidence that CHI agreed to loan money for
an anticompetitive purpose, CHI’s funding the
purchase of DHH is immaterial.
4. Financial Benefits
Finally, MCEP claims that CHI has a financial
interest in the performance of GSH and SHP. CHI was
permitted to “withdraw cash from [SHP’s] share of

App. 181
income . . . up to 15 percent per year with no effect on
equity/income split.” (Tab 17 – DX280 at 6105).
Consequently, improved performance by GSH and the
JOC resulted in increased payments to CHI, while
reduced financial performance would result in lower
payments to CHI. CHI is also entitled to an
administrative fee equal to “1% of operating expense in
any fiscal year.” (Id. at 6106). CHI benefited as GSH
expanded its operations and suffered a detriment if
GSH reduced its operating.45 Finally, CHI was a major
creditor to GSH and depended on GSH’s continuing
ability to meet its debt obligations. (Doc. 144-22 at 856;
Doc. 144-25 at 1626; Tab 127 CHI00002765).
However, the fact that CHI received any financial
benefit from the success of GSH is immaterial unless
MCEP can prove participation in an illegal conspiracy.
MCEP offers no authority to suggest that simply
receiving a return on investment from an
affiliate—without independent participation in an
illegal agreement—is enough to create liability.
In sum, construing all facts in the light most
favorable to the nonmoving party, MCEP has failed to
evidence that CHI engaged in conduct relevant to
Plaintiff’s allegations. Accordingly, CHI’s motion for
summary judgment (Doc. 129) is GRANTED.

45

The GSH President estimated “that [MCEP] would take
approximately $7 million annually from Good Samaritan
Hospital.” (Doc. 128-29 at 115; Doc. 149-17 on SB120)).

App. 182
IV. CONCLUSION
Accordingly, for these reasons:
(1)

Defendant Catholic Health Initiatives motion
for summary judgment (Doc. 129) is
GRANTED, and Catholic Health Initiatives
is TERMINATED as a party to this action;

(2)

Defendants’ motion for summary judgment
on statute of limitations (Doc. 130) is
DENIED;

(3)

Defendants’ motion for summary judgment
on the per se rule (Doc. 132) is DENIED; and

(4)

Defendants’ motion for summary judgment
based on Plaintiff’s failure to present
evidence of antitrust injury (Doc. 133) is
DENIED.

IT IS SO ORDERED.
Date: 10/6/16

s/ Timothy S. Black
Timothy S. Black
United States District Judge

App. 183

APPENDIX G
RECOMMENDED FOR FULL-TEXT PUBLICATION
Pursuant to Sixth Circuit I.O.P. 32.1(b)
File Name: 16a0068p.06
UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT
No. 14-4166
[Filed March 22, 2016]
________________________________
THE MEDICAL CENTER AT
)
ELIZABETH PLACE, LLC,
)
Plaintiff-Appellant,
)
)
v.
)
)
ATRIUM HEALTH SYSTEM, et al.,
)
Defendants-Appellees.
)
________________________________ )
Appeal from the United States District Court
for the Southern District of Ohio at Dayton.
No. 3:12-cv-00026—Walter H. Rice, District Judge.
Argued: October 8, 2015
Decided and Filed: March 22, 2016
Before: MERRITT, DAUGHTREY, and GRIFFIN,
Circuit Judges.
_________________

App. 184
COUNSEL
ARGUED: Richard A. Ripley, HAYNES AND BOONE,
LLP, Washington, D.C., for Appellant. Charles J.
Faruki, FARUKI IRELAND & COX P.L.L., Dayton,
Ohio, for Appellees. ON BRIEF: Richard A. Ripley,
HAYNES AND BOONE, LLP, Washington, D.C.,
James Alan Dyer, SEBALY, SHILLITO & DYER,
Dayton, Ohio, Anne M. Johnson, Ryan Paulsen, Sally
Dahlstrom, HAYNES AND BOONE, LLP, Dallas,
Texas, for Appellant. Charles J. Faruki, Laura A.
Sanom, FARUKI IRELAND & COX P.L.L., Dayton,
Ohio, Thomas Demitrack, JONES DAY, Cleveland,
Ohio, for Appellees.
MERRITT, J., delivered the opinion of the court in
which DAUGHTREY, J., joined. GRIFFIN, J. (pp.
16–26),delivered a separate dissenting opinion.
_________________
OPINION
_________________
MERRITT, Circuit Judge. Section 1 of the Sherman
Act broadly prohibits “combinations in restraint of
trade.”1 Plaintiff claims that defendants conspired to
deny it access to managed care contracts that plaintiff
needed to compete in the hospital market in Dayton,
Ohio. The question in this case is whether defendants,
four previously independent hospitals now operating as
1

Section 1 of the Sherman Act prohibits any “contract,
combination in the form of trust or otherwise, or conspiracy, in
restraint of trade or commerce among the several States, or with
foreign nations.” 15 U.S.C. § 1.

App. 185
a hospital “network” under the name “Premier Health
Partners,” is a “combination” subject to liability under
§ 1 of the Sherman Act, or whether it should be
characterized as a single entity competing in the
marketplace for hospital services in the Dayton area.
The four hospitals entered into a joint operating
agreement that merged2 some of their healthcare
functions, but retained control of others, and they
continued to compete with each other. The district
court held that the Premier group was a single entity
and dismissed this antitrust case on summary
judgment without adjudicating the question of whether
the behavior of the Premier group of hospitals
constitutes impermissible anticompetitive conduct. We
disagree and reverse and remand for further
proceedings under the Sherman Act.
I. Background
Plaintiff, The Medical Center at Elizabeth Place,
opened in 2006 and operates a 26-bed, for-profit,
physician-owned hospital in Dayton, Ohio.3 Plaintiff
specializes in acute-care surgical services. Its
competitors for surgical patients in the Dayton market
2

A merger was not possible because one of the hospitals, Catholic
Health Initiatives, Inc., was prohibited from joining a non-Catholic
entity.
3

In 2009, after struggling financially for three years, which
plaintiff claims resulted from defendants’ illegal boycott, plaintiff
sold a 49% ownership interest to Kettering Health Network, a
major competitor of defendant Premier Health Partners in the
Dayton market. The sale allowed plaintiff to gain access to
Kettering’s managed-care contracts with local insurance
companies and thereby increase its patient volume.

App. 186
include the defendant hospitals. Defendant Premier
Health Partners was formed in 1995 when two Daytonarea hospitals entered into a joint operating
agreement. Over the next 13 years, several additional
hospital corporations in the area entered into Premier’s
joint operating agreement.4 Premier Health Partners,
through the joint operating agreement, operates four
hospitals: Good Samaritan Hospital, Miami Valley
Hospital, Atrium Medical Center, and Upper Valley
Medical Center. See Second Amended and Restated
Joint Operating Agreement of Premier Health Partners
(executed Feb. 2008). Premier is not a hospital, does
not provide any health care itself, and has no assets of
its own. Instead, Premier handles much of the financial
business of the hospitals through the joint operating
agreement, including negotiating managed-care
contracts with insurance carriers. The defendant
hospitals share revenues and losses through an agreedupon formula set forth in the joint operating
agreement, but each defendant maintains separate
ownership of its assets. Defendant hospitals file
separate tax returns and other corporate forms and
documents filed with the government.
Plaintiff claims that the hospital defendants are not
a single entity, but instead a group of hospitals capable
of concerted action to keep plaintiff from competing in
the market. Plaintiff offers proof that the group
engaged in concerted action in three principal ways:

4

The corporate defendants, in addition to Premier Health
Partners, are Atrium Health System, Catholic Health Initiatives,
MedAmerica Health Systems Corporation, Samaritan Health
Partners, and UVMC.

App. 187
(1) to coerce commercial health insurers that
collectively represent at least 70% of the insured
consumers in Dayton to refuse to negotiate contracts
for managed care with plaintiff and to otherwise deny
it access to their networks, thereby depriving plaintiff
of the ability to serve a large segment of the Dayton
consumer market; (2) by threatening punitive financial
consequences to physicians who affiliated with
plaintiff, including terminating leases that physicians
had with defendant hospitals for office space or
terminating or evicting physicians already leasing from
defendant facilities, and threatening to withhold
referrals; and (3) by compelling physicians, either
through threats of punitive measures or through
financial incentives, to refuse to admit their patients to
plaintiff hospital.
The question cannot be answered in the abstract as
to whether a joint venture like the one here constitutes
a single entity incapable of conspiring with itself in an
anticompetitive manner, or whether, instead, it
becomes a vehicle to facilitate separate entities to
conspire illegally to restrain trade. In American Needle,
Inc. v. National Football League, 560 U.S. 183, 203 n.10
(2010), the Supreme Court relied on Justice Brandeis’s
multi-factored test in Board of Trade of Chicago v.
United States, 246 U.S. 231, 238 (1918), to determine
whether a joint venture constitutes a “combination”
under Section 1:
The true test of legality is whether the restraint
imposed is such as merely regulates and perhaps
thereby promotes competition or whether it is
such as may suppress or even destroy

App. 188
competition. To determine that question the court
must ordinarily consider the facts peculiar to the
business to which the restraint is applied; its
condition before and after the restraint is
imposed; the nature of the restraint and its effect,
actual or probable. The history of the restraint,
the evil believed to exist, the reason for adopting
the particular remedy, the purpose or end
sought to be attained, are all relevant facts. This
is not because a good intention will save an
otherwise objectionable regulation or the
reverse; but because knowledge of intent may
help the court to interpret facts and to predict
consequences.
(Emphasis added.)5 The summary judgment record
5

Our dissenting colleague does not agree that this statement from
Justice Brandeis in American Needle is relevant because it
discusses facts relating to defendants’ intent, history and coercive
behavior. The objection is strange because Justice Brandeis’s
admonition is quoted at length in a case where the issue was
whether the defendant was a single entity. Surely if the Supreme
Court had thought that Justice Brandeis’s factors concerning
conduct and intent were irrelevant, it would not have said they
were relevant and directed lower courts to consider them. We
understand that, at least on paper, the joint venture agreement,
written by defendants themselves, aims to legitimate the cartel.
But further factual determination is required to resolve whether
the neutral words of the agreement belie the true aim of
defendants’ association. We are tasked with looking at the
evidence before us, which includes evidence of defendants’ unveiled
threats to plaintiff and the words of defendants’ employees and
agents concerning their views on the nature of the relationship
among defendants. See Freeman v. San Diego Ass’n of Realtors,
322 F.3d 1133, 1150 (9th Cir. 2003) (“Defendants sabotage their
theory by their own admissions. . . . Rarely do antitrust defendants

App. 189
leaves little doubt on the question of the intent of the
network to prevent plaintiff hospital from entering the
Dayton healthcare market. The deposition of the
eventual head of plaintiff hospital contains the
following testimony about a phone conversation he had
with Thomas Arquilla, Executive Vice President of the
Premier group of hospitals, one afternoon before the
plaintiff hospital opened:
The conversation started with him asking me
the question, John, I understand that you are an
investor in this new Regent Hospital [plaintiff
hospital]. And I said yes, Tom, that’s true. I also
understand that you are the chairman of the
board of the hospital. Is that true? I said yes, it’s
true. He said I want you to know that you are
the enemy and that this is war, and you are not
going to open this hospital. I replied to him are
you going to kick me off of staff at Miami Valley
Hospital? And he said John, I’m not going to tell
you what we are going to do to you, but there are
many things that we can do to you, and we are
going to do them. I said Tom, are you going to
blow the facility up? And he laughed, and he
said I already told you, John, there’s lots of
things that we can do to you, and we are going to
do them. You are not going to open this hospital.
He then went on to say that our facility would

serve up their own heads on so shiny a silver platter.”). Our
colleague’s refusal to consider anything other than the joint
venture agreement is tantamount to repealing Section 1 of the
Sherman Act by allowing the cartel members themselves to write
up the only facts to be considered.

App. 190
suck off good paying patients, that we were
going to be cherry pickers, and that we would
suck off good patients.
Fleishman Dep. at 118:12-119:10 (Oct. 22, 2013).
American Needle sets out the framework we are to
follow in deciding the “single entity” versus “concerted
activity” question at issue in this appeal. Based on
defendants’ stated intent to keep plaintiff out of the
Dayton market, the evidence of coercive conduct
threatening both physicians and insurance companies
with financial loss if they did business with plaintiff,
evidence of continued actual and self-proclaimed
competition among the defendant hospitals, and
evidence that the defendant hospitals’ business
operations are not entirely unitary, we conclude that
there is a genuine issue of material fact as to whether
the defendant hospitals’ network constitutes a single
entity or concerted action among competitors for
purposes of Section 1 of the Sherman Act.
II. Analysis
The Sherman Antitrust Act is based on an oftendifficult distinction between concerted and
independent, unilateral action. Concerted activity is
scrutinized more closely than unilateral behavior
because “#[c]oncerted activity inherently is fraught with
anticompetitive risk’ insofar as it ‘deprives the
marketplace of independent centers of decisionmaking
that competition assumes and demands.’” Am. Needle,
560 U.S. at 190 (quoting Copperweld Corp. v. Indep.
Tube Corp., 467 U.S. 752, 768-69 (1984)). Specifically,
Section 1 regulates concerted activity between two or

App. 191
more entities, outlawing “[e]very contract, combination
. . . or conspiracy, in restraint of trade,” 15 U.S.C. § 1,
a provision that has subsequently been limited to
target only “unreasonable” restraints of trade. To
prevail on a claim under § 1, a plaintiff must prove:
(1) a contract, combination, or conspiracy; (2) producing
adverse, anticompetitive effects in the relevant market;
and (3) resulting in injury. See Expert Masonry, Inc. v.
Boone Cty., Ky., 440 F.3d 336, 342 (6th Cir. 2006). This
appeal looks only at the element addressed by the
district court, which is the first element: whether
defendants’ conduct is the result of two or more entities
acting in concert or whether defendants, based on their
participation in the joint operating agreement, function
as a single entity in the market place. Our analysis is
guided by American Needle, which sets out the
standard to apply in distinguishing concerted from
unilateral action.
In American Needle, the Court looked at the conduct
of members of an incorporated joint venture that
organized the 32 NFL teams for purposes of marketing
the NFL trademark for apparel. American Needle
explained that “concerted action under § 1 does not
turn simply on whether the parties involved are legally
distinct entities.” 560 U.S. at 191. Rather, “substance,
not form, should determine whether a[n] . . . entity is
capable of conspiring under § 1.” Id. at 195 (quoting
Copperweld, 467 U.S. at 773 n.21). It is not dispositive
that defendants organize themselves “under a single
umbrella or into a structured joint venture,” id. at 196,
as defendant hospitals did here. The “key,” according to
the Court, is whether the “contract, combination . . ., or
conspiracy” joins together “independent centers of

App. 192
decisionmaking . . . . If it does, the entities are capable
of conspiring under § 1, and the court must decide
whether the restraint of trade is an unreasonable and
therefore illegal one.” Id. (citation omitted). The Court
went on to hold that the 32 teams “remain separately
controlled, potential competitors with economic
interests that are distinct from [National Football
League Properties’] financial well-being.” Id. at 201
(citing Herbert Hovenkamp, Exclusive Joint Ventures
and Antitrust Policy, 1995 Colum. Bus. L.R. 1, 52-61
(1995)). Given this explanation, the Court in American
Needle concluded that the joint venture formed by 32
NFL teams, “at least” with regard to their decision
collectively to license the teams’ independently owned
intellectual property, was engaged in concerted rather
than single-entity action and thus potentially violated
Section 1. The Court reasoned that apart from the
teams’ agreement to cooperate in exploiting these
assets, they would be competitors in the market to
produce and sell team-logo apparel and headgear by
licensing their intellectual property and dealing with
suppliers.
Applying American Needle to examine the
relationship among the defendant hospitals pursuant
to the joint operating agreement, we come to the same
conclusion. Like the joint venture in American Needle,
the joint operating agreement brings together
“independent centers of decisionmaking” that “remain
separately controlled, potential competitors with
economic interests that are distinct” and thus are
capable of concerted action. See Nathaniel Grow,
American Needle and the Future of the Single Entity
Defense under Section One of the Sherman Act, 48 Am.

App. 193
Bus. L.J. 449, 484 (Fall 2011) (“[W]henever the entity
is controlled by, or itself controls, competing economic
actors, it is engaged in concerted activity rendering
single entity status improper.”); see also Areeda &
Hovenkamp, Antitrust Law ¶ 1478a (2010) (The “most
significant competitive threats arise when joint venture
participants are actual or potential competitors.”).
The Supreme Court looks beyond labels to recognize
underlying collusion among competitors as violations of
the Sherman Act. See Am. Needle, 560 U.S. at 191
(“[W]e have repeatedly found instances in which
members of a legally single entity violated § 1 when the
entity was controlled by a group of competitors and
served, in essence, as a vehicle for ongoing concerted
activity.”); accord Timken Roller Bearing Co. v. United
States, 341 U.S. 593, 594-95 (1951) (failing to “find any
support in reason or authority for the proposition that
agreements between legally separate persons and
companies to suppress competition among themselves
and others can be justified by labeling the project a
‘joint venture’”), overruled on other grounds by
Copperweld, 467 U.S. at 764–65; United States v. Am.
Tobacco Co., 221 U.S. 106, 187 (1911) (where the trust
or holding company device brought together previously
independent firms to lessen competition and achieve
monopoly power, “the combination was in and of itself”
is a restraint of trade); see also Federal Trade Comm’n
& U.S. Dep’t of Justice, Antitrust Guidelines for
Collaborations Among Competitors 9 (2000)
(“[L]abeling an arrangement a ‘joint venture’ will not
protect what is merely a device to raise price or restrict
output . . . .”).

App. 194
American Needle directs us to look at a number of
factors when determining whether multiple parties
joined together in a joint venture are functioning as a
single entity for purposes of Section 1 of the Sherman
Act. We first look to the actual conduct of the parties to
the joint venture: “We have long held that concerted
activity does not turn simply on whether the parties
involved are legally distinct entities. Instead, we have
eschewed formalistic distinctions in favor of a
functional consideration of how the parties involved in
the alleged anticompetitive conduct actually operate.”
560 U.S. at 191 (emphasis added). The Court went on
to say that in looking at how the parties actually
operate, “we have repeatedly found instances in which
members of a legally single entity violated § 1 when the
entity was controlled by a group of competitors and
served, in essence, as a vehicle for ongoing concerted
activity.” Id. (citing United States v. Sealy, Inc., 388
U.S. 350 (1967) (holding that Sealy was not a single
entity, but instead an “instrumentality of the
individual” parties)).
The stated intent on the part of the defendants to
engage in coercive behavior, as well as conduct
providing evidence of that intent, is demonstrated by
the conversation recited above between the CEO of
plaintiff and the Executive Vice President of Premier,
in which the Premier official stated his intention to
keep plaintiff from entering the Dayton healthcare
market. The record also contains evidence, through
letters and emails, that physicians who collaborated
with plaintiff in any way lost their leases for office
space in properties owned by defendants and were

App. 195
threatened with loss of treating privileges at defendant
hospitals.
Boycott by Health Insurance Companies
Another example of alleged conduct indicating
possible anticompetitive intent on the part of
defendants arises from evidence that insurance
companies were refusing to deal with plaintiff at the
behest of defendant hospitals. Defendant hospitals each
executed separate managed-care contracts with each
insurance company. Plaintiff offered evidence that
defendant hospitals each individually executed
managed-care contracts with the insurance companies
that contained language prohibiting the insurer from
also contracting with plaintiff by including an explicit
restriction on the insurer’s ability to add a new hospital
to its network. See, e.g., Email dated Aug. 10, 2009,
from Mark Shaw of Premier to Renee Johnson of
Premier with subject line referencing “Medical Center
at Elizabeth Place” and requesting that Ms. Johnson
investigate whether certain insurance companies were
violating their contracts with Premier by adding new
hospitals to their networks. Access to managed-care
contracts offered by insurers is crucial to a hospital’s
financial success. The managed-care contracts with
insurers provide the hospital with the volume (patients
who are covered by the insurers) that is necessary to
survive. If a hospital cannot contract with a number of
insurers, or at least several insurers with large
numbers of insureds, it is unlikely to admit enough
patients, and it is only through patients that the
hospital generates revenue. Hospitals generally seek to
become “in-network” or “preferred” providers for a

App. 196
number of insurers, often accepting lower rates from
the insurance companies in exchange for a higher
volume of patients. In this case, the forming of the joint
venture, bringing the defendant hospitals under the
umbrella of Premier Health Partners, facilitated
negotiation with insurers for managed-care contracts.
The Federal Trade Commission and the Antitrust
Division of the Justice Department recognize that
“collaboration that eliminates or reduces price
competition or allows providers to gain increased
bargaining leverage with [insurers] raises significant
antitrust concerns.” Deborah L. Feinstein, Director,
Bureau of Competition, Federal Trade Commission,
Antitrust Enforcement in Health Care: Proscription, not
Prescription, at 2, Address at the Fifth National
Accountable Care Organization Summit (June 19,
2014). In this address, Director Feinstein also noted
that “management contracts whereby one hospital
manages another hospital with which it also competes
may raise concerns similar to horizontal acquisitions.”
Id. at 9.
Negotiating contracts that explicitly exclude the
insurers’ ability to contract with other parties is
anticompetitive on its face and normally serves no
proper business function, a fact recognized by the
district court in its first order denying the motion to
dismiss. The Med. Ctr. at Elizabeth Place v. Premier
Health Partners, 2012 WL 3776444, at *5 (S.D. Ohio
Aug. 30, 2012) (“Organizing a group boycott of
[plaintiff] does not promote any legitimate objective of
the [joint operating agreement] or achieve any
procompetitive benefits.”). Plaintiff has submitted
evidence that each insurer knew that the other

App. 197
insurers had included this limitation in their contracts,
as demonstrated by the excerpt below from a Dayton
industry publication:
Premier has threatened to revoke privileges for
physicians participating in [plaintiff hospital]
and contracts with health plans such as Anthem
and UnitedHealth are known to be contingent on
excluding [plaintiff hospital] from the network.
HealthLeaders InterStudy, Dayton Market Overview
at 7-8 (Apr. 2008). In addition to this published
account, plaintiff also offered evidence from insurance
company emails and defendant hospitals’ Board of
Directors meetings that, in addition to demonstrating
knowledge among the insurers of the restriction on
adding new hospitals to their networks in their
managed-care contracts with defendant hospitals, the
insurance companies regularly monitored each other to
ensure that the other insurance companies were
complying with the contract restriction on dealing with
a new hospital.
The Joint Operating Agreement
American Needle also looked to other factors in
addition to actual conduct, examining the nature of the
business relationship among defendants, focusing on
whether that relationship remains that of separate,
competing entities or whether there is a single center
of decisionmaking. As noted above, Premier owns no
assets and it does not provide any healthcare services.
Like the joint venture under scrutiny in American
Needle, Premier is a separate corporate entity with its
own management structure, including a CEO and a

App. 198
Board of Directors, some of whom are employees of the
individual defendant hospitals. The joint operating
agreement provides for certain management functions
to be carried out by Premier on behalf of the defendant
hospitals. Premier’s duties under the joint operating
agreement are an attempt to achieve efficiencies in
billing and collecting payments, managing physicians
and physician groups, property management and other
similar duties. American Needle emphasized that it is
not dispositive that the parties to the joint venture
have organized and created a legally separate entity
that centralizes certain management functions. The
Court stated that an “ongoing § 1 violation cannot
evade § 1 scrutiny simply by giving the ongoing
violation a name and label. ‘Perhaps every agreement
and combination in restraint of trade could be so
labeled.’” Am. Needle, 560 U.S. at 197 (quoting Timken
Roller Bearing, 341 U.S. at 598). The joint operating
agreement provides for some degree of unitary
management, but questions remain as to whether
“their general corporate actions are guided or
determined by separate corporate consciousnesses.” Id.
at 196 (quotation marks and citations omitted).
The Premier joint operating agreement also
provides for sharing revenue pursuant to an agreed
upon formula. But, if the fact that potential
competitors shared in profits or losses from a venture
meant that the venture was immune from § 1, then any
cartel “could evade the antitrust laws simply by
creating a ‘joint venture’ to serve as the exclusive seller
of their competing products.” Major League Baseball
Props., Inc. v. Salvino, Inc., 542 F.3d 290, 335 (2d Cir.
2008) (Sotomayor, J., concurring in judgment). Indeed,

App. 199
a joint venture with a single management structure is
generally a better way to operate a cartel because it
decreases the risk that a party to an illegal agreement
will defect from that agreement. But, competitors
“cannot simply get around” antitrust liability by acting
“through a third-party intermediary or joint venture.”
Am Needle, 560 U.S. at 201 (internal quotations
omitted).
Although joining together to carry out certain
functions, defendant hospitals remain separate legal
entities, each with their own assets, filing their own
tax returns and maintaining a separate corporate
identity with its own CEO and Board of Directors. The
record also demonstrates that defendant hospitals
compete with each other for physicians and patients,
with each defendant hospital continuing to market
certain hospital services to the public. Each of the
defendant hospitals makes material independent
decisions concerning their respective medical
operations that are not managed by Premier, including
staffing decisions and medical strategies concerning
patient care.
Like the NFL teams in American Needle, each
defendant hospital holds its own assets. Thus, the
defendant hospitals only “partially” unite their
economic interests, and they continue to have distinct,
potentially competing interests. See Am. Needle, 560
U.S. at 198. Any joint venture involves multiple
sources of economic power cooperating to produce a
product or provide a service. The benefits of
cooperation do not transform concerted action into
unilateral action that puts the joint venture beyond the

App. 200
reach of § 1. As the Court noted, “Apart from their
agreement to cooperate in exploiting those assets, . . .
there would be nothing to prevent each of those teams
from making its own market decisions . . . .” Id. at 200.
Here, the defendant hospitals clearly did not
completely align their interests, economic or otherwise.
The defendant hospitals continue to function more or
less as independent and competing hospitals that
entered into the joint operating agreement largely to
derive the benefit of conforming certain business
practices to a uniform standard. The evidence shows
that the joint venture under Premier’s management is
composed of individual hospitals that are separately
incorporated, hold their assets separately, and compete
with each other for patients. Like the NFL teams, each
defendant hospital “is a substantial, independently
owned” business that is “guided [by a] ‘separate
corporate consciousness[ ].’” Id. at 196 (quoting
Copperweld, 467 U.S. at 771).
Defendant Hospitals Continue to Compete
The record also provides evidence that defendant
hospitals continue to view themselves not as a single
entity, but as competitors in the market. Defendants
made statements to the public, among themselves and
to a consultant hired by Premier, that demonstrate
that they view themselves as separate entities. In 2010,
Premier retained H*Works Consulting to help it devise
a strategic five-year plan (2010-2015). One aspect of
the study was to analyze the role of Premier and its
relationship to its constituent elements, the defendant
hospitals. As part of the process, 44 of defendants’
“executives and key stakeholders” were interviewed by

App. 201
H*Works on a number of topics, including the
integration of defendant hospitals. Pearce Fleming of
H*Works conducted all of the interviews of defendants’
executives, including Premier’s Board of Trustees, the
top level executives at Premier, and senior
management from all the defendant hospitals. Fleming
took contemporaneous notes of each interview,
generating 11 sets of handwritten notes.
Based on these statements by defendants’ top
administrators, H*Works made a number of findings,
including the following: “[Premier] partners do not
collaborate or act as a system today, more often
[Premier] partners find themselves competing with
each other;” “[Premier] does not have an identity as a
collaborative group, rather act as a confederacy that
collaborates in a few areas (i.e., supplies,
financing/access to capital, electronic medical records);”
“[Premier] does not think of itself as integrated
organization;” and “[Premier] Partners compete with
each other for market share.” H*Works Consulting,
Key Interview Findings, at 8 (Apr. 2010). Specific
statements from the interviews include: Premier is a
“confederation of autonomous organizations” that
cooperate in certain areas; “[t]he brand is the hospital,
not [Premier];” defendant hospitals “do their own thing
and act in their own self interest above that of
[Premier];” and the joint venture structure was
“designed to keep everyone separate.” H*Works
Consulting Interview Statements at 2-5 (Apr. 2010).
The H*Works findings and interview statements set
forth in its reports to Premier provide evidence that
defendant hospitals uniformly agree that the they are

App. 202
driven to pursue individual hospital goals even after
entering into the joint venture.
The district court refused to consider most of this
compelling evidence, labeling it inadmissible hearsay.
In refusing to consider the findings from H*Works, the
district court found the statements “incomplete,
anonymous personal opinions . . . . lack[ing] any
context,” ruling them “inadmissible, anonymous
hearsay and speculation . . . .” The Med. Ctr. at
Elizabeth Place v. Premier Health Partners, 2014 WL
7739356, at *4 (S.D. Ohio Oct. 20, 2014). To the
contrary, many of the statements were attributable to
a particular person. But, whether a specific identity is
given or not, it was error to exclude these statements
as they are admissions of a party-opponent, admissible
under the hearsay exception in Federal Rule of
Evidence 801(d)(2).6 An anonymous statement may be

6

The Rule states in relevant part:
(d) Statements That Are Not Hearsay. A statement that
meets the following conditions is not hearsay:
...
(2) An Opposing Party’s Statement. The statement is
offered against an opposing party and:
(A) was made by the party in an individual or
representative capacity;
(B) is one the party manifested that it adopted or
believed to be true;
(C) was made by a person whom the party
authorized to make a statement on the subject;
(D) was made by the party’s agent or employee on
a matter within the scope of that relationship and
while it existed; or

App. 203
admissible under Rule 801(d)(2) in certain
circumstances that demonstrate sufficient indicia of
reliability as to the authenticity of the statement.
Davis v. Mobil Oil Expl. & Prod. Se., Inc., 864 F.2d
1171, 1174 (5th Cir. 1989) (holding that anonymous
statement was admissible as a statement by a party’s
agent under Rule 801(d)(2)(D), and noting that “a
district court should be presented with sufficient
evidence to conclude that the person who is alleged to
have made the damaging statement is in fact a party or
an agent of that party . . . .”).
The statements fall within the hearsay exception for
admissions of party opponents under Rule 801(d)(2)(D)
because the district court was presented with
“sufficient evidence” to conclude that the person who
made the statement is in fact “a party or an agent” of
defendants. It is undisputed that the speakers, though
some are unidentified by name or specific title, were all
executives or “key” stakeholders of defendant hospitals.
The statements were made in the scope of their
employment relationship and during the existence of
the joint venture. They acted within the scope of their
employment in stating their views on the state of their
operations and integration of those operations at the
request of Premier’s CEO. Thus, the sources of the
statements are identified sufficiently to establish that
they were made by agents of defendants acting within
the scope of and during the existence of their
employment relationship. See Ryder v. Westinghouse
Elec. Corp., 128 F.3d 128, 134 (3d Cir. 1997) (holding in
(E) was made by the party’s coconspirator during
and in furtherance of the conspiracy

App. 204
a similar situation that statements from unidentified
executives were admissible because evidence
established that though their precise identity was
unknown, they were all “Westinghouse executives who
had authority to make personnel decisions [and thus
were] act[ing] within the scope of their employment in
stating their views on the state of their workforce
. . . .”). The crucial question is whether there is
evidence that the unidentified declarants were
speaking on a matter within the scope of their
employment, not their identity. Back v. Nestle USA,
Inc., 694 F.3d 571, 578 (6th Cir. 2012).
III. Conclusion
The gravamen of plaintiff’s complaint is that in
creating a joint venture, defendants colluded to keep
plaintiff from competing in the Dayton hospital market
through a number of avenues. The evidence of emails,
letters, and the statements elicited by the consultant,
together with the lack of shared assets by the
defendants, raises a genuine issue of material fact as to
whether defendant hospitals have “separate” corporate
consciences or whether they should be considered a
single entity for purposes of the antitrust laws. All of
these facts suggest that defendant hospitals are
actually competitors attempting to eliminate another
competitor through concerted action. When viewing the
record in the light most favorable to plaintiff, a
reasonable juror might conclude that, aside from a
business relationship pursuant to the joint operating
agreement, defendant hospitals maintained separate
identities and acted more like competitors than one
unit. Expert Masonry, Inc. v. Boone Cty., Ky., 440 F.3d

App. 205
336, 341 (6th Cir. 2006) (“In this circuit, courts are
generally reluctant to use summary judgment
dispositions in antitrust actions due to the critical ‘role
that intent and motive have in antitrust claims and the
difficulty of proving conspiracy by means other than
factual inference.’”)(quoting Smith v. N. Mich. Hosp.,
Inc., 703 F.2d 942, 947 (6th Cir. 1983)).
Because plaintiff presented evidence of conduct and
business operations that raise the possibility of
concerted action among defendant hospitals, the
question remains upon remand whether hospitals that
had previously pursued their own interests separately,
and that continue to seem to compete, combined
unlawfully to restrain competition.
For the foregoing reasons, the judgment of the
district court is reversed, and the case is remanded for
further proceedings consistent with this opinion.

App. 206
_________________
DISSENT
_________________
GRIFFIN, Circuit Judge, dissenting. To succeed on
a § 1 claim under the Sherman Antitrust Act, a
plaintiff must establish that the defendants:
“(1) participated in an agreement that (2) unreasonably
restrained trade in the relevant market.” Worldwide
Basketball and Sport Tours, Inc. v. NCAA, 388 F.3d
955, 959 (6th Cir. 2004). Because § 1 “does not reach
conduct that is wholly unilateral,” Copperweld Corp. v.
Indep. Tube Corp., 467 U.S. 752, 768 (1984) (internal
quotation marks omitted), proving the first element
involves a threshold showing that the defendants are
separate entities capable of concerted action. That is
the only question before us: “whether defendants . . .
should be characterized as a single entity.” (Majority
opinion.)
The test we apply to determine single-entity status
is from American Needle and Copperweld: whether the
defendants are “separate economic actors pursuing
separate economic interests,” such that their
agreement “‘deprives the marketplace of independent
centers of decisionmaking,’ . . . and thus of actual or
potential competition.” Am. Needle, Inc. v. Nat’l
Football League, 560 U.S. 183, 195 (2010) (quoting
Copperweld, 467 U.S. at 769).
My colleagues begin not with American Needle and
Copperweld, but with the “rule of reason” as articulated
in Board of Trade of Chicago v. United States, 246 U.S.
231 (1918)—a test that may come into play only for the

App. 207
second part of the inquiry—i.e., in determining
whether the agreement itself constitutes an
“unreasonable restraint” on trade. See Am. Needle, 560
U.S. at 203 (“[T]he restraint must be judged according
to the flexible Rule of Reason.”) (footnote omitted); see
also Worldwide Basketball, 388 F.3d at 959 (“Whether
an agreement unreasonably restrains trade is
determined under one of two approaches: the per se
rule and the rule of reason.”).1 Reaching this issue is
premature. Because of its ruling that defendants are a
single entity for § 1 purposes, the district court never
considered whether defendants “participated in [any]
agreement,” much less an agreement to restrain trade
unreasonably.
The majority’s misapplication of American Needle is
problematic. Invoking the rule of reason steers focus to
defendants’ intent to avoid competition with plaintiff
and away from the relevant question: whether, under
the terms of their Joint Operating Agreement (JOA),
defendant hospitals and their joint operating company,
Premier Health Partners (Premier), share “a complete
unity of interest,” Copperweld, 467 U.S. at 771, and
represent a single center of decisionmaking. I conclude
they do. Thus, I would affirm summary judgment in
favor of defendants and respectfully dissent.

1

Citing the rule of reason seems all the more misplaced here,
where plaintiff alleges that defendants’ conduct constitutes a per
se violation of § 1, not a violation under the “flexible Rule of
Reason.” Am. Needle, 560 U.S. at 203.

App. 208
I.
“The Sherman Act contains a ‘basic distinction
between concerted and independent action.’” Id. at 767
(quoting Monsanto Co. v. Spray-Rite Serv. Corp., 465
U.S. 752, 761 (1984)). Section 2 of the Act governs
conduct by a single firm that “threatens actual
monopolization,” while § 1 reaches “unreasonable
restraints of trade effected by a ‘contract, combination
or . . . conspiracy’ between separate entities.” Id. at
767–68 (quoting 15 U.S.C. § 1). Concerted activity
between two parties is “inherently . . . fraught with
anticompetitive risk.” Id. at 768–69.
“In any
conspiracy, two or more entities that previously
pursued their own interests separately are combining
to act as one for their common benefit.” Id. at 769. As
a result, the conspirators profit from increased
economic power, while depriving the market “of the
independent centers of decisionmaking that
competition assumes and demands.” Id.
That concern does not apply, however, when the
actors share “a complete unity of interest,” such as
when the coordinated conduct occurs between officers
and employees of the same company, or a corporation
and one of its unincorporated divisions. Id. at 769–71.
“[O]fficers of a single firm are not separate economic
actors pursuing separate economic interests, so
agreements among them do not suddenly bring
together economic power that was previously pursuing
divergent goals.” Id. at 769. Following this reasoning in
Copperweld, the Supreme Court held that the
coordinated activity of a parent corporation and its
wholly owned subsidiary “must be viewed as that of a

App. 209
single enterprise for purposes of § 1 of the Sherman
Act.” Id. at 771.
Although Copperweld limited its inquiry to the
context of parent and wholly owned subsidiary
corporations, see id. at 767, the Court emphasized “the
broader principle that substance, not form, should
determine whether a separately incorporated entity is
capable of conspiring under § 1.” Id. at 773 n.21.
Whether two legally separate entities constitute a
single actor depends upon commonality of interest, not
corporate formality. Thus, “although a parent
corporation and its wholly owned subsidiary are
‘separate’ for the purposes of incorporation or formal
title, they are controlled by a single center of
decisionmaking and they control a single aggregation
of economic power. Joint conduct by two such entities
does not ‘depriv[e] the marketplace of independent
centers of decisionmaking.’” Am. Needle, 560 U.S. at
194 (quoting Copperweld, 467 U.S. at 769).
The Supreme Court reiterated the substance-overform analysis in American Needle, which involved an
antitrust claim against National Football League
Properties (NFLP), an organization formed by the 32
teams in the National Football League (NFL), “to
develop, license, and market [each team’s] intellectual
property.” 560 U.S. at 187. Traditionally, NFLP
granted nonexclusive licenses to vendors, including
American Needle, to manufacture and sell clothing
bearing NFL team insignias. Id. In 2000, however,
NFLP granted Reebok an exclusive license to sell
trademarked headwear for all 32 teams. Id. American
Needle sued, claiming the NFL, its teams, the NFLP,

App. 210
and Reebok violated §§ 1 and 2 of the Sherman Act. Id.
at 187–88. Defendants NFL and NFLP asserted they
were incapable of conspiring with each other “because
they are a single economic enterprise, at least with
respect to the conduct challenged.” Id. at 188. The
district court agreed and granted defendants’ motion
for summary judgment. The Seventh Circuit affirmed,
noting the teams “can function only as one source of
economic power when collectively producing NFL
football.” Id.
The Supreme Court reversed. Explaining the singleentity inquiry, the Court stated:
[T]he question is not whether the defendant is a
legally single entity or has a single name; nor is
the question whether the parties involved
“seem” like one firm or multiple firms in any
metaphysical sense. The key is whether the
alleged “contract, combination . . . or conspiracy”
is concerted action—that is, whether it joins
together separate decisionmakers. The relevant
inquiry, therefore, is whether there is a
“contract, combination . . . or conspiracy”
amongst “separate economic actors pursuing
separate economic interests” . . . such that the
agreement “deprives the marketplace of
independent centers of decisionmaking,” and
therefore of “diversity of entrepreneurial
interests,” and thus of actual or potential
competition.
Id. at 195 (citations omitted).

App. 211
Applying this test, the Court ruled the
independently owned NFL teams were capable of
conspiring with one another. Though “partially
unite[d]” by the fact that they all benefit from the
success of the NFL brand, each team “still ha[d]
distinct, potentially competing interests.” Id. at 198.
Teams compete with one another on the field for fans,
for contracts with managerial and player personnel,
and “in the market for intellectual property.” Id. at
196–97. A team licensing its intellectual property “is
not pursuing the common interests of the whole league
but is instead pursuing interests of [the] ‘corporation
itself,’. . . teams are acting as ‘separate economic actors
pursuing separate economic interests,’ and each team
therefore is a potential ‘independent cente[r] of
decisionmaking.’” Id. at 197 (quoting Copperweld, 467
U.S. at 770) (citation omitted). The fact that the teams
had formed the NFLP to market their brands through
a single outlet was not dispositive. “An ongoing § 1
violation cannot evade § 1 simply by giving the ongoing
violation a name and a label.” Id.
Whether the NFLP’s decisions constituted concerted
action was a closer question. “This is so both because
NFLP is a separate corporation with its own
management and because the record indicates that
most of the revenues generated by NFLP are shared by
the teams on an equal basis.” Id. at 200. Nevertheless,
because each team acted for its own separate interest
in making NFLP decisions, the Court held that those
decisions fell within the reach of § 1. Id. “Thirty-two
teams operating independently through the vehicle of
the NFLP are not like the components of a single firm
that act to maximize the firm’s profits.” Id. at 201.

App. 212
Instead, each team garnered economic benefits
“separate and apart from NFLP profits as a result of
the decisions they make for the NFLP.” Id. Accordingly,
because each team was acting for its own interest, and
not simply the interest of the NFLP as a whole,
“decisions by the NFLP regarding the teams’ separately
owned intellectual property constitute[d] concerted
action.” Id.
II.
As the majority states, American Needle “eschewed
formalistic distinctions in favor of a functional
consideration of how the parties involved in the alleged
anticompetitive conduct actually operate.” Am. Needle,
560 U.S. at 191. Guided by the rule of reason, my
colleagues interpret this directive to mean that we
should ask how defendants “actually operate” with
regard to plaintiff—specifically, their intent to keep
plaintiff out of the market as expressed through
apparent threats by Premier’s executives and the
boycott defendants allegedly arranged among the
insurance companies. This view is flawed. Defendants’
intent to exclude others from the market is irrelevant
to determining whether defendants themselves
constitute a single entity. To resolve that question, we
should consider how defendants “actually operate”
amongst each other.
American Needle asks if “the [anticompetitive]
agreement joins together independent centers of
decisionmaking” between the defendant entities. 560
U.S. at 196 (internal quotation marks omitted).
Defendant hospitals were independent centers of
decisionmaking before forming Premier as their joint

App. 213
operating company, but the question here is whether
that independence survived the creation of the joint
venture; whether, when acting through Premier,
defendants are “pursuing the common interests of the
whole,” or whether each defendant has a remaining,
independent economic interest, such that it could be
“pursuing the interests of [the] corporation itself,” even
in the course of taking joint action. Id. at 197 (internal
quotation marks omitted). What matters then is
whether defendants remain in competition with each
other, not whether they intend to ward off competition
with a third party. The Supreme Court’s reasoning
makes this point plain:
Agreements made within a firm can constitute
concerted action covered by § 1 when the parties
to the agreement act on interests separate from
those of the firm itself . . . .
For that reason, decisions by the NFLP
regarding the teams’ separately owned
intellectual property constitute concerted action.
Thirty-two teams operating independently
through the vehicle of the NFLP are not like
components of a single firm that act to maximize
the firm’s profits. The teams remain separately
controlled, potential competitors with economic
interests that are distinct from NFLP’s financial
well-being. Unlike typical decisions by corporate
shareholders, NFLP licensing decisions
effectively require the assent of more than a
mere majority of shareholders. And each team’s
decision reflects not only an interest in NFLP’s

App. 214
profits but also an interest in the team’s
individual profits.
Id. at 200–01 (citations and footnotes omitted).
Defendants’ wish to avoid competing with plaintiff tells
us nothing about whether defendant hospitals are
themselves “potential competitors with economic
interests that are distinct from [Premier’s] financial
well-being” as a whole.
III.
The best evidence of how Premier and the defendant
hospitals “actually operate” is the parties’ JOA. The
majority concedes that the JOA vests Premier with
control over the hospitals’ “management functions,” but
insists—without discussion of the agreement’s
terms—that “questions remain” as to whether
defendants are guided by a single corporate
consciousness. Review of the JOA should resolve those
questions. From the outset, the JOA identifies
corporate unification as an overarching goal: “The
vision of the Parties is to create and operate the JOC
[joint operating company] Network as a multi-entity,
integrated health care delivery system for the Miami
Valley Region that is positioned for the future and not
simply a continuation of the large JOC Hospitals.”
Executing on that vision, the agreement creates a
“unity of interest” among defendant hospitals by
establishing a system of shared income:
• The JOA provides that its financial
arrangements are intended to promote the
functioning of Premier and defendant
hospitals as an “integrated health system.”

App. 215
• Defendants’ net incomes are totaled each
year into a single “network net income,” to be
allocated to the parties based on
predetermined percentages in the JOA.
• Defendants also share losses according to the
same predetermined percentages.
Most importantly, the allocation of network net income
is not linked to any individual hospital’s revenue or
profitability. For example, defendant MedAmerica
Health Systems is entitled to 55.35% of the network
net income under the JOA. Because defendants’
revenues are combined in totaling the network net
income, MedAmerica receives 55.35% of the profit
earned from a patient regardless of whether that
patient is treated at Atrium Health System, Samaritan
Health Partners, Catholic Health Initiatives, UVMC,
or MedAmerica’s own facility. Unlike the NFL teams in
American Needle, who maintained “economic interests
. . . distinct from NFLP’s financial well-being,” 560 U.S.
at 201, no single hospital has any incentive to become
more profitable by attracting more patients than the
other.2 The majority is therefore incorrect to say
“defendant hospitals compete with each other for . . .
patients.” They do not.
To be sure, revenue sharing is not dispositive of
single-entity status. Competitors cannot side-step
antitrust liability merely by sharing revenue through
2

Additionally, defendants’ counsel represented at oral argument
that Premier sets prices for all hospital services performed by
physician-employees, ensuring that each hospital charges the same
price for the same service.

App. 216
a joint venture. “If the fact that potential competitors
shared in profits or losses from a venture meant that
the venture was immune from § 1, then any cartel
‘could evade the antitrust law simply by creating a
“joint venture” to serve as the exclusive seller of their
competing products.’” Am. Needle, 560 U.S. at 201
(quoting Major League Baseball Props., Inc. v. Salvino,
Inc., 542 F.3d 290, 335 (2d Cir. 2008) (Sotomayor, J.,
concurring in judgment)).
But defendants’ integration is not limited to profits
and losses on a balance sheet. The JOA grants Premier
significant operational authority over each defendant
hospital. In particular:
• It designates Premier as the “operator” for all
health system activities and requires
Premier to coordinate and have authority
over all of those activities. Premier has
general authority to operate and manage the
operations of the health system activities of
all defendants.
• Defendant hospitals’
Premier’s COO.

CEOs

report

to

• Each defendant’s management reports to
Premier’s executives, and Premier’s system
vice presidents and senior vice presidents
serve at the top of each department
throughout the system.
• Premier has integrated a number of system
management functions among defendant
hospitals, such as managed care and legal

App. 217
functions, into single departments for the
entire system.
• The JOA grants Premier authority and
control over defendants’ strategic plans,
budgets, and business plans.
• The JOA requires Premier to develop and
oversee the implementation of a strategic
plan for all system activities, and each
defendant must comply with and implement
the strategic plan.
• It also requires Premier to develop annual
capital expenditure and operating budgets
for the system, and each defendant must
adopt and implement the budget approved
for it by Premier.
• Premier’s CEO has the power to remove each
defendant hospital’s CEO.
• Premier controls defendant hospitals’
material debt incurrence and negotiates and
manages their relationships with insurance
companies.
Although each defendant hospital retains its separate
corporate existence, along with the right to amend or
repeal their corporate governing documents, the JOA
requires them to “take all corporate action . . . as
required to implement” Premier’s authority.
Defendants are also prohibited from modifying
corporate documents in a manner inconsistent with the
JOA without prior approval. To the extent defendant

App. 218
hospitals’ corporate documents conflict with the JOA,
the JOA controls.
The majority’s reply that “defendant hospitals
remain separate legal entities . . . [each] filing their
own tax returns and maintaining a separate corporate
identity with its own CEO and Board of Directors” is
beside the point. Finding an issue of fact on these
grounds elevates form over substance. “[T]he question
is not whether the defendant is a legally single entity
or has a single name”; rather, the question is one of
functional reality. Am. Needle, 560 U.S. at 195. And the
functional reality is that the JOA unifies defendant
hospitals under Premier’s flagship.
That reality is not changed by the fact that the
hospitals maintain individually-owned assets. Neither
American Needle, nor Copperweld, discusses the role of
asset ownership as part of the single-entity inquiry. Yet
the majority makes a point of quoting the single
mention of “assets” in American Needle: “NFLP’s
licensing decisions are made by the 32 potential
competitors, and each of them actually owns its share
of the jointly managed assets. Apart from their
agreement to cooperate in exploiting those assets,
including their decisions as the NFLP, there would be
nothing to prevent each of the teams from making its
own market decisions relating to purchases of apparel
and headwear, to the sale of such items, and to the
granting of licenses to use its trademarks.” Id. at 200
(citation omitted).
This language does not establish that asset
ownership is important to the single-entity inquiry.
Viewed in context, the Court’s mention of assets is

App. 219
merely a reiteration of its primary holding; “there
would be nothing to prevent each of the [NFL] teams
from making its own market decisions” because they
remained independent centers of decisionmaking
capable of acting on separate economic interests—even
while making joint decisions through the NFLP:
The 32 teams capture individual economic
benefits separate and apart from NFLP profits
as a result of the decisions they make for the
NFLP. NFLP’s decisions thus affect each team’s
profits from licensing its own intellectual
property. “Although the business interests of”
the teams “will often coincide with those of the”
NFLP “as an entity in itself, that commonality of
interest exists in every cartel.” In making the
relevant licensing decisions, NFLP is therefore
“an instrumentality” of the teams.
Am. Needle, 560 U.S. at 201 (citations omitted). Here,
by contrast, defendant hospitals are not capable of
acting on separate economic interests. All of their
profits are shared as part of the network net income.
They do not “capture individual economic benefits
separate and apart from” that income. Id. Individual
ownership of assets carries little weight when all the
economic benefit of those assets is mutually shared.
Defendant hospitals are also distinguishable from the
teams in American Needle by virtue of their decision to
cede substantial operational control over to Premier.
Consequently, there is something to prevent them from
making “[their] own market decisions” wholly “[a]part
from their agreement to cooperate in exploiting [their
individually-owned] assets.” Id. at 200.

App. 220
To the extent that asset ownership matters, it must
be evaluated as part of American Needle’s “functional
analysis,” id. at 192, which in this case directs us back
to the JOA. The JOA grants Premier substantial
control over the defendant hospitals’ individuallyowned assets—a fact the majority does not address.
Defendant hospitals are prohibited from “sell[ing],
convey[ing], transfer[ring], or otherwise dispos[ing] of
any material asset used in JOC Activities” to any entity
other than a fellow defendant hospital without
Premier’s prior approval. Further:
• It gives Premier authority to use any of
defendant hospitals’ resources, facilities, or
supplies for the system’s activities.
• Plaintiff cited no evidence to dispute
defendants’ claim that Premier has, in fact,
consolidated programs, moved equipment
between facilities, and limited procedures
occurring in certain facilities.
• The JOA also authorizes Premier to assess
costs to the hospitals for implementation of
new technologies and programs—including
building, equipment acquisition, and training
costs—and Premier exercises that authority.
Functionally, defendant hospitals own their assets in
name only, without deriving any individual benefit
from those assets. Defendants’ inability to manage
their own assets should therefore serve as another
marker of Premier’s centralized control—not a fact that
brings their corporate unification into question.

App. 221
IV.
In addition to defendants’ anticompetitive intent,
and individually-owned assets, the majority finds that
the anonymous H*Works statements are evidence “that
defendant hospitals continue to view themselves . . . as
competitors in the market.” I disagree.
Setting aside the question of admissibility, this
evidence does not create a genuine issue of material
fact. “When the moving party has carried its burden
. . . , its opponent must do more than simply show there
is some metaphysical doubt as to the material facts.”
Matsushita Elec. Indus. Co., Ltd. v. Zenith Radio Corp.,
475 U.S. 574, 586 (1986) (footnote and citation
omitted). While we may reasonably infer that the issue
of economic integration was within the scope of
employment for some of the 44 “executives and key
stakeholders” involved in the H*Works project, the
circumstances surrounding the statements do not prove
that the statements are related to that issue.
The purpose of the H*Works project was to help
Premier “devise a strategic five-year plan,” and
“analyze the role of Premier and its relationship to . . .
defendant hospitals.” (Majority opinion.) According to
plaintiff, defendants “hoped to . . . improve strategic
integration, coordination, systems thinking and market
leverage”—goals that involve more than just economic
integration. The variety of topics addressed in the
H*Works statements confirms as much; they include
thoughts on creating a more “patient centered
approach,” Premier’s need to “expand to other
communities,” and complaints from doctors that

App. 222
Premier “must answer the ‘what’s in it for me’ question
for physicians and prove it to them.”
The JOA establishes “control[] by a single center of
decisionmaking [i.e., Premier],” as well as “a single
aggregation of economic power.” Am. Needle, 560 U.S.
at 194. Defendants have therefore carried their burden
to establish an overall unity of interest. Plaintiff has
not rebutted the factual basis for defendants’ motion.
Considered in context, the H*Works statements cast no
more than a “metaphysical doubt” upon that unity.
Thus, “the record taken as a whole could not lead a
rational trier of fact to find for the non-moving party,”
and “there is no genuine issue for trial.” Matsushita,
475 U.S. at 587 (internal quotation marks omitted).
V.
Defendants’ alleged conduct in this case, if proven
at trial, is indeed anticompetitive. But the Sherman
Act does not proscribe unreasonable restraints on trade
by a single entity; “it leaves untouched a single firm’s
anticompetitive conduct (short of threatened
monopolization) that may be indistinguishable in
economic effect from the conduct of two firms subject to
§ 1 liability.” Copperweld, 467 U.S. at 775. “Congress
left this ‘gap’” purposefully, “for eminently sound
reasons.” Id. A prohibition against independent action
“that merely restrains trade . . . could deter perfectly
competitive conduct by firms that are fearful of
litigation costs and judicial error.” Am. Needle, 560
U.S. at 190 n.2. Regardless of their intent to keep
plaintiff out of the market, defendants have
demonstrated a complete unity of interest and a single
center of decisionmaking. “Unless we second-guess the

App. 223
judgment of Congress to limit § 1 to concerted conduct,”
Copperweld, 467 U.S. at 776, we are without authority
to check them.
For these reasons, I respectfully dissent. I would
affirm the judgment of the district court.

App. 224

APPENDIX H
UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF OHIO
WESTERN DIVISION
Case No. 3:12-cv-26
Judge Timothy S. Black
[Filed October 20, 2014]
________________________________
THE MEDICAL CENTER AT
)
ELIZABETH PLACE,
)
Plaintiff,
)
)
vs.
)
)
PREMIER HEALTH PARTNERS, )
et al.,
)
Defendants.
)
________________________________ )
SEALED ORDER1
GRANTING DEFENDANTS’ MOTION FOR
SUMMARY JUDGMENT AS PLAINTIFF’S

1

Pursuant to S.D. Ohio Civ. R. 79.3 and paragraph 14 of the
Stipulated Protective Order (Doc. 43), this Order contains citations
to exhibits, deposition testimony, and other documents produced
in this case that have been designated “Confidential” or “Highly
Confidential – Outside Counsels Eyes Only.” Accordingly, this
Order is docketed under seal.

App. 225
CLAIM LACKS THE NECESSARY PLURALITY
OF ACTORS (Doc. 131)
This civil action is before the Court on Defendants’
motion for summary judgment that Plaintiff’s claim
lacks the necessary plurality of actors (Doc. 131) and
the parties’ responsive memoranda (Docs. 139, 155). 2
I. BACKGROUND FACTS3
Plaintiff claims that Defendants designed and
implemented an unlawful plan to deny Plaintiff access
to supply (managed care contracts and physicians) and
demand (physician referrals) that Plaintiff needed to
compete as a 26-bed adult acute-care hospital in
Dayton, Ohio.
This alleged plan secured the cooperation and
agreement of members of the Defendants’ Joint
Operating Agreement (“JOA”) and their subsidiary
Hospitals, i.e., nearly all of the health insurers
operating in Dayton, as well as certain independent
medical professionals, with the oversight of Defendant
Premier Health Partners.
II. STANDARD OF REVIEW
A motion for summary judgment should be granted
if the evidence submitted to the Court demonstrates
2

Defendants include Premier Health Partners, Atrium Health
System, Catholic Health Initiatives, MedAmerica Health Systems
Corporation, Samaritan Health Partners, and UVMC (collectively
“Defendants”).
3

See also the parties’ undisputed facts at Doc. 131, Ex. 1 and Doc.
139, Ex. 1.

App. 226
that there is no genuine issue as to any material fact,
and that the movant is entitled to judgment as a
matter of law. Fed. R. Civ. P. 56(c). See Celotex Corp. v.
Catrett, 477 U.S. 317, 322 (1986); Anderson v. Liberty
Lobby, Inc., 477 U.S. 242, 247-48 (1986). The moving
party has the burden of showing the absence of genuine
disputes over facts which, under the substantive law
governing the issue, might affect the outcome of the
action. Celotex, 477 U.S. at 323. All facts and inferences
must be construed in a light most favorable to the
party opposing the motion. Matsushita Elec. Indus. Co.
v. Zenith Radio Corp., 475 U.S. 574, 587 (1986).
A party opposing a motion for summary judgment
“may not rest upon the mere allegations or denials of
his pleading, but . . . must set forth specific facts
showing that there is a genuine issue for trial.”
Anderson, 477 U.S. at 248 (1986).
III. ANALYSIS
Section 1 of the Sherman Act provides that “[e]very
contract, combination in the form of trust or otherwise,
or conspiracy, in restraint of trade or commerce among
the several States, or with foreign nations, is declared
to be illegal.” 15 U.S.C. § 1. Although the Sherman Act,
by its terms, prohibits every agreement “in restraint of
trade,” the United States Supreme Court recognizes
that Congress intended to outlaw only “unreasonable
restraints.” State Oil Co. v. Khan, 522 U.S. 3, 10 (1997).
[T]o establish a claim under Section 1, the
plaintiff must establish that the defendants
contracted, combined or conspired among each
other, that the combination or conspiracy

App. 227
produced adverse, anticompetitive effects within
relevant product and geographic markets, that
the objects of any conduct pursuant to that
contract or conspiracy were illegal and that the
plaintiff was injured as a proximate result of
that conspiracy.
Crane & Shovel Sales Corp. v. Buckyrus-Erie Co., 854
F.2d 802, 805 (6th Cir. 1988).
A threshold requirement of the Sherman Act is that
the challenged agreement be entered into by multiple
parties. 15 U.S.C. § 1. Conduct by a single entity is not
covered by Section 1 -- the statute applies only to joint
conduct. Copperweld Corp. v. Independence Tube Corp.,
467 U.S. 752, 767-68 (1983).
[A]n internal “agreement” to implement a single,
unitary firm’s policies does not raise the
antitrust dangers that Section 1 was designed to
police. The officers of a single firm are not
separate economic actors pursuing separate
economic interests, so agreements among them
do not suddenly bring together economic power
that was previously pursuing divergent goals.
Id. at 769.
Defendants argue that they are a single entity
incapable of conspiracy. Plaintiff maintains that a
genuine dispute exists as to whether Defendants are a
single entity for purposes of the conduct challenged
here.

App. 228
A. Ownership
First, Plaintiff maintains that Defendants are not a
single entity because they do not share ownership
assets.
In Copperweld, the Supreme Court found that a
parent and its subsidiary constituted a single entity for
purposes of Section 1 liability. 467 U.S. at 771, 777.
Plaintiff argues that the Sixth Circuit has constrained
its application of Copperweld to control that comes
from ownership. See, e.g., Total Benefits Planning
Agency, Inc. v. Anthem Blue Cross & Blue Shield, 552
F.3d 430, 435 (6th Cir. 2008). Although the Supreme
Court in Copperweld explicitly limited its holding to
the facts presented (a corporate parent and its wholly
owned subsidiary), the Supreme Court stated that
“substance, not form, should determine whether a
separately incorporated entity is capable of conspiring
under Section 1.” 467 U.S. at 773 n.21.
Federal courts have used this mantra to extend
Copperweld to situations other than that of parents
and wholly owned subsidiaries, including corporations
sharing no common corporate ownership. Indeed, the
Supreme Court precedent eschews any bright-line rule
regarding asset ownership, emphasizing function, not
form, and how the parties actually operate. Id.4

4

See also Am. Needle Inc. v. National Football League, 560 U.S.
183, 191 (2010) (“We have long held that concerted action under
Section 1 does not turn simply on whether the parties involved are
legally distinct entities. Instead, we have eschewed such
formalistic distinctions in favor of a functional consideration of

App. 229
This inquiry is sometimes described as asking
whether the alleged conspirators are a single
entity. That is perhaps a misdescription,
however, because the question is not whether
the defendant is a legally single entity or has a
single name; nor is the question whether the
parties involved “seem” like one firm or multiple
firms in any metaphysical sense. The key is
whether the alleged “contract, combination. . .,
or conspiracy” is concerted action – that is,
whether it joins together separate
decisionmakers. The relevant inquiry, therefore,
is whether there is a “contract, combination . . .,
or conspiracy” amongst “separate economic
actors pursuing separate economic interests”
such that the agreement “deprives the
marketplace of independent centers of
decisionmaking” and therefore of “diversity of
entrepreneurial interests.”
Am. Needle, Inc. v. National Football League, 560 U.S.
183, 195 (2010).
In Copperweld, the Supreme Court found that
although a parent corporation and its wholly owned
subsidiary are “separate” for the purposes of
incorporation or formal title, they are controlled by a
single center of decisionmaking and they control a
single aggregation of economic power. Joint conduct by
two such entities does not “depriv[e] the marketplace of
independent centers of decisionmaking,” and, as a

how the parties involved in the alleged anticompetitive conduct
actually operate.”).

App. 230
result, an agreement between them does not constitute
a “contract, combination . . . or conspiracy” for the
purposes of Section 1. 467 U.S. at 769.
Because the inquiry is one of competitive reality,
it is not determinative that two parties to an
alleged Section 1 violation are legally distinct
entities. Nor, however, is it determinative that
two legally distinct entities have organized
themselves under a single umbrella or into a
structured joint venture. The question is
whether the agreement joins together
“independent centers of decisionmaking.”
Id. If it does, the entities are capable of conspiring
under Section 1, and the court must decide whether the
restraint is an unreasonable and therefore illegal one.”
Am Needle, Inc., 560 U.S. at 196.5
5

Plaintiff argues that American Needle rejected the two arguments
Defendants advance: (1) that contractual control is sufficient to
demonstrate that the Defendants are a single entity; and (2) the
analysis involves a single binary choice as to the enterprise as a
whole and in all circumstances. This Court finds, however, that
Plaintiff misinterprets American Needle, which held that “it is not
dispositive that the teams have organized and own a legally
separate entity that centralizes the management of their
intellectual property . . . . Because the inquiry is one of competitive
reality, it is not determinative that two parties to an alleged § 1
violation are legally distinct entities. Nor, however, is it
determinative that two legally distinct entities have organized
themselves under a single umbrella or into a structure joint
venture. The question is whether the agreement [i.e., the alleged
conspiracy] joins together ‘independent centers of decision
making.’” Id. at 197 (emphasis added). See, e.g., City of Mt.
Pleasant, Iowa v. Associated Elec. Coop., Inc., 838 F.2d 268, 275
(8th Cir. 1988) (“The thrust of the holding [in Copperweld] is that

App. 231
For example, in Healthamerica Pennsylvania, Inc.
v. Susquehanna Health Sys., the defendant hospitals
entered into the Alliance Agreement (akin to the JOA)
forming the non-profit organization Alliance to manage
the delivery of their healthcare services (akin to
Premier). 278 F. Supp. 2d 423, 427-28 (M.D. Penn. July
2, 2003).6 Due to the religious affiliation of one hospital
(like Good Samaritan Hospital (“GSH”) in the Premier
health system), the hospitals did not merge, and “[e]ach
party to the Alliance Agreement retain[ed] its
respective separate legal identity and the ownership of
all of its assets, real and personal, tangible and
intangible, and . . . continue[d] to be governed by its
respective Board of Directors subject to. . .the Alliance
Agreement.” Id. at 428, 435 n.8. After the “Alliance
Agreement, [the hospitals] and their Affiliates ceased
being competitors.” Id. at 427. Plaintiff’s argument that
Defendants are not a single entity mirrors the losing
argument from the plaintiff in Susquehanna:
“[Plaintiff] HealthAmerica asserts that Copperweld is
inapplicable because the Alliance is nothing more than
a joint operating agreement created by separate and
independent hospital systems.” Id. at 433.7

economic reality, not corporate form, should control the decision of
whether related entities can conspire.”).
6

Despite the fact that Susquehanna is strikingly analogous to the
instant case, Plaintiff fails to even mention it in its briefing.
7

Another example is Sunkist Growers, Inc. v. Winckler & Smith
Citrus Products Co., 370 U.S. 19 (1962), where several agricultural
cooperatives that were owned by the same farmers were sued for
violations of Section 1 of the Sherman Act. Id. at 24-25. The
Supreme Court held that the three cooperatives were “in practical

App. 232
Like in Susquehanna, the JOA Participants
retained title (ownership) of their assets, and the
parties did not technically merge, in order to allow
Samaritan Health Partners (“SHP”) and GSH to retain
their Catholic identity, but delegated operational,
strategic, and financial control to Premier. 278 F. Supp.
2d at 435 n. 8. (See also Doc. Doc. 131, Ex. 7 (JOA) at
§§ 3.1, 7.4). Accordingly, contractual control is
sufficient to demonstrate that the Defendants are a
single entity. The fact that Premier is “a corporate shell
with no assets, income, expenses, or liability [and]
[t]hus, there is no shared ownership of assets used in
the Joint Venture” is immaterial and does not create a
genuine dispute of material fact.
B. Actual and Potential Competitors
Next, Plaintiff argues that Defendants are “actual
and potential competitors,” so they cannot be a single
entity. Finding parties to be “actual and potential
competitors” for Section 1 purposes requires the alleged
conspiracy to be “amongst separate economic actors
pursuing separate economic interests, such that the
agreement deprives the marketplace of . . . actual or
potential competition.” Am. Needle, 560 U.S at 195.
Specifically, Plaintiff argues that a project related
to the creation of Defendants’ 2010-2015 Strategic Plan

effect” one “organization,” even though the controlling farmers
“have formally organized themselves into three separate legal
entities.” Id. at 29. “To hold otherwise would be to impose grave
legal consequences upon organizational distinctions that are of de
minimis meaning and effect” insofar as “use of separate
corporations had [no] economic significance.” Id.

App. 233
(“the H*Works Project”), exposed the fact that
Defendants wanted to become more than an
“‘aggregation of parts’ and to advance toward a
structure characterized by more strategic integration,
coordination, ‘systems thinking,’ and market leverage.”
(Doc. 143, Ex. 36 at 3). Pearce Fleming, the H*Works
consultant handling the project, was a neutral
facilitator in a number of live group interviews
involving some of Defendants’ senior management.8
Mr. Fleming asked participants sets of open-ended
questions in a group interview setting. (Doc. 128, Ex.
16 at 25-26, 53, 206). The individual responses during
those group interviews were recorded in part in Mr.
Fleming’s handwritten notes. (Id. at 35-36, 53, 136,
203, 206). All of the statements upon which Plaintiff
relies are from Mr. Fleming’s handwritten notes. (Id.)
Plaintiff maintains that the commentary given by
senior management relates to the issue of separateness
and the competitive dynamic among the hospitals. For
example, the first statement in Fleming’s notes is: “We
do compete with each other. Collaboration is nice to
have but not a mandate.” (Doc. 143, Ex. 39 at 1). Based

8

The group interviews involved a sample of people affiliated with
Premier’s Board of Trustees, Premier Corporate Services, and
Defendant Hospitals UVMC, Atrium, GSH, and MVH. Mary
Boosalis, Premier COO, testified that the interviewees included:
the vice president of operations, the chief medical officer, the chief
of staff for the physicians, a MVH board member, “an orthopod
who was in active practice at Miami Valley,” a neurointerventionlist, the vice president of nursing, a person in finance,”
an obstetrician, a cardiologist, and an emergency room doctor from
a third-party entity that contracted with MVH for emergency room
services. (Doc. 128, Ex. 4 at 139-44).

App. 234
on the group interviews, Fleming presented Key
Findings, including:
• “PHP partners do not collaborate or act as a
system today, more often PHP partners find
themselves competing with each other”
• “PHP does not have an identity as a
collaborative group, rather act as a confederacy
that collaborates in a few area (i.e., supplies,
financing/access to capital, electronic medical
records)”
• “PHP does not think of itself as integrated
organization”
• “Fear [of] the smaller hospitals that the larger
Dayton based hospitals will ‘steal’ the patients if
they are referred to services”
• “It is easier to compete with each other than
with PHP competitors”
• “PHP Partners compete with each other for
market share”
(Doc. 144, Ex. 8 at 8-9).
However, these excerpts reflect incomplete,
anonymous personal opinions given orally and
spontaneously in response to Mr. Fleming’s questions.
(Doc. 128, Ex. 16 at 14-15, 142, 206-08, 223). The
statements do not provide any indication whether the
anonymous speaker held an informed opinion on the
topic, and they lack any context or qualifications that
may have been part of the statements. (Id. at 207-09,
223). The incomplete statements are inadmissible,

App. 235
anonymous hearsay and speculation that cannot defeat
a well-supported motion for summary judgment.
Jacklyn v. Schering-Plough Healthcare Prods. Sales
Corp., 176 F.3d 921, 927-28 (6th Cir. 1999).9
For example, in Wesley Health Sys. v. Forrest
County Bd. of Supervisors, the plaintiff offered
employee testimony to show that defendants were not
a single entity. No. 2:12cv59, 2014 U.S. Dist. LEXIS
7764, at *30-31 (S.D. Miss. Jan. 22, 2014). However,
the court found that the employees’ statements
regarding their understanding of the defendants’
relationship were “not sufficient to create a genuine
factual dispute over [defendant hospital’s] control of
[defendant ambulance company.] Most of it is
inadmissible hearsay or speculation.” Id. at 31. “At
best, these witnesses were guessing as to [defendant
hospital’s] control of [defendant ambulance company].”
Id. The evidence here is even more speculative than in
Wesley, because the statements in Wesley were not
anonymous; instead, they were from defendant’s CEO
and several of the defendant’s employees. Id. at 30-31.
Ultimately, the facts anonymously alleged here, even
if true, are immaterial because it is the economic
integration of Defendants, not the form, that is
determinative for the antitrust analysis.
Although Premier’s members previously competed
with one another, they ceased competing upon joining

9

See also Pearce v. Faurecia Exhaust Sys., Inc., 529 F. App’x 454,
458 (6th Cir. 2013) (“[c]onclusory allegations, speculation, and
unsubstantiated assertions are not evidence, and are not enough
to defeat a well-supported motion for summary judgment”).

App. 236
Premier and becoming subject to Premier’s control.
Susquehanna, 278 F. Supp. 2d at 427. Since
Defendants are a single, unified economic unit,
regardless of a perception of, or even actual, intracorporate competition, Defendants are not and cannot
be “actual or potential [economic] competitors.” Am.
Needle, 560 U.S. at 195, 197 (the key issue is whether
the members of the firm are “pursuing separate
economic interests” such that “agreements among them
. . . suddenly bring together economic power that was
previously pursuing divergent goals.”).
Here, Defendants are not competitors because they
are not separate economic actors – all of the money
goes to one bottom line – the Network Net Income.10
See, e.g., Texaco Inc. v. Dagher, 547 U.S. 1, 6 (2006)
(although General Motors’ separate divisions compete
with one another in a colloquial sense (Buick v.
Chevrolet), there is no actual or potential competition
in an antitrust sense because there is only one
economic actor – GM). The conduct here in the instant
case is akin to the conduct that the Supreme Court
stated in American Needle is not covered by Section 1:
“internally coordinated conduct of a corporation and
one of its unincorporated divisions, because a division
within a corporate structure pursues the common
interests of the whole, and therefore coordination
between a corporation and its division does not

10

(See also Doc. 129, Ex. 1 at ¶¶ 11-12 (all income or loss from all
activities is combined into a single net income, i.e., one bottom line
– the Network Net Income); Doc. 131, Ex. 2 (JOA) at § 1.31
(defining “Network Net Income” as the combined net income from
Premier and all Hospital participants for all system activities).

App. 237
represent a sudden joining of two independent sources
of economic power previously pursuing separate
interests.” 560 U.S. at 195-196. In American Needle,
the 32 NFL teams each had distinct economic interests
and corporate consciousnesses, while Defendants here
have a unity of economic interests (Network Net
Income) whose actions are guided or determined by one
corporate consciousness.
C. Public Disclosures of Separateness
Next, Plaintiff argues that Defendants made
statements in public disclosures that support a finding
that Defendants are separate.
1. IRS Form 990s
Plaintiff argues that according to Defendants’ Form
990s, Premier is a corporate shell with no assets,
income, expenses, or liability. (Doc. 147, Ex. 1 at
Premier 0 0 10 0 8 0 6 -2 8 (2 006); Ex. 2 at
Premier00101268-88 (2007); Ex. 4 at Premier
00101640-68 (2008); Ex. 7 at Premier 00101987-2020
(2009); Ex. 11 at Premier 00102374-406 (2010); and Ex.
14 at Premier 00102813-52 (2011)). Specifically,
Plaintiff points out that MedAmerica’s subsidiary,
Miami Valley Hospital (“MVH”), stated in its 2005
Form 990 that the current JOA members – CHI,
MedAmerica, and AHS “have agreed to jointly operate
separate healthcare systems pursuant to the terms of
a joint operating agreement.” (Doc. 146, Ex. 30 at
Premier 00100511) (emphasis added). However, the
Court finds that this brief summary description in tax
documents, which refers and defers to the JOA, fails to
show that Defendants do not function as a unified

App. 238
economic actor. See, e.g., Am. Needle, 560 U.S. at 196
(“The NFL teams do not possess either the unitary
decision making quality or the single aggregation of
economic power characteristic of independent action.
Each of the teams is a substantial, independently
owned, and independently managed business.”). The
JOA itself, and how the parties actually function under
the JOA, are what controls. Susquehanna, 278 F. Supp.
2d at 435 (“Although the organizational form employed
here is unique, the court finds that the Alliance
functions as a single entity.”).
Next, Plaintiff alleges that the Form 990s state that
Defendants give an incentive bonus for executives that
is based in part on “Individual Objectives or
Outcomes.” (Doc. 143, Ex. 10 at Premier 00101877).
Each executive has a scorecard used to determine
incentive bonuses and one component of the scorecard
involves financial performance, which includes
assessment of the individual hospital’s financial
performance. (Doc. 128, Ex. 29 at 21-23). Although the
incentive may create internal competition, all of the
money earned goes to the Network Net Income, so
hospital performance does not affect the percentage of
the Network Net Income allocated to the Defendants.
(Id. at 22, 102-103).
Accordingly, the IRS Form 990s do not establish a
disputed issue of fact regarding Defendants’ status as
a unified economic actor.
2. Statements in Bond Documents
Next, Plaintiff argues that Defendants are separate
actors because in the 2011 offering for $100 million in

App. 239
revenue bonds, MedAmerica disclosed that the bond
proceeds were solely for the benefit of MVH and that
only MedAmerica and MVH would be obligated under
the bonds. (Doc. 148, Ex. 15 at Premier 217151). The
bond memorandum also disclosed that “[b]oth the
[Miami Valley] Hospital and the other parties to the
JOA continue to own their respective assets and to
remain liable for their respective liabilities including
their long-term debt.” (Id.) While these statements are
undisputed, as the operator, Premier must authorize
the debt. (Doc. 139, Ex. 1 at 17, ¶ 14) (admitted by
Plaintiff) (the JOA makes Premier the operator for the
system’s activities and gives Premier the power and
authority over all system activities). Specifically:
(a) Premier has, and exercises, control over the
Defendants’ debt incurrence, including this specific
MedAmerica bond; (b) Premier controls Defendants’
financial plan; and (c) Premier may use any resources,
facilities, or supplies of any of the Defendants for
system activities. (Id.)
Since the bonds were issued for improvements at
MVH, all of the Defendants will benefit from the
improvements because there is only one bottom line -the Network Net Income. The bond proceeds are part
of “non operating income or loss” and therefore subject
to the Allocation of Network Net Income for the system.
(Doc. 131, Ex. 2). The bond memorandum explains that
“the net income or loss derived from the operations
managed by Premier (together with non-operating
income or loss) is apportioned between [JOA members]
in accordance with a formula set forth in the JOA.”
(Doc. 148, Ex. 15 at Premier217200). Additionally, the
Defendants work together to ensure that each meets its

App. 240
bond requirements. For example, MedAmerica
guaranteed Atrium’s bond obligations. (Doc. 139, Ex. 1
at 27-28, ¶ 33). Susquehanana involved a similar
scenario: “While the hospitals technically have
separate bond covenants, they work together to ensure
that each meets the requirements of its own bond
covenant.” 278 F. Supp. 2d at 435.
The managed care function that is at the heart of
Plaintiff’s allegations is wholly controlled by Premier.
Plaintiff admits that Premier: (1) negotiates and enters
into payor contracts that bind all of the Hospital
Participants (Doc. 155, Ex. A at ¶¶ 28-30); and
(2) manages all relationships with payors, including all
managed care companies (Id.) In fact: (1) Premier
allocates the system’s income and losses to the
hospitals’ four parent holding companies based upon
the JOA’s predetermined formula, with all of the
income or loss from all of the Defendants’ system
activities being combined into a single net income (i.e.,
one bottom line, the Network Net Income) (Doc. 155,
Ex. A at ¶¶ 9-12); (2) the combined net income is
allocated each year based upon the pre-determined
percentage shares in the JOA, independent of the
particular revenue or profitability of any single
Hospital Participant (Id., Ex. A at ¶¶ 9-13); (3) Premier
develops and approves the strategic planning, business
plans and budgets for all the Hospital Participants, and
the Hospital Participants must comply with and
implement those plans and budgets, and the strategic
planning and budgeting for all of the Hospital
Participants are combined (Id., Ex. A at ¶¶ 19-23); and
(4) Premier assesses costs to the hospitals for
implementing new technologies and programs (and

App. 241
those costs are shared by the hospitals) (Id. at ¶ 31).
Accordingly, the JOA is structured and functions such
that Premier and the Hospital Participants are one
economic actor, with Premier in control of the health
system’s relevant decision making and activities.
For example, in Wesley, 2014 U.S. Dist. LEXIS
7764, the court found that the facts were sufficient to
show that, under both their agreement and in practice,
the defendant hospital and defendant ambulance
company were a single economic unit and the hospital
controlled the ambulance company. The court held that
“the alleged conspirators must be ‘separate economic
actors pursuing separate economic interests’” in order
to be capable of conspiring under Section 1. Id. at 27.
The court found “there is no genuine issue of material
fact as to whether [defendant hospital] and [defendant
ambulance company] constitute ‘separate economic
actors pursuing separate economic interests.’ The
evidence demonstrates that [hospital] controls [the
ambulance company]. They are, therefore, incapable of
conspiring under Section 1 of the Sherman Act.” Id. at
33 (quoting Am. Needle, 560 U.S. at 196). Similarly,
Plaintiff fails to offer any material facts to prove that
Defendants “constitute separate economic actors
pursuing separate economic interests,” or that Premier
does not control the Defendants with respect to the
alleged conspiracy. Plaintiff has admitted or failed to
deny the facts that show Premier and the Hospital
Participants are one economic actor controlled by
Premier.

App. 242
D. Conduct
Plaintiff also argues that the evidence documents
conduct in the market that supports a finding of
separateness among the Defendants.
Specifically, Plaintiff argues that when the contract
with MVH and GSH expired, Premier kept Atrium’s
contract with Anthem, which was separate, in place.
(Doc. 128, Ex. 33 at 41-42). Anthem contracts
separately with MVH and GSH, UVMC, and Atrium.
(Doc. 146, Ex. 17 at Premier 00049063-49065). In fact,
Defendants 2011 negotiation strategy with Anthem
included determining “which PHP entities are included
in the negotiations. . .hospitals, subsidiaries, joint
ventures, primary care physicians, specialists?” (Doc.
146, Ex. 21). However, simply because a contract is in
the name of a Defendant does not mean that the
Defendant is separate from the Premier system for
purposes of a Section 1 analysis. For example, once
Atrium joined the JOA, the income stemming from its
Anthem contract – whether in the name of Premier,
Atrium, or any other Defendant – becomes Network
Net Income under the JOA and is annually distributed
to all Defendants pursuant to the JOA’s formula. (Doc.
155, Ex. A at ¶¶ 28-29) (Plaintiff admitted that
Premier negotiates and manages all relationships with
payers).
Next, Plaintiff argues that a September 22, 2010
internal GSH document acknowledges that
“historically and through today, all system hospitals
operated independently regarding orthopedic strategy.”
(Doc. 146, Ex. 5 at Premier 00005390). Furthermore,
Plaintiff argues that the May 27, 2004 minutes from

App. 243
the MRH (Atrium) Board of Directors meeting state
that the medical staffs at each Defendant Hospital
“remain separate, with individual credentialing
processes taking place at each individual hospital.”
(Doc. 148, Ex. 9 at Premier 00176425-176426).
However, these documents only show that the
Hospitals’ orthopedic plans were not the same and that
the Hospitals’ medical staffs are separate and have
individual credentialing processes. This case involves
managed care contracting, not orthopedic strategy, and
the undisputed evidence supports a finding that
Premier has the ultimate control over these activities,
including developing and overseeing implementation of
the strategic plans, budgets, and business plans of the
system and the Defendants. Moreover, in accordance
with the JOA, decisions on medical staff admission,
privileges, and memberships are still subject to the
credentialing criteria approved by Premier’s board, and
Premier has the authority to consolidate the medical
staffs. (Doc. 131, Ex. 7 (JOA) at §§ 5.1(h), 6.4). 11
Plaintiff also argues that a 2005 internal GSH
report states: “Good Samaritan, a Catholic non-profit
hospital, has multiple affiliations. On a national level,
the Hospital is a member of Catholic Health Initiatives
(CHI) . . . . On a local level, the hospital is part of SHP
[which CHI wholly owns]. In addition, GSH is a
member of Premier Health Partners, which is a joint
operating company with Miami Valley Hospital.” (Doc.
146, Ex. 19 at Premier 52178). Still, this report does

11

Copperweld emphasized that there does not need to be complete
control of decision making by one party – instead, certain authority
and tasks can be given to autonomous units. 467 U.S. at 771.

App. 244
not refute any of the admitted facts that demonstrate
that Defendants are controlled by a single center of
decision making.
Finally, Plaintiff argues that courts have repeatedly
found instances in which members of a legally single
entity violated Section 1 when the entity was controlled
by a group of competitors and served, in essence, as a
vehicle for ongoing concerned activity. For example, in
United States v. Sealy, Inc., 388 U.S. 350 (1967), a
group of mattress manufacturers operated and
controlled Sealy, Inc., a company that licensed the
Sealy trademark to the manufacturers, and dictated
that each operate within a specific geographic area. Id.
at 352-353. The Court explained that although Sealy
“should be considered a single entity as to the functions
provided by Sealy associated with the R&D and
national promotion of the product” the Supreme Court
considered the challenged conduct – the exclusive
territory each manufacturer received – a function with
relation to the shared assets and therefore not a single
entity. Id. at 354. However, Sealey is distinguishable
because, like in American Needle, the defendants had
separate economic interests. The issue was whether
Sealy (a licensor to sell products under the Sealy
brand) conspired with its licensees to allocate exclusive
territory among its licensees. Sealey, 388 U.S. at 351.
The Supreme Court found that the territorial
arrangements were among the licensees, not Sealy,
because it was the licensees “who, through select
members, guaranteed or withheld and had the power
to terminate licenses for inadequate performance.” Id.
at 353-54. The Court referenced Sealy’s lack of control
over the individual licensees, noting how a licensee

App. 245
“could make and sell his private label products
anywhere he might choose” and it “appears, without
resale price collaboration or enforcement.” Id. at 352,
357 n.3. Therefore, Sealy did not have control over the
operation so that individual licensees pursued separate
economic interests.
Unlike the facts in Sealy, Premier controls the
Defendants’ operations, and GSH, for example, is not
allowed to “make and sell” services outside of Premier
whenever and wherever it chooses. In fact, it cannot
“sell” any services outside of Premier, and all of its
profits and losses must go to Premier and are allocated
to the hospital divisions based upon the formula in the
JOA, i.e., the Allocation of Network Net Income. (Doc.
155, Ex. A at ¶¶ 9-12 (admitted by MCEP); Doc. 131,
Ex. 7 (JOA) at § 7.2 (Allocation of Network Net
Income).
Accordingly, Defendants’ conduct in the market
does not support a finding of separateness.
E. Joint Venture
Finally, the evidence supports a finding that
Premier is a joint venture. A joint venture between two
competitors is a single entity for antitrust purposes.
Dagher, 547 U.S. at 6. “When ‘persons who would
otherwise be competitors pool their capital and share
the risks of loss as well as the opportunities for profit
. . . such joint ventures [are] regarded as a single firm
competing with other sellers in the market.’” Id. (“the
pricing policy challenged here amounts to little more
than the price setting by a single entity—albeit within
the context of a joint venture—and not a pricing

App. 246
agreement between competing entities with respect to
their competing products”). See also Stanislaus Food
Products Co. v. USS-POSCO Indus., No. 09-0560, 2010
U.S. Dist. LEXIS 92236, at *56, 60-62, 96 (E.D. Cal.
Sept. 3, 2010) (recognizing that Dagher “extended
Copperweld to joint ventures,” and granting
defendants’ motion to dismiss because “[a]n
economically integrated joint venture is a ‘single entity’
under Copperweld which is incapable of ‘conspiring’ for
purposes of the Sherman Act.”). Like in Dagher,
Defendants, through the JOA, “agreed to pool their
resources and share the risks of and profits from [the
system’s] activities.” 547 U.S. at 3, 6 (“Throughout [the
joint venture’s] existence, [defendants] shared in the
profits of [the joint venture’s] activities in their role as
investors, not competitors.”).
Not only is Premier a legitimate joint venture, but
the challenged conduct in this case — managed care
contracting and physician relations —is a core function
of the Premier health system. Id. at 6 (“the pricing
policy challenged here amount to little more than the
price setting by a single entity—albeit within the
context of a joint venture—and not a pricing agreement
between competing entities with respect to their
competing products”). Since a “single entity” is
incapable of conspiring for purposes of the Sherman
Act, Plaintiff’s claim fails as a matter of law.
IV. CONCLUSION
Accordingly, for these reasons, Defendants’ motion
for summary judgment that Plaintiff’s claim lacks the
necessary plurality of actors (Doc. 131) is GRANTED.
Since Plaintiff has failed to meet the threshold

App. 247
requirement—that the challenged agreement be
entered into by multiple parties — Plaintiff’s antitrust
claim fails as a matter of law. There is no genuine
dispute as to any material fact, and Defendants are
entitled to entry of judgment as a matter of law. The
Clerk shall enter judgment accordingly, whereupon
this case shall be CLOSED in this Court.12
IT IS SO ORDERED.
Date: 10/20/14

12

s/ Timothy S. Black
Timothy S. Black
United States District Judge

The outstanding motions for summary judgment (Docs. 129, 130,
132, 133) are terminated as moot, as is Defendants’ motion to
continue the trial date (Doc. 161).

App. 248

APPENDIX I
UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF OHIO
WESTERN DIVISION
Case No. 3:12-cv-26
Judge Timothy S. Black
[Filed August 30, 2012]
________________________________
MEDICAL CENTER AT
)
ELIZABETH PLACE, LLC,
)
)
Plaintiff,
)
)
vs.
)
)
PREMIER HEALTH PARTNERS, )
et al.,
)
)
Defendants.
)
________________________________ )
ORDER THAT DEFENDANTS’ MOTION TO
DISMISS (Doc. 22) IS DENIED
This civil action is currently before the Court on
Defendants’1 motion to dismiss (Doc. 22) and the
1

Defendants include Premier Health Partners and its hospital
affiliates: Atrium Health Systems, Catholic Health Initiatives
(“CHI”), MedAmerica Health Systems, Samaritan Health Partners,

App. 249
parties’ responsive memoranda (Docs. 29, 30).2
Defendants allege that Plaintiff’s3 Amended Complaint
should be dismissed pursuant to Fed. R. Civ. P.
12(b)(6), for failure to state a claim.
Specifically, Plaintiff alleges that the Hospital
Defendants conspired through their shared managing
agent, Premier, to orchestrate a per se illegal group
boycott against it. Defendants’ motion to dismiss relies
on three arguments: (1) as a matter of law, Plaintiff’s
group boycott claim does not qualify for per se
treatment; (2) Plaintiff has failed to allege an antitrust
injury; and (3) Defendants are a single entity, and thus
incapable of conspiring.
I. FACTS ALLEGED BY THE PLAINTIFF
For purposes of this motion to dismiss, the Court
must: (1) view the complaint in the light most favorable
to the Plaintiff; and (2) take all well-pleaded factual

and Upper Valley Medical Center (“UVMC”) (collectively, “Hospital
Defendants”).
2

Defendants request oral argument on this motion. (Doc. 30). The
Court finds, however, that the pleadings are clear on their face and
that oral argument is not necessary. See Local Rule 7.1(b)(2): “oral
argument [will be granted] where deemed to be essential to the fair
resolution of the case because of its public importance or the
complexity of the factual or legal issues presented.” See also
Whitescarver v. Sabin Robbins Paper Co., Case No. C-1-03-911,
2006 U.S. Dist. LEXIS 51524, at *7 (S.D. Ohio July 27, 2006) (C.J.
Dlott) (“Local Rule 7.1(b)(2) leaves the Court with discretion
whether to grant a request for oral argument.”).
3

Plaintiff is The Medical Center at Elizabeth Place (“MCEP”).

App. 250
allegations as true. Tackett v. M&G Polymers, 561 F.3d
478, 488 (6th Cir. 2009). Plaintiff alleges as follows:
MCEP opened in 2006 and operates a 26-bed
physician-owned hospital in Dayton, Ohio. (Doc. 7 at
¶ 2). MCEP recently sold an ownership interest to
Kettering Health Network (“Kettering”), a major
competing hospital system in the area, in order to
obtain access to Kettering’s managed care contracts.
(Id. at ¶¶ 63, 78). MCEP accounts for less than 4
percent of the general inpatient medical and surgical
services market in the Dayton area. (Id. at ¶¶ 2, 62,
63).
MCEP’s competitors for the provision of general
surgical services included the hospitals owned by the
Hospital Defendants. (Doc. 7 at ¶ 29). The Hospital
Defendants view hospitals like MCEP as competitive
threats because they “attract away an important
segment” of surgical specialists, which results in
revenue declines for the Hospital Defendants. (Id. at
¶ 68).
At the time MCEP began operating in the greater
Dayton area, the Hospital Defendants had a collective
market share of general inpatient surgical services that
approached 55 percent. (Doc. 7 at ¶ 43, 46). In May
2006, CHI sent a letter to doctors who were considering
an investment in MCEP, and in that letter CHI
claimed incorrectly that MCEP violated federal and
state law. (Id. at ¶ 67).
MCEP claims that Premier prohibited managed
care plan providers, representing in excess of 70
percent of insured individuals in Dayton, from

App. 251
contracting with MCEP to service those subscribers.
(Doc. 7 at ¶¶ 74, 75). Additionally, MCEP previously
orchestrated a boycott by plan providers of Dayton
Heart Hospital that forced Dayton Heart Hospital to
sell out to CHI. (Id. at ¶¶ 72, 73). Even then, CHI, as
part of the conspiracy against MCEP, conditioned the
receipt of the sales proceeds by Dayton Heart’s owners
on a commitment by those doctors not to associate with
MCEP if it began to offer competitive cardiac services.
(Id. at ¶ 72).
In furtherance of this conspiracy, MCEP alleges
that the Hospital Defendants, through Premier,
committed at least the following overt acts directed at
MCEP:
(a)

coercing, compelling, co-opting or financially
inducing commercial health insurers or
managed care plan providers, including
Anthem, UnitedHealthcare, Private
Healthcare Systems, HealthSpan, Humana,
Aetna, Cigna, and Medical Mutual of Ohio to
refuse to permit MCEP full access to their
respective networks;

(b)

threatening punitive financial consequences
to physicians who affiliated with MCEP and
following through on punitive measures
against physicians who did affiliate with
MCEP, including terminating leases that the
physicians had with the Defendants for office
space;

App. 252
(c)

offering payments to physicians who agreed
not to work with or at MCEP, and who
agreed to divest ownership in MCEP;

(d)

coercing, compelling, co-opting or financially
inducing physicians affiliated with or
employed by the Hospital Defendants from
becoming members of MCEP, admitting
patients to MCEP, or referring patients to
physicians who treated patients at MCEP;

(e)

hiring as employees key physicians affiliated
with MCEP who accounted for a
disproportionately high number of
admissions and then prohibiting them from
admitting patients to MCEP; and

(f)

coercing, compelling, co-opting or financially
inducing commercial health insurers or
m ana g ed ca r e p l ans t o prov i de
reimbursement rates that were below market
and below the rates and on different terms
from what the Hospital Defendants
demanded for the exact same services.

(Doc. 7 at ¶ 74).
MedAmerica Health Systems and Sisters of Charity
Health Care, Inc. formed Premier by entering into the
JOA in 1995. (Doc. 7 at ¶ 39). MedAmerica is the
parent of Miami Valley Hospital; in 1995, Sisters of
Charity was the parent of Samaritan Health Partners
(Good Samaritan Hospital’s parent). (Id. at ¶¶ 4, 7).
The two hospital systems had planned to merge, but
they abandoned the merger in favor of the JOA because
Good Samaritan Hospital could not merge its assets

App. 253
with a non-Catholic institution as a matter of Church
principles. (Id. at ¶¶ 38-40). Sisters of Charity later
assigned its JOA rights to Catholic Health Initiatives,
which is now the parent of Samaritan Health Partners.
(Id. at ¶¶ 4, 42). Atrium Health System (the parent of
Atrium Medical Center) joined the JOA in 2005; UVMC
(the parent of Upper Valley Medical Center) did so in
2008. (Id. at ¶¶ 44, 46). The Hospital Defendants are
the sole corporate members of Premier. (Id. at ¶ 3).4
Premier, through the Hospital Defendants, operates
the four hospitals. (Id. at ¶¶ 4-5, 7, 9-12, 14).
Specifically, the Hospital Defendants collaboratively
operate “certain aspects of” their hospitals through the
JOA. (Id. at ¶¶ 47, 48, 51). The Hospital Defendants
“share some functions” and “jointly operate separate
health care systems.” (Id. at ¶¶ 48, 51). Premier, in
turn, supports the hospitals in their health care
operations. (Id. at ¶ 3). For example, Premier manages
the hospitals’ relationships with managed care
providers. (Id. at ¶ 60). The Hospital Defendants have
also consolidated revenues through the JOA. (Id. at
¶¶ 3, 49).
MCEP alleges that the Hospital Defendants, acting
through Premier, conspired to eliminate MCEP from
the market. (Id. at ¶¶ 61,69, 73, 76). According to
MCEP, Premier coerced managed care plan providers
to refuse to permit MCEP access to those plans’
4

A “member” of a not-for-profit entity is the equivalent of a
shareholder of a for-profit company. Ohio Rev. Code §§ 1702.01(G),
l702.04(B)(5), 1702.11, 1702.13. Therefore, if Premier were a forprofit company, the Hospital Defendants would be its only
shareholders.

App. 254
networks or to reimburse MCEP at below market rates;
Premier also allegedly induced physicians not to
affiliate with MCEP. (Id. at ¶ 74). MCEP has been
“prevented and/or delayed . . . access to managed care
contracts” (id. at ¶ 90), and “has been largely foreclosed
from the relevant market” (id. at ¶ 80).
II. STANDARD OF REVIEW
A motion to dismiss pursuant to Rule 12(b)(6)
operates to test the sufficiency of the complaint.5 Rule
12(b)(6) permits dismissal of a complaint for “failure to
state a claim upon which relief can be granted.” Fed. R.
Civ. P 12(b)(6). The complaint must contain a “short
and plain statement of the claim showing that the
pleader is entitled to relief.” Fed. R. Civ. P. 8(a). The
plaintiff’s ground for relief must entail more than
“labels and conclusions, and a formulaic recitation of
the elements of a cause of action will not do.” Bell
Atlantic Corp. v. Twombly, 550 U.S. 544, 555 (2007).
The first step in testing the sufficiency of the
complaint is to identify any conclusory allegations.
Ashcroft v. Iqbal, 129 S.Ct. 1937, 1950 (2009).
“Threadbare recitals of the elements of a cause of
action, supported by mere conclusory statements, do
not suffice.” Id. at 1949 (citing Bell Atl. Corp. v.
Twombly, 550 U.S. 544, 555 (2007)). That is, “a
plaintiff’s obligation to provide the grounds of [his]
entitlement to relief requires more than labels and
5

Traditionally, courts have held that a motion to dismiss under
Fed. R. Civ. P. 12(b)(6) for failure to state a claim is viewed with
disfavor and is rarely granted. Nuchols v. Berrong, 141 Fed. Appx.
451, 453 (6th Cir. 2005).

App. 255
conclusions, and a formulaic recitation of the elements
of a cause of action will not do.” Twombly, 550 U.S. at
555. Although the court must accept well-pleaded
factual allegations of the complaint as true for purposes
of a motion to dismiss, the court is “not bound to accept
as true a legal conclusion couched as a factual
allegation.” Id.
After assuming the veracity of all well-pleaded
factual allegations, the second step is for the court to
determine whether the complaint pleads “a claim to
relief that is plausible on its face.” Iqbal, 129 S. Ct. at
1949, 1950 (citing Twombly, 550 U.S. at 556, 570). A
claim is facially plausible when the plaintiff “pleads
factual content that allows the court to draw the
reasonable inference that the defendant is liable for the
misconduct alleged.” Id. at 1949 (citing Twombly, 550
U.S. at 556).
III. ANALYSIS
The Amended Complaint asserts a single per se
violation of Section 1 of the Sherman Act. Section 1
outlaws “[e]very contract, combination in the form of
trust or otherwise, or conspiracy, in restraint of trade
or commerce among the several States, or with foreign
nations.” 15 U.S.C. § 1. To survive the motion to
dismiss, Plaintiff must allege that: “(1) two or more
entities engaged in a conspiracy, combination, or
contract, (2) to effect a restraint or combination
prohibited per se (wherein the anticompetitive effects
within a relevant geographic and product market are
implied), (3) that was the proximate cause of [MCEP’s]
antitrust injury.” Expert Masonry, Inc. v. Boone Cnty.,
440 F.3d 336, 342-43 (6th Cir. 2006).

App. 256
Defendants claim three separate and independent
reasons require dismissal of the Amended Complaint:
(1) Plaintiff’s group boycott claim does not qualify for
per se treatment; (2) Plaintiff failed to allege antitrust
injury; and (3) Defendants are a single entity and thus
incapable of conspiring. The Court will address each
argument in turn.
A. Per Se Theory v. Rule of Reason
There are two modes of analysis for determining
whether a challenged restraint unreasonably restrains
trade under Section 1 – the rule of reason and the per
se rule.6 The rule of reason is the prevailing standard
of analysis and the per se rule is the exception, limited
only to certain kinds of horizontal agreements7 that are
“plainly anticompetitive” and likely to have no
“redeeming virtue.” Broad. Music, Inc. v. CBS, Inc., 441
U.S. 1, 8, (1979).
The per se standard recognizes that there are some
methods of restraint that are so inherently and facially
anti-competitive that an elaborate and burdensome

6

In evaluating whether Defendants unreasonably restrained
trade, the Supreme Court has explained that “a restraint may be
adjudged unreasonable either because it fits within a class of
restraints that has been held to be ‘per se’ unreasonable, or
because it violates what has come to be known as the ‘Rule of
Reason.’” Fed. Trade Comm’n v. Ind. Fed’n of Dentists, 476 U.S.
447, 457-58 (1986).
7

Price fixing agreements between two or more competitors,
otherwise known as horizontal price-fixing agreements, fall into
the category of arrangements that are per se unlawful. Catalano,
Inc. v. Target Sales, Inc., 446 U.S. 643, 647 (1980)

App. 257
inquiry into a demonstrable economic impact on
competition in a relevant market is not required. Nat’l
Soc’y of Prof’l Eng’rs v. United States, 435 U.S. 679, 692
(1978). Under the per se analysis, “certain agreements
or practices are so ‘plainly anticompetitive,’. . . and so
often ‘lack . . . any redeeming virtue,’. . . that they are
conclusively presumed illegal without further
examination.” Broad. Must, Inc. v. Columbia Broad.
Sys., Inc., 441 U.S. 1, 8 (1979). The decision to apply
the per se rule turns on “whether the practice facially
appears to be one that would always or almost always
tend to restrict competition and decrease output . . . or
instead one designed to ‘increase economic efficiency
and render markets more, rather than less,
competitive.’” Id. at 19-20.
Plaintiff claims that this is a per se antitrust claim
because Defendants effectuated a “group boycott.”8

8

“[There] is more confusion about the scope and operation of the
per se rule against group boycotts than in reference to any other
aspect of the per se doctrine.” L. Sullivan, Law of Antitrust 229230 (1977). Cases to which the Supreme Court has applied the per
se approach have generally involved joint efforts by a firm or firms
to disadvantage competitors by “either directly denying or
persuading or coercing suppliers or customers to deny
relationships the competitors need in the competitive struggle.” Id.
at 261-62. In these cases, the boycott often cut off access to a
supply, facility, or market necessary to enable the boycotted firm
to compete. Silver v. New York Stock Exch., 373 U.S. 341 (1963).
Additionally, the practices were generally not justified by plausible
arguments that they were intended to enhance overall efficiency
and make markets more competitive. Under such circumstances,
the likelihood of anticompetitive effects is clear and the possibility
of countervailing procompetitive effects is remote. Nw. Wholesale
Stationers Inc. v. Pac. Stationary & Printing Co., 472 U.S. 284, 294

App. 258
(Doc. 7 at ¶ 74). Defendants argue that the Amended
Complaint contains no allegations, specific or general,
about any individual act by the hospitals’ alleged coconspirators. The Court disagrees. The Amended
Complaint alleges multiple overt acts by the coconspirators: (1) CHI sent a letter to doctors who were
considering an investment in MCEP stating that it was
a violation of federal and state laws (Doc. 7 at ¶ 67);
(2) CHI, MedAmerican, and UVMC expanded their
network of employed physicians and specialists who
are prohibited from admitting patients to specialty
hospitals (Id. at ¶ 70); (3) Dayton Heart sold out to CHI
in March 2008 and exited the market – the physician
owners of Dayton Heart were eligible for their share of
the proceeds if they agreed not to invest in MCEP (Id.
at ¶ 72); (4) the Hospital Defendants coerced
commercial health insurers or managed care plan
providers, including Anthem, United Healthcare,
Private Healthcare Systems, HealthSpan, Humana,
Aetna, Cigna, and Medical Mutual of Ohio, to refuse
MCEP full access to their respective networks (Id. at
¶ 74); (5) the Hospital Defendants threatened punitive
financial consequences to physicians who affiliated
with MCEP and followed through on punitive measures
against physicians who did affiliate with MCEP,
(1985). A plaintiff seeking application of the per se rule must
present a threshold case that the challenged activity falls into a
category likely to have predominantly anticompetitive effects.
However, under the auspices of a motion to dismiss, neither the
Court nor the parties have the benefit of discovery and the Court
must consider the alleged facts as true. The Court can imagine a
scenario wherein a court determines that the per se rule applies,
but discovery may later support a finding that rule of reason is in
fact the appropriate standard of analysis.

App. 259
including terminating leases that the physicians had
with the Defendants for office space (Id. at ¶ 74);
(6) the Hospital Defendants offered payments to
physicians who agreed not to work with or at MCEP
(Id. at ¶ 74); (7) the Hospital Defendants coerced
physicians affiliated with or employed by them from
becoming members of MCEP, admitting patients to
MCEP or referring patients to physicians who treated
patients at MCEP (Id. at ¶ 74); (8) the Hospital
Defendants hired physicians affiliated with MCEP who
accounted for a disproportionately high number of
admissions and then prohibited them from admitting
patients to MCEP (Id. at ¶ 74); and (9) the Hospital
Defendants coerced commercial health insurers or
managed care plans to provide reimbursement rates
that were below market and below the rates and on
different terms from what they demanded for the exact
same services (Id. at ¶ 74). Additionally, in 2008,
during the midst of the alleged conspiracy, Premier
approached MCEP about the Hospital Defendants
acquiring or otherwise absorbing it. (Id. at ¶ 77).9
The Amended Complaint does not challenge the
legality of the JOA, but rather the joint efforts by the

9

Although the alleged overt acts in furtherance of the conspiracy
include vertical conduct (involving the alleged manipulation and
coercion of managed care plan providers and physician), the
multiplicity of actors as well as the effect of the agreement was
predominately horizontal, and therefore per se illegal. Com-Tel,
Inc. v. Dukane Corp., 669 F.2d 404, 409 (6th Cir. 1982)
(“[A]lthough the coercive pressure in this situation was applied
vertically, we conclude that the stifling of competition in this
instance was predominantly horizontal, warranting application of
the per se rule of illegality as a group boycott.”).

App. 260
Hospital Defendants to disadvantage a direct rival by
coercing managed care plan providers to boycott
MCEP. The fact that this joint conduct may have
occurred within the guise of the JOA does not save it as
a matter of law. Considering the facts in the light most
favorable to the nonmoving party, the Amended
Complaint alleges a naked restraint10 consisting of
conduct falling squarely within the category of boycotts
and subject to per se treatment. (Doc. 7 at ¶ 91).
Courts have held that the per se rule applies to
conduct taken under the mantle of a joint venture11
when the challenged restraint is not reasonably related
to any of the efficiency-enhancing benefits of a joint

10

A particular horizontal agreement is defined as a naked
restraint “if it is formed with the objectively intended purpose or
likely effect of increasing price or decreasing market wide output
in the short run, with output measured by quantity or quality.” See
Hovenkamp Treatise P 1906a. If the Agreement is one that
presents a “naked restraint of trade with no purpose except stifling
competition,” it qualifies for per se treatment. White Motor Co. v.
United States, 372 U.S. 253, 263 (1963). See also Hovenkamp
Treatise P 1906a (“Once a restraint is classified as ‘naked,’
condemnation follows almost as a matter of course, most often
without elaborate inquiry into power or actual effects and with
only a several limited recognition of defenses.”).
11

The existence of shared functions and joint management, along
with the pooling of capital and the consolidation of revenues is the
very definition of a joint venture. Texaco Inc. v. Dagher, 547 U.S.
1, 3-4 (2006) (noting the competitors created an “economically
integrated joint venture” by agreeing to consolidate their
operations and “pool their resources and share the risks of and
profits from [the venture’s] activities”). Generally, the rule of
reason and not the per se rule applies to the conduct of joint
ventures and similar arrangements.

App. 261
venture, and serves instead only as a naked restraint
against competition. See, e.g., Rothery Storage & Van
Co. v. Atlas Van Lines, 792 F.2d 210, 229 (D.C. Dir.
1986). Organizing a group boycott of MCEP does not
promote any legitimate objective of the JOA or achieve
any procompetitive benefits. When an alleged restraint
bears no relationship to some procompetitive
justification or legitimate function of the joint venture,
the challenged restraint must be evaluated on its own
and can be per se illegal even if the remainder of the
joint venture is lawful. Blackburn v. Sweeney, 53 F.3d
825, 828-29 (7th Cir. 1995) (applying per se rule to a
provision in a law partnership dissolution agreement
that restrained the territories where former partners
could advertise after finding the provision to be nonancillary to the rest of the agreement).
Accordingly, based upon the facts before this Court,
the per se theory applies. Plaintiff has sufficiently
alleged the first two factors of the Expert Masonry test,
and the Court will address the third factor infra at
Section C.
B. Single Entity
Conduct by a single entity is not covered by Section
1; rather, the statute applies only to joint conduct.
Copperweld Corp. v. Independence Tube Corp., 467 U.S.
752, 767-68 (1983). Section 1 does not apply to
unilateral conduct; it prohibits only certain agreements
in restraint of trade. Here, Defendants argue that the
Hospital Defendants, through Premier, are so
integrated that they operate as a single entity whose
conduct is beyond the scope of Section 1 of the Sherman
Act.

App. 262
While Plaintiff concedes some facts which indicate
integration between Defendant Hospitals,12 it also
alleges facts that the Hospital Defendants are separate
and distinct entities (Doc. 7 at ¶¶ 48, 87), and that they
remain “actual and potential competitors in the
relevant markets” (id. at ¶ 58). Specifically, Plaintiff
alleges that: (1) the Hospital Defendants are “owned,
controlled and operated independently” (Doc. 7 at ¶ 47);
(2) one of the Hospital Defendants described the JOA
as “separate healthcare systems” operating under the
guidance of Premier (Id.); (3) it characterized the JOA
as a “consolidation of revenue streams” (Id. at ¶ 49);
(4) since its formation, Premier has reported no assets,
no liabilities, no revenue, no income, and no expenses
(Id. at ¶ 50); (5) each of the Hospital Defendants has
maintained independent ownership of, and
responsibilities for, their respective assets, liabilities,
equity, revenues, and expenses (Id. at ¶¶ 52, 53, 55,
56); (6) each of the Hospital Defendants maintains
separate governing boards under Ohio law that
exercise authority for all business operations and
decisions (Id. at ¶¶ 57); (7) each of the Hospital
Defendants makes material independent decisions
concerning their respective operations that are not
managed by Premier (Id. at ¶¶ 6, 9, 11, 14); and (8) the

12

MCEP acknowledges that the Hospital Defendants “jointly
operate separate health care systems” (Doc. 7 at ¶ 51) and that
they “have agreed to operate certain aspects of their respective
hospitals collaboratively” (id. at ¶ 47). MCEP further alleges that
Premier acts for the hospitals (id. at ¶ 6) and that the Hospital
Defendants have consolidated revenues through Premier (id. at
¶¶ 3, 49).

App. 263
Hospital Defendants remain actual and potential
competitors in the relevant markets (Id. at ¶ 58).
Accordingly, Plaintiff has alleged sufficient facts to
maintain that the Hosptial Defendants are not a single
entity. While the JOA might “refute” some of these
allegations, that simply creates a facutal dispute. This
Court cannot assume the JOA is being enforced as
written.
Plaintiff cites Healthamerica Penn. v. Susquehanna
Health Sys., 278 F. Supp. 2d 423 (M.D. Pa. 2003), in
support of its argument. In Healthamerica, which had
a JOA similar to the one challenged here, two health
care systems formed Susquehanna Regional Healthcare
Alliance for the purpose of managing the delivery of
healthcare services in central Pennsylvania. Id. at 426.
The Court held that it was “readily apparent that
defendants’ actions [were] guided ‘not by two separate
corporate consciousness, but one.’” Id. at 435. However,
Healthamerica was decided on a summary judgment
motion and then only after extensive discovery had
been conducted with respect to whether the hospitals
and the alliance actually functioned as a single entity.
Additionally, the health alliance in Healthamerica was
subjected to considerable antitrust scrutiny at its
formation. In fact, the Pennsylvania Attorney General’s
Office negotiated a consent decree with the parties
which “authorized the formation of the Susquehanna
Alliance in exchange for various conditions and
restrictions on the new entity’s operations and pricing.”
Id. at 427.

App. 264
Defendants fail to point to any case where a court
has decided this factually driven issue on a motion to
dismiss.
C. Antitrust Injury
Finally, in order to state a claim, Plaintiff must
plead an antitrust injury. An antitrust injury is an:
(1) “injury of the type the antitrust laws were intended
to prevent” and (2) injury “that flows from that which
makes defendants’ acts unlawful.” “[B]ecause the
purpose of the antitrust laws is to protect competition
rather than competitors, a plaintiff must allege injury,
not only to himself, but to a relevant market. Thus,
failure to allege an anti-competitive impact on a
relevant market amounts to a failure to allege an
antitrust injury.” Brown Shoe Co. v. United States, 370
U.S. 294, 320 (1962). “[A] plaintiff must put forth
factual allegations plausibly suggesting that there has
been an adverse effect on prices, output, or quality of
goods in the relevant market as a result of the
challenged actions.” Guinn v. Mount Carmel Health,
No. 2:09cv226, 2012 U.S. Dist. LEXIS 24353, at *4
(S.D. Ohio Feb. 27, 2012). Injury to the plaintiff alone
does not satisfy the antitrust injury requirement: “the
key inquiry is whether competition - not necessarily a
competitor – suffered as a result of the challenged
business practice.” CBC Companies v. Equifax, Inc.,
561 F.3d 569, 571-72 (6th Cir. 2009).13
13

“[A]n antitrust plaintiff must show that (1) the alleged violation
tended to reduce competition overall and (2) the plaintiff’s injury
was a consequence of the resulting diminished competition.”
J.B.D.L. Corp. v. Wyeth-Ayerst Labs. Inc., 485 F.3d 880, 887 (6th
Cir. 2007). This requires a demonstration, “as a threshold matter,

App. 265
Plaintiff argues that “the adverse effect of
competition is presumed” in per se cases. (Doc. 29 at
11-12). To the contrary, the caselaw notes that “[t]he
‘mere presence’ of a per se violation under Sherman Act
§ 1 . . . does not by itself bestow on any plaintiff a
private right of action for damages.” Rebel Oil Co. v.
Atl. Richfield Co., 51 F.3d 1421, 1443-44 (9th Cir.
1995). “[T]he per se rule is a method of determining
whether § 1 of the Sherman Act has been violated,” Atl.
Richfield Co. v. USA Petroleum Co., 495 U.S. 328, 34142 (1989), but “it does not indicate whether a private
plaintiff has suffered antitrust injury and thus whether
he may recover damages under § 4 of the Clayton Act.”
Id. “[T]he need for this showing [of antitrust injury] is
at least as great under the per se rule as under the rule
of reason. Indeed, insofar as the per se rule permits the
prohibition of efficient practices in the name of
simplicity, the need for the antitrust injury
requirement is underscored.” Id. at 343.
Plaintiff claims that the Amended Complaint
“explicitly alleges that Dayton-area consumers have
been forced to pay higher prices as a result of
Defendants’ conduct.” (Doc. 29 at 13). Although, the
words “higher prices” do not appear in the Amended
Complaint, it does state that
Defendants’ conduct caused injury to
competition in the relevant markets. For
example, it denied consumers of general

‘that the challenged action has had an actual adverse effect on
competition as a whole in the relevant market.’” George Haug Co.
v. Rolls Royce Motor Cars, Inc., 148 F.3d 136, 139 (2nd Cir. 1998).

App. 266
inpatient surgical services the ability to use the
[MCEP] under their health plans, thereby
eliminating the Hospital Defendants’ only
competitor other than Kettering. This materially
constrained the [MCEP] from exerting
competitive pressure on the Hospital
Defendants’ pricing and quality.
(Id. at ¶ 84). Additionally, the Amended Complaint
maintains that Defendants’ conduct actually “denied”
Plaintiff “access to managed care plans,” which alleges
an injury to both Plaintiff and competition in general:
In furtherance of this conspiracy, the Hospital
Defendants, through Premier, committed at
least the following overt acts directed at the
Medical Center: . . coercing, compelling, coopting or financially inducing commercial health
insurers or managed care plans to provide
reimbursement rates that were below market
and below the rates and on different terms from
what the Hospital Defendants demanded for the
exact same services. The managed care plan
providers involved in the overt acts identified
above represent in excess of 70 percent of
insured individuals in the Dayton are. As an
example, in early 2008, Private Healthcare
Systems advised the Medical Center that it
attempted to get Defendant Premier to remove
the exclusivity provision in the contract that
Private Healthcare Systems had with the
Hospital Defendants, but Premier refused. In
2009, Premier told HealthSpan that it would
terminate the contract that Health Span had

App. 267
with the Hosptial Defendants if HealthSpan
added the Medical Center to its Preferred Plan
list of participating hospitals.
(Doc. 7 at ¶¶ 74, 75).
Plaintiff has set forth facts which allege that
Defendants’ violation reduced competition overall and
injured Plaintiff. Thus, Plaintiff has alleged sufficient
facts to state a claim for violation of Section 1 of the
Sherman Act.
IV. CONCLUSION
Accordingly, based on the foregoing, Defendants’
motion to dismiss (Doc. 22) is DENIED.
IT IS SO ORDERED.
Date: 8/30/12
s/ Timothy S. Black
Timothy S. Black
United States District Judge

App. 268

APPENDIX J
UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT
No. 17-3863
[Filed June 7, 2019]
_____________________________
MEDICAL CENTER AT
)
ELIZABETH PLACE, LLC,
)
)
Plaintiff-Appellant,
)
)
v.
)
)
ATRIUM HEALTH SYSTEM, )
et al.,
)
)
Defendants-Appellees.
)
_____________________________ )
ORDER
BEFORE: BATCHELDER, SUTTON, and WHITE,
Circuit Judges.
The court received a petition for rehearing en banc.
The original panel has reviewed the petition for
rehearing and concludes that the issues raised in the
petition were fully considered upon the original
submission and decision of the case. The petition then
was circulated to the full court. No judge has requested
a vote on the suggestion for rehearing en banc.

App. 269
Therefore, the petition is denied. Judge Sutton
adheres to his separate concurrence. Judge White
adheres to her dissent and would grant rehearing.
ENTERED BY ORDER OF THE COURT
/s/Deborah S. Hunt
Deborah S. Hunt, Clerk

App. 270

APPENDIX K
Regent
Surgical Health
Discussions with Tom Arqilla and Adam Middleton
• Wednesday, April 19, 2006 I received a call from
Tom Arquilla after he called Scott Becker to get my
number. Tom was emphatic that Premier would not
allow our hospital to open. I asked him what he
planned to do as we have already syndicated to 60
physicians and collected full funds. He indicated
that they would do whatever they needed to do in
order to stop us from opening. He said that Premier
lived through the opening of the Heart Hospital and
they would not do this again. I suggested that, in
fact, they “lived” and they would live through our
project too. He insisted that our project will
bankrupt Good Sam. I suggested that while many of
our doctors are on staff at Good Sam, the main
volume will come from Kettering. He asked that I
review our staff list and we would talk later that
week.
• Wednesday, April 26, 2006 After talking by phone
on Tuesday, we agreed to meet for lunch on
Wednesday. I met Tom and Adam at 12 PM at the
Miami Valley cafeteria. Adam said very little. Tom
reiterated his belief and the belief of the board that
our facility would bankrupt Good Sam. He indicated
his sole purpose for working everyday was to
provide healthcare for the poor and uninsured of

App. 271
Dayton and our facility would prevent the cost
shifting from insured patients that we would treat
to the uninsured that they will treat. When I shared
that ½ of our doctors were from Good Sam, the high
volume surgeons are from Grandview. He indicated
that any negative affect on Grandview would hurt
Good Sam because Kettering would forsake the city
and close it, leaving Good Sam as the sole provider
of charity care for the downtown area. We discussed
what they planned on doing and he indicated they
will do everything they can to stop us from opening.
However, Tom admitted that Premier hospitals
have improved since the Heart Hospital opened. As
we parted, Tom asked if the members of MCEP
would consider partnering with Premier? He did not
know if the board of Good Sam and Premier would
agree, but he felt he needed to ask. I told him I
would ask the board who was meeting that evening
and call him the next day.
• Tuesday, May 2, 2006 I called and left a message
for Tom to call me. Adam returned the call on
Thursday May 4. I shared the board’s skepticism,
due to negotiations around Dayton Rehab, but they
would listen to any ideas Premier might propose to
partner. I asked Adam about Tom’s idea on the I475 site and he confessed he had no idea what Tom
was thinking. Tom was under the weather and
would call me back when he returned to work.
36 Regent Drive • Oak Brook, Illinois 60523 •
708.686.1522 • Fax: 630.654.1258
tmallon@regentsurgicalhealth.com
www.regentsurgicalhealth.com

App. 272

APPENDIX L
2011 OVERVIEW
MARKET OVERVIEW
Dayton
2011 Issue
Updated: November 2011
CLOSE :
HealthLeaders
InterStudy
A Decision Resources, Inc. Company
***STOP***
If you have previously downloaded
this PDF, it may not be the most
updated version. Please check the
HealthLeaders-InterStudy Gateway
to ensure you have the most
updated information on this topic.
www.hl-isygateway.com
HealthLeaders
InterStudy
A Decision Resources Group Company
Published November 2011 Copyright © 2011
HealthLeaders-InterStudy, A Decision Resources, Inc.
Company Copyright Strictly Enforced

App. 273
Dayton Market Overview
www.hl.isy.com
Contents
3 Updates: Key
Market Events
4 Executive Summary
5 Dayton Market
9 Health Systems &
Hospitals
22 Physicians
28 Health Plans

38 Medicaid/Medicare/
Uninsured
41 Pharmacy
43 Legislation
45 Employers
48 Demographics &
Statistics
49 HealthLeadersInterStudy

Dayton

Population

Counties Covered:
Clark, Greene, Miami,
Montgomery and Preble

979,835

Key Cities Covered:
Dayton and Springfield
Market Stage:
This Market Is
Consolidated

App. 274
Analysis For Dayton Healthcare Market

Opportunities:
Pharma
» A low uninsured rate
combined with high
rates of obesity, cancer
and cardiovascular
disease create a formula
for boosting prescription
drug sales. And data
from Kaiser Family
Foundation and the
Agency for Healthcare
Research and Quality
indicate a large amount
of drug use per capita in
Ohio.
» The market’s two
leading health systems
are competing to deliver
the most lucrative
medical services lines.
Watch tor the result to
be duplication of
services but also robust
access to treatment and
prescription drugs for
patients.

Threats:
Pharma
» Consumer-driven
health plan options will
become even more
prevalent in the area,
and will likely expand
in the public sector
because Ohio
lawmakers are
attempting to cut costs
on healthcare benefits
for state employees. If
less rich healthcare
benefits are provided to
them, public employees
will likely spend less
lavishly on pharma
products.
» As of Oct. 1, 2011,
Medicaid prescription
drug benefits are again
under the control of
managed care plans,
which could put tighter
restrictions on
prescription drug use.

App. 275

Opportunities:
Managed Care

Threats:
Managed Care

» A UnitedHealth Group
pilot program is
attempting to lower
costs by using a bundled
payment model to
reduce unnecessary
drug administration by
oncologists. Regardless
of the drugs used to
treat patients, the
oncologists will be paid
the same. Breast colon
and lung cancer are
being targeted for this
pilot.

» The public sector in
the Dayton area was
already shedding
employees (and hence
insured members); a
greater shift in costs to
those who remain
employed may cause a
further deterioration in
a once-reliable
membership base.

» MCOs regained control
of pharmacy benefits in
October 2011, giving
them more tools to
manage care and reduce
drug spending.
Sources: HealthLeaders-InterStudy, 2011
© HealthLeaders-InterStudy
Copyright© 2011 * HealthLeaders-InterStudy * Dayton
Market Overview * Published November 2011

App. 276
*

*

*

[p.30]
WellPoint (Anthem Blue Cross and Blue Shield in
Ohio)
Table 6-1
Income and
Revenue*
2008 Net
Income: $528.5M
2008 Revenue:
$4.17B

Local
Statewide
Enrollment** Enrollment**
Commercial
Commercial
HMO: 10,595
HMO: 97,542
Fully Insured Fully Insured
Commercial
Commercial
PPO: 594,323
PPO: 64,502
2009 Net
Self-Insured
Self-Insured
Income: $2.52B PPO: 71,551
PPO: 664,513
2009 Revenue:
Fully-Insured Fully-Insured
$4.07B
POS: 1,797
POS: 16,605
Self-Insured
Self-Insured
POS: 1,927
POS: 17,819
Managed
Managed
Medicaid: 0
Medicaid: 0
Medicare
Medicare
HMO: 10,739
HMO: 86,167
Medicare PPO: Medicare
9,508
PPO: 70,488
*Reports in Ohio as Community insurance Co.;
includes all lines of business.
** As of Jan. 1, 2011, Commercial enrollments are
projected and include members of WellPoint plans
based in other states. Does not include COHP lives.
Sources: HealthLeaders-InterStudy; managed Medicaid

App. 277
is from state Medicaid department; Medicare HMO and
PPO are from the Centers for Medicare & Medicaid
Services.
For-profit, Indianapolis-based WellPoint is the
parent of Anthem Blue Cross and Blue Shield in
Ohio, the largest health plan in the Dayton market,
with the majority of PPO enrollment.
Anthem is also the largest carrier statewide, and
WellPoint is the nations largest health benefits
company by enrollment.
Anthem and Premier Health Partners renewed
their contract in July 2010 through the end of 2013,
although Atrium Medical Center and Upper Valley
Medical Center are on a separate contract than
runs through 2012. Kettering also has a contract
with Anthem, which was extended in July 2010
through Feb. 14, 2012. Anthem signed a new
contract with physician-owned Ohio Valley Medical
Center in Springfield in August 2010.
Anthem piloted its individual health record in
Dayton as a partnership with Kettering Health
Network, building on Kettering’s EMR system and
integrating it with Anthem’s claims systems. The
DaytonHealthKonnect IHR puts claims and clinical
data through complex algorithms to arrive at a
functional health summary, which the company
says differentiates its IHR from the typical EMR
system. Anthem sees it as one of the most
promising efforts to control costs among members
with chronic conditions. The IHR is made available

App. 278
to the patient in the form of a personal health
record, and to the physician in the form of an EMR
with e-prescribing capability. The health record
incorporates Anthem’s pay-for-performance rules,
paying physicians more if they practice medicine
consistent with evidence-based guidelines, and will
incorporate its utilization management rules so that
physicians will have to call the company less
frequently. Early results showed a 7.4 percent
reduction in overall healthcare trend costs by
participants, who were also more likely to receive
key disease screening tests.
In April 2010, DaytonHealthKonnect began a major
strategic expansion phase with Kettering Health,
agreeing to exchange data from its clinical systems
with the IHR, allowing anyone using Kettering
facilities or physicians to access their own personal
IHR. The program had been restricted to employees
of Kettering and their dependents, but is being
rolled out to more than 500,000 people.
The success of the IHR Diabetes program has
allowed Kettering to halve their copays for diabetic,
cholesterol and hypertension drugs for participating
patients.
Another initiative that was piloted in Dayton is
Anthem Care Comparison, an online tool that
provides detailed cost information on nearly 40
medical procedures performed at specific area
hospitals, outpatient surgery centers and
freestanding radiology facilities. Started in
September 2006 with General Motors in Dayton,

App. 279
the program has been rolling out through Anthem
markets since.
*

*

*

[p.32]
UnitedHealth Group (UnitedHealthcare)
Table 6-2
Income and
Revenue*
2008 HMO Net
Income: $27.7M
2008 HMO
Revenue:
$702.5M
2009 Net HMO
Income: $8.8M
2009 HMO
Revenue:
$749.3M

Local
Enrollment**
Commercial
HMO: 171
Fully Insured
Commercial
PPO: 9,018
Self-Insured
PPO: 3,318
Fully-Insured
POS: 41,435
Self-Insured
POS: 81,999
Managed
Medicaid: 0

Statewide
Enrollment**
Commercial
HMO: 4,275
Fully Insured
Commercial
PPO: 84,875
Self-Insured
PPO: 30,335
Fully-Insured
POS: 268,024

Self-Insured
POS: 615,892
Managed
Medicaid:
118,781
Medicare
Medicare
HMO: 22,465
HMO: 78,511
Medicare PPO: Medicare
497
PPO: 5,441
* Multistate reporting.
**As of Jan. 1, 2011.

App. 280
Sources: HealthLeaders-InterStudy; managed Medicaid
is from state Medicaid department; Medicare HMO and
PPO are from the Centers for Medicare & Medicaid
Services.
Minnetonka, Minn.-based UnitedHealth Group
operates as United Healthcare of Ohio in the
Dayton market, where it is the second-largest
health plan, based mainly on its sizable stand-alone
point-of-service enrollment. UnitedHealth Group
also has the largest local managed Medicare
enrollment.
UnitedHealth Group is the third-largest managed
care plan in Ohio and the second largest nationally.
In September 2010, UnitedHealth Group began
offering diabetic members paid consultations with
Walgreens pharmacists in six pilot markets,
including Dayton; other markets include Cincinnati
and Columbus in Ohio. Through the Diabetes
Prevention and Control Alliance, participants
receive personalized coaching and counseling
services. The program will roll out to the remainder
of the nation through 2012. UnitedHealth rewards
diabetic and pre-diabetic members who routinely
follow independent, medically-proven steps to help
manage their conditions and use wellness coaching.
Premier Health Partners and UnitedHealth Group
renewed their contract in April 2010.
UnitedHealth Group is a leader in disease
management, electronic health records and
pharmacy benefit management. It has rolled out

App. 281
several initiatives promoting value-based benefits
in pharmacy design, and it expects continued
growth in consumer-driven plans as well as with
plans focused on a smaller network of providers and
on wellness components.
UnitedHealthcare is also a leader in the smallgroup market and is looking to increase that
business through a new strategy called
MultiChoice, which offers the carrier’s traditional
plan lineup with a defined-contribution from the
employer while allowing members to pay more for
richer benefits. The new strategy is being tested in
Cincinnati, Columbus, Dayton and other markets
where brokers report a large proportion of smallgroup employers dropping coverage. Plan designs
range from low-deductible copay plans to highdeductible plans paired with health savings
accounts or heath reimbursement arrangements,
and many points in between. Common plan features
include coinsurance in the 20 percent to 30 percent
range after the deductible has been met. The
employer chooses a few options that will be offered
to employees, with the employer obligated only to a
pre-set percentage of the premium.
The UnitedHealth Premium Designation program
is a physician performance assessment initiative
that uses evidence- and consensus-based medicine
and national standards to evaluate physicians in 20
specialties for quality and cost efficiency of clinical
care. There are some UnitedHealth Group medical
plan designs, such as EDGESM and Tiered
Benefits, that allow members to pay lower copays

App. 282
and/or coinsurance percentages when they use a
two-star quality and cost-efficiency designated
specialist.
*

*

*

App. 283

APPENDIX M
UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF OHIO
(Western Division)
Case No. 3:12-cv-00026-TSB
Judge Timothy S. Black
[Filed August 27, 2014]
________________________________
THE MEDICAL CENTER
)
AT ELIZABETH PLACE, LLC,
)
)
Plaintiff,
)
)
v.
)
)
PREMIER HEALTH PARTNERS, )
et al.,
)
)
Defendants.
)
________________________________ )
DECLARATION OF ALEX RINTOUL
1.
My name is Alex Rintoul. I am over eighteen
years of age and competent to give testimony.
2.
I am the CEO of The Medical Center at
Elizabeth Place. I have held that position since
January 2007.

App. 284
3.
I have been involved in the administration
and management of healthcare facilities for 23 years.
4.
Healthcare insurers (payers) may offer
several types healthcare insurance products. Two of
these are Health Maintenance Organizations (“HMOs”)
and Preferred Provider Organizations (“PPOs”). In
both, providers, including hospitals, contract with a
payer to perform healthcare services to a group of the
payer’s customers (“insureds” or “covered lives”). PPO
and HMO products are referred to as managed care
plans, and the written agreement by which a payer
authorizes a provider to offer healthcare service to
insureds is called a managed care agreement. Providers
with a contract are referred to as “participating,” “par,”
or “in network’; providers without a contract are
considered “out of network” with that particular payer.
5.
In a PPO, insureds are not required to use
the providers participating in the PPO, but if they do,
their out-of-pocket responsibility is lower. An HMO can
be more restrictive than a PPO because some HMOs
require insureds to use only in-network providers and
offer no out-of-network benefits to insureds. An insured
in those HMOs would bear full responsibility for the
cost of the out of network service.
6.
Some payers also market a Traditional/
Indemnity product, under which they agree to cover a
certain percentage of an insured’s healthcare expense
after the insured meets an annual deductible.
Traditional products give insureds flexibility because
they choose any provider and receive the same benefit.

App. 285
7.
Non-hospital providers include: ambulatory
surgery centers performing outpatient procedures not
requiring overnight hospital stays; freestanding
imaging or laboratory facilities; and specialty hospitals
providing a limited range of specialty procedures, often
organized around a singular issue, such as surgery,
cardiac care, or women’s care. These facilities may be
wholly owned by physicians, wholly owned by
hospitals, or owned in part by each.
8.
Insureds can obtain their healthcare from
any of these providers or the hospitals; however, they
are more likely to choose a healthcare provider covered
by their payer’s networks so as to avoid penalties for
using an out-of-network provider. Being out of network
with a payer raised the patient’s out-of-pocket costs if
they had a procedure performed at MCEP.
9.
Because of these payer networks, and the
agreements between the payer and the insureds, a
healthcare provider must be an in-network provider in
order to receive an appreciable volume of patients.
10.
MCEP received its Joint
certification on November 13, 2006.

Commission

11.
From the day it opened for business until it
was forced to sell an interest to KHN because of the
Defendants, MCEP was the only non-specialty acutecare hospital operating in Dayton independent of
Defendants and KHN. MCEP competes with the
Defendants and KHN.
12.
MCEP has never offered cardiac surgical
services.

App. 286
13.
The sole reason MCEP sold part of its
business to KHN in 2009 was to get access to the
payers’ managed care networks through the KHN
contracts with those payers. From September 2006
until its forced partial sale to Kettering Health
Network on January 1, 2009, MCEP was unable to get
any managed care contracts from Anthem, UHC,
Aetna, Cigna, Emerald, or PHCS, among others.
14.
CIGNA did not pursue a contract with MCEP
after October 2008. In fact, CIGNA has never offered
MCEP a managed care contract.
15.
Lack of access to managed care plans severely
impeded MCEP’s ability to compete with KHN and
Defendants. Being out of network with a payer raised
the patient’s out-of-pocket costs if they have a
procedure performed at MCEP. Also, some payers
advise physicians operating under their own
professional managed care agreement with the payer
that the professional risked not receiving his/her
professional fees for procedures performed at out-ofnetwork facilities like MCEP. These factors, among
others, deterred physicians from utilizing MCEP and
affected our ability to compete for cases.
16.
In addition, some payers advised MCEP that
it might not receive any payments on services provided
out of network if the procedure did not meet certain
specific criteria. Payers deny out-of-network claims at
a far greater rate than they deny in-network claims.
Additional Anthem, when it covered an out-of-network
claim, would pay the patient instead of MCEP, forcing
MCEP to pursue the patient to collect the balance due

App. 287
from Anthem for the services. Many of these collection
efforts were unsuccessful.
17.
The manner in which payers handle out-ofnetwork claims, created uncertainty with respect to
anticipated revenue and raised MCEP’s costs.
18.
This changed once MCEP was able to
participate in managed care networks in 2009 after it
sold an ownership interest to KHN. The number of
cases increased substantially with respect to each
payer with which MCEP had in-network status.
19.
In August 2008, we received from Bryan
Weber at Anthem Blue Cross Blue Shield for the first
time a rate proposal for Anthem’s Traditional program.
When we sent a rate counterproposal, Bryan Weber,
then at Anthem, cut off the negotiations in September
2008. When KHN negotiated on MCEP’s behalf with
Anthem in 2009, Bryan Weber was then working for
KHN and so was negotiating against his old employer
Anthem. When we finally secured managed care
contracts from Anthem after selling part of our
business to KHN, the rates in those contracts were
higher than the rates that Anthem proposed back in
August 2008.
20.
In late 2008, MCEP was forced to selling half
its business to KHN solely because of the Defendants’
success in preventing MCEP from getting managed
care contracts.
21.
Anthem did not offer MCEP a managed care
contract until the 2009 KHN investment.

App. 288
22.
UHC did not offer MCEP a managed care
contract until the 2009 KHN investment.
23.
Humana did not offer MCEP a managed care
contract until the 2009 KHN investment.
24.
Aetna did not offer MCEP a managed care
contract until the 2009 KHN investment.
25.
PHCS has never offered MCEP a managed
care contract.
26.
Emerald Health Network has never offered
MCEP a managed care contract.
27.
HealthSpan did not offer a managed care
contract to MCEP until the 2009 KHN investment.
28.
GILD (Gastro Intestinal Liver Disease) is a
GI practice in Dayton. GILD (through Gastro Ventures
LLC) was one of MCEP’s founding investors. GILD’s
practice involved significant use of our pathology lab;
in fact, GILD was one of the driving forces behind the
decision to invest in the lab. While investors, GILD
sent specimens to MCEP’s pathology lab. When the
physicians from GILD who owned MCEP shares sold
them back to MCEP because of pressure from
Defendants, GILD stopped sending specimens to
MCEP’s pathology lab.
29.
Drs. Lawrence Goldstick, Thomas Cook and
Alan Jacobs have been investors in MCEP since its
inception.
30.
Dr. Toth sold back his shares in 2011. A
primary reason stated by Dr. Toth for this decision was
pressure he was feeling from Defendants on his

App. 289
practice in the form of lost referrals from physicians
associated with Defendants. Dr. Wilcher forfeited his
shares 2011. A primary reason stated by Dr. Wilcher
for this decision was pressure he was feeling from
Defendants on his practice in the form of lost referrals..
After Drs. Toth and Wilcher sold back their shares in
MCEP, they stopped using MCEP for procedures.
I declare under penalties of perjury that the
foregoing is true and correct to the best of my
knowledge.
/s/Alex Rintoul
Alex Rintoul
August 27, 2014

